<html>
<title> - THE PEBBLE MINE PROJECT: PROCESS AND POTENTIAL IMPACTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         THE PEBBLE MINE PROJECT: PROCESS AND POTENTIAL IMPACTS

=======================================================================

                                (116-39)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-942 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
RICK LARSEN, Washington                  Arkansas
GRACE F. NAPOLITANO, California      BOB GIBBS, Ohio
DANIEL LIPINSKI, Illinois            DANIEL WEBSTER, Florida
STEVE COHEN, Tennessee               THOMAS MASSIE, Kentucky
ALBIO SIRES, New Jersey              MARK MEADOWS, North Carolina
JOHN GARAMENDI, California           SCOTT PERRY, Pennsylvania
HENRY C. ``HANK'' JOHNSON, Jr.,      RODNEY DAVIS, Illinois
    Georgia                          ROB WOODALL, Georgia
ANDRE CARSON, Indiana                JOHN KATKO, New York
DINA TITUS, Nevada                   BRIAN BABIN, Texas
SEAN PATRICK MALONEY, New York       GARRET GRAVES, Louisiana
JARED HUFFMAN, California            DAVID ROUZER, North Carolina
JULIA BROWNLEY, California           MIKE BOST, Illinois
FREDERICA S. WILSON, Florida         RANDY K. WEBER, Sr., Texas
DONALD M. PAYNE, Jr., New Jersey     DOUG LaMALFA, California
ALAN S. LOWENTHAL, California        BRUCE WESTERMAN, Arkansas
MARK DeSAULNIER, California          LLOYD SMUCKER, Pennsylvania
STACEY E. PLASKETT, Virgin Islands   PAUL MITCHELL, Michigan
STEPHEN F. LYNCH, Massachusetts      BRIAN J. MAST, Florida
SALUD O. CARBAJAL, California, Vice  MIKE GALLAGHER, Wisconsin
    Chair                            GARY J. PALMER, Alabama
ANTHONY G. BROWN, Maryland           BRIAN K. FITZPATRICK, Pennsylvania
ADRIANO ESPAILLAT, New York          JENNIFFER GONZALEZ-COLON,
TOM MALINOWSKI, New Jersey             Puerto Rico
GREG STANTON, Arizona                TROY BALDERSON, Ohio
DEBBIE MUCARSEL-POWELL, Florida      ROSS SPANO, Florida
LIZZIE FLETCHER, Texas               PETE STAUBER, Minnesota
COLIN Z. ALLRED, Texas               CAROL D. MILLER, West Virginia
SHARICE DAVIDS, Kansas               GREG PENCE, Indiana
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
Vacancy
            Subcommittee on Water Resources and Environment

                 GRACE F. NAPOLITANO, California, Chair
DEBBIE MUCARSEL-POWELL, Florida,     BRUCE WESTERMAN, Arkansas
    Vice Chair                       DANIEL WEBSTER, Florida
EDDIE BERNICE JOHNSON, Texas         THOMAS MASSIE, Kentucky
JOHN GARAMENDI, California           ROB WOODALL, Georgia
JARED HUFFMAN, California            BRIAN BABIN, Texas
ALAN S. LOWENTHAL, California        GARRET GRAVES, Louisiana
SALUD O. CARBAJAL, California        DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
LIZZIE FLETCHER, Texas               RANDY K. WEBER, Sr., Texas
ABBY FINKENAUER, Iowa                DOUG LaMALFA, California
ANTONIO DELGADO, New York            BRIAN J. MAST, Florida
CHRIS PAPPAS, New Hampshire          GARY J. PALMER, Alabama
ANGIE CRAIG, Minnesota               JENNIFFER GONZALEZ-COLON,
HARLEY ROUDA, California               Puerto Rico
FREDERICA S. WILSON, Florida         SAM GRAVES, Missouri (Ex Officio)
STEPHEN F. LYNCH, Massachusetts
TOM MALINOWSKI, New Jersey
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bruce Westerman, a Representative in Congress from the State 
  of Arkansas, and Ranking Member, Subcommittee on Water 
  Resources and Environment:

    Opening statement............................................     2
    Prepared statement...........................................     4
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     6
Hon. Don Young, a Representative in Congress from the State of 
  Alaska:

    Opening statement............................................     8
    Prepared statement...........................................     9
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    60

                               WITNESSES

Dennis J. McLerran, Environmental Attorney, Cascadia Law Group:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Tom Collier, Chief Executive Officer, Pebble Partnership:

    Oral statement...............................................    17
    Prepared statement...........................................    19
Richard K. Borden, Owner, Midgard Environmental Services LLC:

    Oral statement...............................................    29
    Prepared statement...........................................    31
Alannah Hurley, Executive Director, United Tribes of Bristol Bay:

    Oral statement...............................................    34
    Prepared statement...........................................    36
Brian Kraft, Owner, Alaska Sportsman's Lodge:

    Oral statement...............................................    41
    Prepared statement...........................................    42
Mark Niver, Bristol Bay Driftnet Permit Holder, FV Surrender:

    Oral statement...............................................    45
    Prepared statement...........................................    47
Anisa Kamadoli Costa, Chief Sustainability Officer, Tiffany & 
  Co.:

    Oral statement...............................................    50
    Prepared statement...........................................    51

                       SUBMISSIONS FOR THE RECORD

Statement of Michael Jackson, Bristol Bay Driftnet Permit Holder, 
  FV Kelly J, Submitted for the Record by Hon. Rick Larsen.......    10
Article from Juneau Empire, Submitted for the Record by Hon. 
  Debbie Mucarsel-Powell.........................................    69
Article from Anchorage Daily News, Submitted for the Record by 
  Hon. Debbie Mucarsel-Powell....................................    72
Letter of September 29, 2010, from Patrick Dorsey, Senior Vice 
  President, Secretary and General Counsel, Tiffany & Co., 
  Submitted for the Record by Hon. Bruce Westerman...............    79
``EPA's Bristol Bay Watershed Assessment: Obtainable Records Show 
  EPA Followed Required Procedures Without Bias or 
  Predetermination, but a Possible Misuse of Position Noted,'' 
  EPA Report No. 16-P-0082, January 13, 2016, Submitted for the 
  Record by Hon. Peter A. DeFazio................................    95
``Report of an Independent Review of the United States 
  Environmental Protection Agency's Actions in Connection With 
  Its Evaluation of Potential Mining in Alaska's Bristol Bay 
  Watershed,'' Executive Summary, The Cohen Group and DLA Piper 
  LLP, October 6, 2015, Submitted for the Record by Hon. Bruce 
  Westerman......................................................    95
Supplemental Written Testimony Provided by Richard K. Borden, 
  Owner, Midgard Environmental Services LLC......................   100
Chart and Email Provided by Alannah Hurley, Executive Director, 
  United Tribes of Bristol Bay...................................   102
Screen captures, ``CNN Exclusive: Complaint Seeks Investigation 
  of Alleged Insider Trading That May Have Come From a Trump 
  Administration Leak,'' Provided by Brian Kraft, Owner, Alaska 
  Sportsman's Lodge..............................................   104
Companies Opposed to Proposed Pebble Mine, Submitted for the 
  Record by Hon. Peter A. DeFazio................................   104
Timeline of Pebble Mine Process, Submitted for the Record by Hon. 
  Peter A. DeFazio...............................................   106

                                APPENDIX

Question from Hon. Don Young to Alannah Hurley, Executive 
  Director, United Tribes of Bristol Bay.........................   107
Question from Hon. Don Young to Brian Kraft, Owner, Alaska 
  Sportsman's Lodge..............................................   108

 
         THE PEBBLE MINE PROJECT: PROCESS AND POTENTIAL IMPACTS

                              ----------                              


                      WEDNESDAY, OCTOBER 23, 2019

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:58 a.m., in 
room 2167, Rayburn House Office Building, Hon. Grace F. 
Napolitano (Chairwoman of the subcommittee) presiding.
    Mrs. Napolitano. Good morning. I call this hearing to 
order, and we are here today to focus on the Pebble Mine 
project. Let me begin by asking unanimous consent that the 
chair be authorized to declare recesses during today's hearing. 
Without objection, so ordered.
    Today's hearing is very important with significant impact 
to the Nation. While the topic of the Pebble Mine project may 
seem local to Alaska, the impacts of the mining project in 
Bristol Bay may be felt as far away as Washington, Oregon, 
California--my State--States with a robust salmon fishing 
industry--and the rest of the world.
    The predominant Alaska Native cultures present in the 
Nushagak and Kvichak River watershed--the Yup'ik, Dena'ina, and 
Alutiiq--sorry if I mispronounce them--are two of the last 
intact, sustainable, salmon-based cultures in the world. And it 
is for this reason that it is important that the Pebble Mine 
project be examined thoroughly with the best science before it 
proceeds.
    Today, we will talk about the process for permitting the 
Pebble Mine project. Like any process, the outcome of it is as 
good as its input. In this case, it is not clear that the 
scientific data is being properly reviewed or considered. The 
Environmental Protection Agency, EPA, has a significant role in 
permitting projects for this mine, even though the Army Corps 
of Engineers is the primary leader in permitting. EPA should be 
participating in a robust review process for a mine that was 
once described as the largest open-pit mine in the world.
    Even though the current proposal for the mine focuses on a 
smaller scale mine, the EPA has an important role in evaluating 
the potential impacts of the latest proposal. It now seems like 
the EPA is backing off of reviewing the permitting process in a 
significant manner. Specifically, on July 1, 2019, the EPA 
expressed concern that the draft EIS, environmental impact 
statement, underestimated impacts and risks of the Pebble Mine 
project to water resources.
    However, on July 30, 30 days later, they chose to withdraw 
protections for Bristol Bay under section 404(c) of the Clean 
Water Act. What happened in 30 days to change the EPA's mind?
    We need to get to the bottom of this and find out why EPA 
has changed its mind, or had it changed for them, about the 
potential impacts of the mine.
    The process seems flawed. I am not convinced that if we 
continue to let the process play out, as proponents of the mine 
suggest, that we will end up with a final decision based on 
good science and data. We need evidence that this project is 
being properly reviewed. And so far, I have not seen that.
    [Mrs. Napolitano's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Grace F. Napolitano, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
                    Water Resources and Environment
    Good morning. Today's hearing is on a very important issue with 
significant impacts for the nation.
    While the topic of the Pebble Mine project may seem local to 
Alaska, the impacts of a mining project in Bristol Bay may be felt as 
far away as Washington, Oregon, California--states with a robust salmon 
fishing industry--and the rest of the world.
    The predominant Alaska Native cultures present in the Nushagak and 
Kvichak River watersheds--the Yup'ik, Dena'ina, Alutiiq--are two of the 
last intact, sustainable, salmon-based cultures in the world.
    It is for these reasons it is important that the Pebble Mine 
Project be examined thoroughly with the best science--before it 
proceeds. Today, we will talk about the process for permitting the 
Pebble Mine Project.
    Like any process, the outcome of it is as good as the inputs. In 
this case, it is not clear that the scientific data is being properly 
reviewed or considered. The Environmental Protection Agency (EPA) has a 
significant role in the permitting process for this mine, even though 
the Army Corps of Engineers is the primary lead on permitting. EPA 
should be participating in a robust review process for a mine that was 
once described as the largest open pit mine in the world. Even though 
the current proposal for the mine focuses on a smaller-scaled mine, the 
EPA has an important role in evaluating the potential impacts of the 
latest proposal.
    It now seems like the EPA is backing off of reviewing the 
permitting process in a significant manner. Specifically, on July 1, 
2019, the EPA expressed concern that the Draft Environmental Impact 
Statement underestimated impacts and risks of the Pebble Mine Project 
to water resources. However, on July 30, the EPA chose to withdraw 
protections for Bristol Bay under Section 404(c) of the Clean Water 
Act. What happened in 30 days to change EPA's mind?
    We need to get to the bottom of this and find out why EPA has 
changed its mind about the potential impacts of this mine. The process 
seems flawed and I am not convinced that if we continue to let the 
process play out, as proponents of the mine suggest, we will end up 
with a final decision based on good science and data. We need evidence 
that this project is being properly reviewed, and so far, I have not 
seen that.

    Mrs. Napolitano. I ask unanimous consent that committee 
members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions. Without 
objection, so ordered.
    I am pleased to yield this time to my ranking member, Mr. 
Westerman, for any thoughts he may have.
    Mr. Westerman. Thank you, Chairwoman Napolitano. We have a 
significant amount of business before the subcommittee that is 
critical to the American taxpayer. Today would be better spent 
discussing how to move forward the next Water Resources 
Development Act, a traditionally bipartisan effort to advance 
navigation, flood control, and ecosystem restoration projects 
critical to communities nationwide. We can also be examining 
solutions to fix our aging water infrastructure and flood 
control strategies to prevent or lessen future flooding events 
that plague many of our communities.
    But instead of focusing on any of these critical issues, 
the subcommittee is focusing on a partisan priority currently 
under review at the Federal agency level. We are wading into a 
project and an issue that is currently in the middle of a 
comprehensive review under the National Environmental Policy 
Act.
    In 2014, EPA aggressively sought to expand its influence 
far beyond the original intent of the Clean Water Act and 
exercised what is known as the 404(c) veto authority by issuing 
a preliminary determination which essentially blocked 
development of Pebble Mine. Historically, this authority has 
been used in rare circumstances, only having been employed 13 
times. But never had EPA issued a veto before a project permit 
application with detailed engineering site plans and 
environmental mitigation had been filed.
    In doing so, EPA completely bypassed the established Clean 
Water Act and NEPA procedures specifically designed to evaluate 
potential projects, thereby denying the company a fair 
regulatory due process by foreclosing the opportunity for 
science to be objectively presented, reviewed, and assessed, 
trampling State authority and stranding millions in capital 
expenditures by the company.
    When unprecedented steps like this are taken, a chilling 
effect is sent around the country and the world for businesses 
wanting to invest in the United States, and it raises serious 
concerns about regulatory due process in our country.
    I want to be clear. I understand the charged nature of this 
proposal and the potential for environmental disruption that 
can occur when mining operations are present, and I know 
stakeholders are here today representing those concerns. But 
again, I also believe in proper regulatory due process through 
a fair and objective Federal environmental permitting process. 
I believe in giving an applicant the opportunity to have the 
Corps of Engineers and the State of Alaska, along with a suite 
of other Federal agencies, review this project objectively on 
the merits of its permit application.
    It wasn't until 2017, 3 years after EPA's preemptive 
judgment, when the Pebble Partnership filed a permit 
application, thereby kick-starting NEPA--the environmental 
review process deemed the gold standard by environmental 
activists, environmental NGOs, and Democrats nationwide.
    I will withhold judgments on the merits of the mine and 
stay out of the politics, but I will reaffirm that Federal 
agencies should not be predetermining outcomes, and that the 
review process that is currently taking place, should be 
allowed to play out.
    In the meantime, this committee should get back to its 
business of addressing the infrastructure needs of this 
country. I hope we can get back to real work on what usually 
are bipartisan issues for us. We have made real headway in the 
past Congress, advancing three WRDAs in the past 6 years and 
exploring ways to improve and accelerate our water resources 
development programs. We could have focused today on a topic 
that would help inform our actions on those important issues 
and help our constituents who sent us here to work together on 
real solutions.
    [Mr. Westerman's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Bruce Westerman, a Representative in 
 Congress from the State of Arkansas, and Ranking Member, Subcommittee 
                   on Water Resources and Environment
    Thank you, Chairwoman Napolitano.
    We have a significant amount of business before this subcommittee 
that is critical to the American taxpayer. Today would be better spent 
discussing how to move forward the next Water Resources Development 
Act--a traditionally bipartisan effort to advance navigation, flood 
control, and ecosystem restoration projects critical to communities 
nationwide. We could also be examining solutions to fix our aging water 
infrastructure and flood control strategies to prevent or lessen future 
flooding events that plague many of our communities.
    But instead of focusing on any of these critical issues, the 
Subcommittee is focusing on a partisan priority currently under review 
at the federal agency level. We are wading into a project and issue 
that is currently in the middle of a comprehensive review under the 
National Environmental Policy Act (NEPA).
    In 2014, EPA aggressively sought to expand its influence far beyond 
the original intent of the Clean Water Act and exercised what is known 
as its 404(c) ``veto'' authority by issuing a preliminary 
determination--which essentially blocked development of Pebble Mine.
    Historically, this authority has been used in rare circumstances, 
only having been employed 13 times. But never had EPA issued a veto 
before a project permit application with detailed engineering, site 
plans, and environmental mitigation had been filed.
    In doing so, EPA completely bypassed the established Clean Water 
Act and NEPA procedures specifically designed to evaluate potential 
projects, thereby denying the company a fair regulatory due process by 
foreclosing the opportunity for science to be objectively presented, 
reviewed, and assessed; trampling state authority; and stranding 
millions in capital expenditures by the company.
    When unprecedented steps like this are taken, a chilling effect is 
sent around the country and the world for businesses wanting to invest 
in the United States, and it raises serious concerns about regulatory 
due process in our country.
    I want to be clear--I understand the charged nature of this 
proposal and the potential for environmental disruption that can occur 
when mining operations are present, and I know stakeholders here today 
represent those concerns.
    But again, I also believe in proper regulatory due process through 
a fair and objective federal environmental permitting process. I 
believe in giving an applicant the opportunity to have the Corps of 
Engineers and the State of Alaska, along with a suite of other federal 
agencies, review this project objectively, on the merits of its permit 
application.
    It wasn't until 2017, three years after EPA's preemptive judgment, 
when the Pebble Partnership filed a permit application, thereby 
kickstarting NEPA--the environmental review process deemed the gold 
standard by environmental activists and NGOs nationwide.
    I will withhold judgments on the merits of the mine and stay out of 
the politics, but I will reaffirm that federal agencies should not be 
pre-determining outcomes, and that the review process currently taking 
place should be allowed to play out.
    In the meantime, this Committee should get back to its business of 
addressing the infrastructure needs of this country. I hope we can get 
back to real work on what usually are bipartisan issues for us. We have 
made real headway in past Congresses, advancing three WRDAs in the past 
six years, and exploring ways to improve and accelerate our water 
resources development programs.
    We could have focused today on a topic that would help inform our 
actions on those important issues, and help our constituents who sent 
us here to work together on real solutions.

    Mr. Westerman. I yield back the balance of my time.
    Mrs. Napolitano. Thank you. We will proceed now to 
recognize Mr. DeFazio, the chairman of the full committee.
    Mr. DeFazio. Thanks, Madam Chair. I would agree with the 
gentleman that we want to have a proper regulatory due process 
and should not prejudge. Unfortunately, I think prejudgment has 
been made since the day that Donald Trump, the President of the 
United States, who is known to manipulate things, met with the 
Governor of Alaska, and essentially dictated to the Corps, and 
EPA, of course, withdrew its objections.
    This project is an abomination, and it does have massive 
implications, not just for Alaska, not just for the west coast, 
but for the future of sockeye salmon worldwide. Half of the 
wild sockeye are dependent upon the Bristol Bay region. One-
half. At one point, Mr. Collier used to work with Bruce 
Babbitt, who, I think, probably would disown him at this point. 
He says this might even improve salmon habitat. I would love 
for him to name a mine other than a reclamation project that 
has improved salmon habitat anywhere in the world, particularly 
a pristine area like this.
    As they say, it is about jobs. Yeah. Well, there are a hell 
of a lot of jobs up there right now dependent upon this 
resource, 14,000 full- and part-time jobs, $480 million a year 
for the fisheries in that area. And then you go on to other 
activities: 150 sportfishing and hunting-related businesses 
operate in the watershed, 30,000 sportfishing trips, $12.4 
million in hunting trips, $34.5 million in wildlife viewing 
activities. I am sure they will love hunting around the 400- 
and 500-foot tall piles of dirt holding the toxic waste from 
this mine.
    Now, they are going to say this is about job creation, but 
the numbers they are using are predicated upon the original 
proposal which they say they have no intention of doing. We are 
never going there. We are going to do a 20-year project which 
has not been economically evaluated, and which the Corps has 
not dealt with in that manner. But they are still touting the 
numbers from 100 percent of the project, the 70-plus year 
project.
    Now, I want to hear if he has a credible economic analysis 
for this scaled-down proposal, because we are going to hear 
from someone with very significant experience in the industry 
working for real mining companies, Rio Tinto and others, who 
withdrew from this project because they knew it was a scam, and 
it wasn't economically viable.
    But now we have a shell company proposing this, a shell 
company that is going to have to treat the water in perpetuity. 
We have seen this before. I got one right in my district. A 
Canadian company came in, did a bunch of mining. Oh, we are 
gone, we are bankrupt, and you got the toxic waste. We are 
still working on cleaning that up.
    So here we have a shell company with no other assets except 
for this claim, and they are going to be able to create the 
largest perpetual water treatment plant in history, the history 
of the world. Never been done before, but they can do it, and, 
of course, they will, after they make so much money on this 
thing that is scaled down to the point where it is not 
economical.
    I would say, you know, if I was looking at this from sort 
of a financial perspective, I would say we have a pump and 
dump. It is one of two things: It is a pump and dump, and there 
have been some credible news reports about insider trading 
relating to decisions made by the EPA and others in the Trump 
administration on this. Or it is pump, dump, and fooled you, 
and we are going to come back with a giant mine, one or the 
other. Because what is before us today is not credible, and it 
has not been credibly evaluated by the Corps of Engineers.
    These dams are going to be 545 feet tall, made out of dirt, 
rock, in an area that is seismically active, currently gets an 
average of 50 inches of rain a year. Don't worry, we can treat 
all that. We can get all the toxic waste out from exposure, and 
ultimately we will submerge it and put it in this giant lake, 
and everything will be fine, and we will treat it in 
perpetuity, forever.
    How much does that cost? That is not in the core analysis. 
There is no closure analysis in here. So we know what kind of 
closure it is going to be. They are going to dump it on the 
people of Alaska and the taxpayers of the United States, and by 
the way, at that point, we probably won't have a salmon fishery 
anymore.
    So I really think that it is very important we are here 
today, and this is the business of this committee, clean water 
and protection of the environment.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Let me state, right from the start, that the Pebble Mine proposal 
is a bad idea made even worse by the sham review process currently 
underway.
    First, let's talk about the proposed location of this mine.
    The Bristol Bay Watershed, where this mine is proposed, is one of 
the last pristine environments remaining in the world.
    Protection of Bristol Bay is critical to native Alaskan villages 
that have lived in this area for over 4,000 years, to the fishers and 
businesses that rely on the salmon run for their livelihood, and to 
future generations of Alaskans.
    The quality of the Bristol Bay environment is also hugely important 
to the economy of the region. According to today's testimony, the 
Bristol Bay fisheries support about 14,000 full and part time jobs and 
generate over $480 million in direct annual economic expenditures and 
sales.
    Similarly, this pristine environment also supports approximately 
$1.5 billion in economic activity to the regional economy, including 
150 sportfishing or hunting related businesses that operate in the 
watershed with about 30,000 sportfishing trips taken to the region each 
year, as well as an additional $12.4 million in hunting trips and an 
additional $34.5 million in sales from wildlife viewing activities.
    Now, the Pebble Partnership will also try to sell this mine on its 
potential for job creation. I have heard the estimates that the Pebble 
Partnership is making on the thousands of jobs the mine will create 
nationwide, and the estimated $400 million in additional revenues to 
the State of Alaska that the mine could produce. However, I also 
understand that these numbers are based on the largest mine proposal 
that the Partnership floated in 2011 and that the Obama administration 
attempted to veto in 2016.
    Maybe Mr. Collier can enlighten us on the job creation numbers from 
the slimmed down proposal he is selling today; however, I would suggest 
that any jobs created from this mining proposal will be to the 
detriment of the lives and livelihoods of native Alaskans, fisheries, 
and other commercial entities that rely on the pristine environment 
there today--so, I ask, is it worth the risk?
    Second, let's talk about the unprecedented scale of this mining 
proposal.
    Even at the smallest scale under review, the footprint of the 
Pebble mine would be unprecedented for an open pit mine in such a 
pristine environment.
    As noted in testimony today, the Pebble proposal would require the 
removal and treatment of over 1 billion tons of bulk mining tailings, 
the capturing and treatment of approximately 13,000 gallons per minute 
of contaminated mine wastewater, and all of this behind 5 constructed 
dams in one of the most dynamic environments on earth.
    Two of these dams are proposed to exceed 545 feet each--which is 
roughly the same height as the Grand Coulee Dam, in Washington State. 
So, the proposal would be to construct at least 2 new Grand Coulee-type 
dams, on lands that are prone to seismic activity, in an environment 
that is facing some of the greatest challenges from climate change on 
Earth. And, Mr. Collier, you will be responsible for treating this 
mining wastewater, forever, using what others describe today as 
untested technologies that exist nowhere else in the world at this 
scale.
    Mr. Collier, you also say in your testimony that the mine will ``do 
no damage to the fishery'' and may, in fact ``have a positive impact on 
some fish habitats.'' Give me a break--how to you improve upon a 
pristine environment? And, the consequence of you getting this wrong 
are catastrophic and forever--and I would agree with many of the 
panelists here today, not worth the risk.
    Third, let's talk about the shell game that is going on with 
attempts to get approval of a project that just doesn't pencil out--
unless you plan to come back and build the rest later.
    Today's testimony includes the insights of a mining industry 
specialist--someone whose livelihood has depended on the approval of 
mining operations, worldwide--who shows how the current mining proposal 
being advocated by the Pebble Partnership and under review by the U.S. 
Army Corps of Engineers, is a sham. This testimony demonstrates what I 
have been hearing all along--that this ``smaller, smarter mine'', as 
Mr. Collier describes it, is not economically feasible--and actually 
starts with an estimated negative net present value of $3 billion.
    Now, I don't run a multibillion-dollar company, but if I did, I am 
not sure how long I would remain employed if I started $3 billion in 
the red. But, I also understand that Mr. Collier may not have to worry 
about this, because the press is reporting that if he is able to get 
approval of the permit for this mine, he will personally walk away with 
a $12 million performance bonus.
    But a $3 billion shortfall in revenue does require us to question 
the viability of this project, its ability to protect this environment 
over the long run, or the motives of the mining company on the need to 
expand the scale of mining to make this a profitable endeavor.
    I also want to express my deep disappointment with the Corps of 
Engineers on their track record of review for this project to date. If 
the Corps continues its current path to rush approval of this project, 
I believe this will be a stain on the reputation of this proud 
institution, which continues to serve as our nation's premier water 
resources agency.
    I would remind the Corps of the words of the former head of EPA, 
Scott Pruitt, who said `` . . . It is my judgment at this time that any 
mining projects in the region likely pose a risk to the abundant 
natural resources that exist there. Until we know the full extent of 
that risk, those natural resources and world-class fisheries deserve 
the utmost protection.''
    When you are on the opposite side of Scott Pruitt--who was no 
friend of the environment--you have to wonder.
    I recognize the tremendous political pressure the leadership of the 
Corps must be facing from this administration to rush approval of this 
project, but I call on the Corps to start upholding its independent, 
statutory responsibilities, and stop acting like a cheerleader for this 
project.
    This Administration is once again putting private industry wants at 
the top of its agenda, risking the health and safety of our nation's 
ecosystem, the ancestral home for Alaska Natives, and the destruction 
of the nation's most productive salmon habitat.
    We need to stop this shell game and understand that a process that 
purposefully looks at only part of the picture, misses the entire view.
    The end goal for the Pebble Limited Partnership isn't for one-
eighth of the deposit, it is for 100 percent of the deposit. That is 
what the EPA and the Corps need to review--and reviewing anything less 
is a disservice to the American people.

    Mr. DeFazio. So with that, I yield back, Madam Chair. Thank 
you for this important hearing.
    Mrs. Napolitano. Thank you, Mr. DeFazio.
    I now call on Mr. Sam Graves, the ranking member of the 
full committee.
    Mr. Graves of Missouri. Thank you, Chairwoman Napolitano 
and Ranking Member Westerman. I appreciate that.
    I know the issue of Pebble Mine is charged, and I respect 
the views of our witnesses here, but I also understand that the 
permit application is currently going through a very robust 
environmental impact analysis, just as any other large-scale 
project would. I think we should let that process play out.
    With that, I would like to yield the remainder of my time 
to the distinguished gentleman from Alaska, Mr. Young, whose 
district this lies in.
    Mr. Young. Thank you, Congressman Graves, and I want to 
associate my remarks to Mr. Westerman, and I would also like to 
ask for unanimous consent to yield to the committee my written 
statement. OK.
    I guess I might say that I have never been for or against 
this project, but I am for the process. And I looked at the 
witness panel. There is not one on the witness panel that is a 
scientist, or is an engineer or a Federal witness. If we want 
to talk about the permitting process, we ought to have--Madam 
Chair, we ought to have a witness from the EPA. We ought to 
have the Corps of Engineers. We ought to listen to the science. 
We are going to hear a lot of opinions as it directly affects 
them, but not the science.
    And people forget, Madam Chair, that this is State land. It 
is not Federal land. The Statehood Act has the right to choose 
the 103 million acres of land, and they chose this land. They 
put it up for discovery, and it was discovered. Under the 
discovery clause, you have a right for exploration. Under the 
right of exploration, you have a right for development if you 
go through the permitting process.
    This hearing today, and what I have seen recently on TV 
shows, politicizes this issue. You are not listening to the 
science. You are saying a lot of what ifs, can and cannot, 
should we or shouldn't we? This committee has a responsibility 
to review those that are directly involved, not those that may 
be affected by it. It is about science.
    I worry about it because, very frankly, I agree with Mr. 
Westerman. We have got other things we should be doing in this 
committee, including passing a transportation bill. I hope we 
don't start out a hearing like this one, with a transportation 
bill that becomes partisan.
    This is a State issue, and yet, here we are saying we are 
going to take land you can't develop. We put it up by hearing 
or by an agency. EPA did a preemptive strike under the Obama 
administration. A preemptive strike. Didn't follow the process, 
didn't follow science.
    It always interests me, Madam Chair, that my side and your 
side of the aisle always wants to say NEPA is perfect. We 
mustn't attack it. We must use science. But you are not hearing 
any science from this side of the aisle, from that group of 
witnesses.
    You may hear from somebody who worked for the agency once 
for awhile, no longer employed there, has a fixed opinion. That 
is not science. So I am going to sit here and listen to all 
this testimony, and, respectfully, believe some things people 
have, but I will tell you, unless we do and follow the rules, 
any other time there is anything to be done in the State of 
Alaska, there is a tendency for everybody in the lower 48 that 
figure they can do what is best for the State. They know better 
than anybody else. There is a tendency to have that feeling 
that we are going to take care of Alaska from Alaskans. This is 
a State issue. Once you step over that line, that goes for some 
of the witnesses here today, the Federal Government gets 
involved in your background, in your business, then you are 
going to have Big Brother on your shoulder all the time. I want 
to believe the United States of America, not the United States 
of the Federal Government.
    Mr. Chairman, this isn't a hearing, I don't think, which is 
as important as everybody makes it out to be. I would say it is 
important to me, because I follow the process. We are not doing 
it. We are making presumptive findings without the science, and 
I have said all along: if it isn't there, then the State does 
not have to issue its permits. Forget EPA. Forget the Corps of 
Engineers. The State doesn't have to do it. The emphasis should 
be put on the State. They chose the land. They put it up. It 
has to be utilized.
    So Mr. Chairman, I do thank Mr. Graves for yielding his 
time to me, but my written statement will be for the record, 
and use my vocal statement too because I feel very strongly 
about this. I yield back.
    [Mr. Young's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Don Young, a Representative in Congress from 
                          the State of Alaska
    Congressman Graves, thank you for yielding and to the committee for 
allowing me to speak on this uniquely Alaskan issue. For some reason, 
my colleagues in the majority feel that it is their moral imperative to 
highlight and politicize issues in my district. It seems that any time 
Alaskans want to develop their God-given resources, or even just build 
a road, it becomes a Federal case for the left.
    I have said from the beginning that I do not have a position for or 
against the mine being built. I have always called for a scientific and 
evidence-based approach to determine whether the project should be 
permitted in the first place. That is the process that is taking place 
now, that wasn't taking place before due to the preemptive Obama 
administration veto.
    I want to make several points on the format and substance of this 
hearing.
    First, it is difficult for me to fathom why we are holding this 
hearing in the first place. This committee has jurisdiction over the 
Army Corps of Engineers and their handling of Section 404(c) permits. 
If this hearing is supposedly about the process that our federal 
agencies are required to follow by the laws that Congress passes, why 
then, are there no government witnesses present?
    These six majority witnesses and my friends on the other side of 
the aisle have given statements and will give testimony questioning the 
integrity of the Draft Environmental Impact Statement (EIS), but none 
of the witnesses are the scientists or engineers that drafted or worked 
on the Draft EIS.
    The lack of an unbiased scientific expert on this panel just shows 
that this issue has never been about the process but is just an attempt 
to sway public opinion and tamper with the ongoing NEPA process.
    All of the witnesses have had the opportunity to submit comments on 
the Draft EIS, of which I understand there are more than 115,000. If my 
Democrat colleagues truly cared about the integrity of due process, 
they would want to hear from witnesses who do not champion their anti-
development agenda.
    Secondly, I want to address the timing of this hearing and what it 
says about the self-serving and selective support for our nation's 
regulatory process. Comments on the Draft EIS were due on July 1, 2019. 
The Army Corps of Engineers is reviewing those comments and providing 
answers to the respective coordinating agencies including the EPA. 
Holding this hearing in the middle of the NEPA process to attack the 
Draft EIS is nothing more than another political stunt to cast 
aspersions and speculation on the outcome of process that is no where 
near complete.
    It is as if we are in the middle of a surgery and we are asked to 
listen to six people who are not doctors, much less the surgeon, try 
and predict the outcome for the patient. But because we are taking 
testimony that furthers the majority's political agenda, we are forced 
to take the time in this committee to hear it and in turn defend the 
NEPA process which Congress has set in law.
    Regarding the substance of this hearing, there are three critical 
points that must not get lost amidst the debate about the potential 
impacts of the mine.
    First, progressives claim that NEPA, is a bedrock environmental law 
in this country. I've heard Mr. Huffman use that exact phrase many 
times in the Natural Resources Committee. What specifically is wrong 
with the current state of the NEPA process for this project? Let us 
complete the science. Let the Army Corps of Engineers use the NEPA 
process to complete their EIS. Democrats sing the praises of science--
let the scientific process continue to determine what effect, if any, 
this mine would have on Bristol Bay.
    It seems that the NEPA process is only infallible and to be 
protected at all costs if the Democrats get the outcome they want. If 
there is something that needs to be changed in NEPA, then let's have 
that debate but not in the context of politicizing this project. What 
we cannot have and what I won't stand for is selective outrage about 
the NEPA process, only when it serves the left's antidevelopment 
agenda.
    Secondly, I understand that there are federal permits required and 
that the section 404 process exists. But this project is proposed on 
state land that was specifically reserved for mineral and resource 
development for decades. Depending on the outcome of the federal permit 
process, there will be dozens of state permits that would need to be 
awarded. Primacy on this matter should rest at the state level, where 
the people are closest to the issue. Alaska is well equipped to decide 
what is best for Alaskans. During the Obama administration the 404 
process was used to inject the opinions of bureaucrats in Washington, 
D.C. on Alaskans. That was wrong then and any similar attempts today, 
such as this hearing, are equally wrong.
    Lastly, I want to talk about the pitfalls of allowing a politically 
motivated anti-development agenda dictate how and when the federal 
government utilizes its veto authority to prematurely end the 
exploration of resource development projects. The Obama administration 
set a dangerous precedent in this case. If the EIS process had been 
allowed to take place then, this issue would have likely been settled 
by now from a NEPA perspective.
    If there is not a commitment to follow the law as written, then a 
draconian chilling effect will linger over all future proposed 
development projects in Alaska. Alaska needs to continue balancing 
economic development with environmental stewardship. Impugning the NEPA 
process in this case will help ensure that future projects are never 
proposed, cutting off economic prosperity for future generations of 
Alaskans.
    Nothing has happened yet, and we owe it to all parties and the 
future of Alaska to make sure we duly consider balancing the need for 
economic development with environmental stewardship.
    I thank Mr. Graves again for yielding and look forward to hearing 
the witness testimony.

    Mrs. Napolitano. Thank you, Mr. Young. I now ask unanimous 
consent for the following statement to be entered into the 
hearing record: A statement from Michael Jackson, a 
fisherperson from Washington State, at the request of Mr. 
Larsen.
    [The information follows:]

                                 <F-dash>
   Statement of Michael Jackson, Bristol Bay Driftnet Permit Holder,
        FV Kelly J, Submitted for the Record by Hon. Rick Larsen
    I would like to respectfully submit the following testimony 
regarding the proposed Pebble Mine project in Bristol Bay, Alaska. I am 
a Bristol Bay salmon commercial fisherman based in Bellingham, 
Washington and have been fishing in Bristol Bay since 1985. I am also 
on the Board of Directors for the Bristol Bay Regional Seafood 
Development Association, which represents Bristol Bay's driftnet permit 
holders. The proposed Pebble Mine threatens a sustainable industry that 
provides good-paying, renewable jobs to thousands of Americans like 
myself. I am deeply concerned with how the Trump Administration is 
handling the Pebble project's permitting process. Since day one this 
process has been rushed and ignores the well-documented science showing 
that the Pebble Mine would cause irreversible harm to Bristol Bay's 
salmon fishery. I urge you and your colleagues to do everything in your 
power to stop this corrupt permitting process from moving forward any 
further. My livelihood and thousands of others depend on it.
    I first started fishing in Bristol Bay as a crewmember. I had 
fished in many different areas in Alaska in many different fisheries, 
but Bristol Bay immediately stood out as unique to me is so very many 
ways. Dangerously quick currents brought about by ridiculously high 
(over 33 feet) tidal extremes, put my safety protocols to the test 
immediately. THAT impressed me. I had fished the Gulf of Alaska and the 
Bering Sea, longlining, crabbing, and seining, harvesting the bounty of 
the sea efficiently and sustainably, but nothing prepared me for the 
sheer volume of sockeye salmon that could fill my net with 20,000 
pounds of fish in just a few minutes. Bristol Bay's sheer abundance 
still holds me in awe. I had--and still to this day--have never seen or 
experienced anything like it. Bristol Bay is Nature at the absolute 
peak of perfection, with sustainability, volume, and beauty on full 
display and available for all to experience. I have raised two sons, 26 
and 23, to join me in the driftnet fishery in Bristol Bay. They operate 
their own boat, own their own permits, and will return every season to 
Bristol Bay, not unlike the migrating sockeye salmon that they come to 
harvest. Bristol Bay is not just a place where my family goes to make a 
living though. Bristol Bay is a place where we as a family come to make 
a Life; a life that I cannot imagine living without the ability to 
participate in this fishery.
    Part of why I fish in Bristol Bay instead of where I live in 
Washington is because Bristol Bay is the last place left in the world 
where we have this muchsalmon abundance. Salmon fisheries elsewhere are 
either gone completely or declining. Bristol Bay is the largest and 
most valuable wild salmon fishery left in the world. In the last few 
years, Bristol Bay has seen record-breaking runs with the second 
largest commercial harvest on record in 2019 \1\. In an average year, 
Bristol Bay's salmon fishery contributes roughly 50% of the world's 
sockeye salmon and generates $650 million in income and $1.5 billion in 
economic activity \2\. The commercial fishery in Bristol Bay has 
existed for over 130 years and today provides more than 14,000 jobs, 
including 8,000 fishing jobs \3\.
---------------------------------------------------------------------------
    \1\ Alaska Department of Fish & Game: www.adfg.alaska.gov
    \2\ Knapp et al. University of Anchorage: Institute of Social and 
Economic Research. April 2013. The Economic Importance of the Bristol 
Bay Salmon Industry.
    \3\ Wink Research and Consulting. 2018. Economic Benefits of the 
Bristol Bay Salmon Industry.
---------------------------------------------------------------------------
    The economic impacts of Bristol Bay's salmon fishery extend well 
beyond the Bristol Bay region, making it an important contributor to 
our nation's renewable economy. There is a Bristol Bay fishing permit 
holder living in nearly all 50 states. The majority of Bristol Bay's 
non-Alaska resident permit holders reside in Washington state with 769 
commercial fishing permit holders in Washington alone. Combined, \1/3\ 
of Bristol Bay's commercial fishermen and \2/3\ of its processing 
workers live in West Coast states (California, Oregon, Washington). In 
addition, the majority of supplies and services used in Bristol Bay's 
fishing and processing industries are purchased in Washington. The 
Puget Sound region in particular has deep ties to the Bristol Bay 
fishing industry given that the majority of Bristol Bay's major seafood 
processors are based in the Seattle area and a substantial percentage 
of Bristol Bay's salmon products are shipped to Seattle for 
reprocessing and distribution to other markets around the country and 
world \4\.
---------------------------------------------------------------------------
    \4\  Knapp et al., The Economic Importance
---------------------------------------------------------------------------
    All of this is at risk because a foreign junior mining company is 
trying to take advantage of the current political climate and push 
forward an economically unfeasible mine at the expense of our country's 
salmon, jobs, and economy. I'm concerned and confused about why the 
Trump Administration would advance this project despite its lack of 
economic feasibility and despite the 14,000 American jobs at stake. 
Bristol Bay's salmon fishery is a renewable economic engine, and one 
that cannot be replaced. I'm disappointed by how the U.S. Army Corps of 
Engineers is overseeing the current permitting process, and in 
particular the lack of scientific rigor and accuracy in its Draft 
Environmental Impact Statement (DEIS). The Army Corps' DEIS is fatally 
flawed and fails to evaluate the true scale and scope of the potential 
impacts that the proposed Pebble project would have on Bristol Bay and 
its wild salmon populations. Ultimately, this is because the DEIS is 
based on a false, ``smaller'' mine plan even though the Army Corps 
itself says in the DEIS that expansion of the project is ``reasonably 
foreseeable.'' In addition, the DEIS downplays many of the direct and 
indirect impacts outlined in the EPA's 2014 peer-reviewed Bristol Bay 
Watershed Assessment and other scientific literature.
    Of particular concern to me and my fellow fishermen are the 
following information gaps and inaccuracies in the DEIS regarding 
potential impacts to Bristol Bay's salmon fishery:

        The risk of a potential tailings dam failure, which would be 
        catastrophic for the Nushagak River--one of Bristol Bay's most 
        productive salmon river systems. The Army Corps has yet to 
        conduct a thorough, long-term assessment of a potential 
        tailings dam failure and its impacts, which is inexcusable 
        given other recent tailings dam failures and the threats that 
        such a failure could have to the communities and industries 
        that are downstream. Because of these risks, Bristol Bay's 
        drift net permit holders took it upon themselves to hire 
        independent earth scientist, Dr. Cameron Wobus, to model 
        potential tailings dam failure scenarios and their potential 
        impacts. His analysis found that it is likely that Pebble's 
        tailings material would reach Bristol Bay \5\ and reinforces 
        that a tailings dams failure at the Pebble project would have 
        far reaching and long-lasting impacts on the Nushagak River 
        drainage and deserves further analysis by the Army Corps and 
        Pebble Limited Partnership.
---------------------------------------------------------------------------
    \5\ Lynker Technologies, LLC. 2019. A Model Analysis of Flow and 
Deposition from a Tailings Dam Failure at the Proposed Pebble Mine.

        The DEIS does not adequately look at the immediate or long-term 
        effects of a potential accident or contamination at the Pebble 
        Mine site on the value and marketability of Bristol Bay's 
        salmon. Instead, the Army Corps makes a sweeping assumption 
        that a change in market reception of Bristol Bay's salmon is 
        not likely to occur (DEIS 4.6-2). This assumption is ill-
        founded and is in direct contrast to the Pacific Seafood 
        Processors Assocation's conclusion that, ``we know from past 
        experience, that actual or perceived damage to the purity of 
        the waters or fish of the Bristol Bay region would harm the 
        marketability of Alaska salmon.'' \6\
---------------------------------------------------------------------------
    \6\ Pacific Seafood Processors Association. June 2017. Position on 
the Pebble Mine Project.

        The DEIS does not include a post-operation reclamation plan or 
        wastewater treatment plan. We understand that this is due to 
        the fact that the PebbleLimited Partnership has not submitted 
        this information to the Army Corps or the State of Alaska, 
        which we find unacceptable and questionable given that this is 
        standard practice in the industry. Because this project will 
        require treatment and monitoring in perpetuity, this 
        information must be made available in the DEIS for the public 
---------------------------------------------------------------------------
        to review and comment on.

    In addition to these information gaps and inaccurate assumptions, 
the DEIS does not account for the hundreds of millions of dollars in 
investments made by Bristol Bay's permit holders and seafood 
processors, nor does it evaluate the potential impacts that the Pebble 
project could have on the value of these investments and assets. Every 
Bristol Bay permit holder invests hundreds of thousands of dollars to 
participate in the Bristol Bay commercial fishery, requiring loans that 
depend on a consistent supply of salmon and strong market prices. Any 
loss in fishing income would create financial hardship for these 
fishermen, especially younger fishermen who are just getting 
established.
    Despite our repeated questions and requests for more information, 
the Army Corps continues to push the Pebble Mine forward and is on 
track to make a decision in just a matter of months. It's clear that 
this process is being driven by a foreign mining company and their 
political agenda. That's not how a permitting process should work or 
how our federal agencies should operate. The integrity of this 
permitting process has been compromised and I have no confidence that 
the Army Corps is capable of upholding its responsibilities under the 
National Environmental Policy Act. This permitting process should be 
testing Pebble's assumptions and promises, not taking the Pebble 
Limited Partnership at its word. Americans deserve a rigorous 
permitting process that's transparent, rigorous, and based on the best 
available science and information.
    Protecting Bristol Bay makes sound economic sense, and it's also 
the responsible and right thing to do. As someone who has been able to 
benefit greatly from this renewable resource, it is my personal duty to 
protect it for my sons and future generations. Unfortunately, given the 
Trump Administration's aggressive permitting schedule, we are running 
out of time and only have a few months before the Army Corps makes its 
final decision. Therefore, I ask that you please act quickly to restore 
scientific credibility to this permitting process and not allow the 
Trump Administration to approve this irreversible project that would be 
an economic disaster for our nation.
    Thank you for your time and for taking my testimony into your 
consideration.

    Mrs. Napolitano. We will proceed to hear from our witnesses 
who will testify. Thank all of you for being here. And on the 
panel, we have Mr. Dennis McLerran, Cascadia Law Group; Mr. Tom 
Collier, chief executive officer, the Pebble Partnership; Mr. 
Richard Borden, owner of Midgard Environmental Services LLC; 
Alannah Hurley, executive director, United Tribes of Bristol 
Bay; Brian Kraft, owner, Alaska Sportsman's Lodge; Mark Niver, 
fisherman, Surrender Salmon Company; and Anisa Costa, chief 
sustainability officer, Tiffany & Co.
    Without objection, your statements will be entered in the 
record. All witnesses will have 5 minutes. You will get the 
warning at 3, and yellow if you follow that.
    Mr. McLerran, you may proceed.

   TESTIMONY OF DENNIS J. McLERRAN, ENVIRONMENTAL ATTORNEY, 
   CASCADIA LAW GROUP; TOM COLLIER, CHIEF EXECUTIVE OFFICER, 
     PEBBLE PARTNERSHIP; RICHARD K. BORDEN, OWNER, MIDGARD 
ENVIRONMENTAL SERVICES LLC; ALANNAH HURLEY, EXECUTIVE DIRECTOR, 
   UNITED TRIBES OF BRISTOL BAY; BRIAN KRAFT, OWNER, ALASKA 
  SPORTSMAN'S LODGE; MARK NIVER, BRISTOL BAY DRIFTNET PERMIT 
     HOLDER, FV SURRENDER; AND ANISA KAMADOLI COSTA, CHIEF 
             SUSTAINABILITY OFFICER, TIFFANY & CO.

    Mr. McLerran. Good morning, Chairwoman Napolitano, Chairman 
DeFazio, Ranking Member Graves, Ranking Member Westerman, and 
members of the committee. I am Dennis McLerran. I am the former 
EPA regional administrator during the Obama years.
    Back in May of 2010, several federally recognized Tribes, 
and some of the folks in this room, presented EPA with 
petitions asking that we use our congressionally granted 
section 404(c) authority under the Clean Water Act. They 
petitioned us with some very heartfelt and legitimate concerns 
about what the impacts of large-scale mining on the Bristol Bay 
watershed might be. When we heard those concerns from those 
folks, we spent many months deciding how to respond to those 
petitions. They wanted us to use section 404(c) of the Clean 
Water Act. We decided that instead of immediately using section 
404(c) of the Clean Water Act, we would do a scientific 
assessment, an ecological risk assessment of the risks to the 
watershed and to the salmon resources in the watershed from 
large-scale mining.
    And as Madam Chairwoman and Chair DeFazio have said, this 
is a very rich area. The Bristol Bay watershed supports over 
14,000 jobs from fishing, full- and part-time. It is a very 
robust fishery that has been a sustainable fishery, and it is 
an area with one of the last intact salmon-based cultures in 
the world, and so the petitions to us were very heartfelt.
    When we get the science, we committed to a very expansive 
and extensive public process around that. We reviewed the best 
available science from fisheries; scientists have been working 
in the watershed for over 30 years. We reviewed all the 
literature. We brought together a group of very talented 
scientists to prepare the watershed assessment. We released two 
drafts of the watershed assessment for public comment. We had a 
large series of public meetings in Alaska. We received over 1 
million public comments on the science that was done. In 
developing the assessment, we also did an extensive independent 
peer review of the science that was done. So we followed EPA's 
and OMB's highly influential scientific assessment guidelines 
and independently peer reviewed the work in two rounds.
    The Bristol Bay assessment found that the Bristol Bay 
watershed, while enormously productive, was also enormously 
vulnerable to the impacts of large-scale mining. And the owners 
of the Pebble Mine claims have, in their own report filed with 
the Securities and Exchange Commission in 2011, identified the 
pathway there for a mine of unprecedented scope and scale in 
North America. The Bristol Bay assessment found that the 
watershed, while enormously productive, ecologically is deeply 
vulnerable to the impacts of large-scale mining. The assessment 
concludes that a large-scale mine at the Pebble site would pose 
risk to salmon and to communities in the Bristol Bay watershed 
that have depended on the salmon for thousands of years.
    And EPA ultimately decided once that 3-year process of 
developing the science and getting extensive public comment on 
it, that the impacts of the Pebble Mine would create 
unacceptable adverse impacts on fishery resources unless limits 
were placed on the scale of mining at the site. And EPA issued 
a proposed determination that would have protected Bristol Bay 
and placed limits on the scope and scale of the mining, the 
amount of stream-miles that could be lost, the amount of 
wetlands and lakes and ponds that could be destroyed. And that 
process did not prevent Pebble from applying for a permit with 
the Corps of Engineers. It was not a veto, and it did leave the 
pathway open for a Corps permit application.
    However, despite Pebble having come to me multiple times, 
and come to Members of Congress and the public and saying they 
were going to file a permit application likely during the 
pendency of us doing the science, they didn't initiate that 
permitting process until 2018. And the Corps of Engineers, as 
has been mentioned in an extraordinarily rapid timeframe, has 
moved to issue a draft environmental impact statement, a deeply 
flawed draft environmental impact statement that has received 
adverse comments from U.S. Fish and Wildlife, from EPA region 
10, from many members of the public.
    So we felt that we did very strong science. I feel that the 
Corps of Engineers has not done justice in using NEPA in the 
appropriate way here. They have done a very fast and slipshod 
process that is deeply flawed.
    In conclusion, the Pebble Deposit is located at the 
headwaters of the Nushagak and Kvichak Rivers. They produce 50 
percent of Bristol Bay's salmon, which produces 50 percent of 
the world's wild sockeye salmon, and this mine would have 
significant impacts, and just as importantly, it would open up 
the watershed to become a mining district because it would put 
in the roads and the infrastructure that would allow other 
mines, and there were many other deposits in the watershed that 
would be developed.
    So, I implore the committee to explore this more deeply, 
get the Corps of Engineers through an appropriate process, and 
move this forward.
    [Mr. McLerran's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Dennis J. McLerran, Environmental Attorney, 
                           Cascadia Law Group
    Good morning Chairman DeFazio, Chairwoman Napolitano, Ranking 
Member Graves, Ranking Member Westerman and Members of the Committee. I 
am Dennis McLerran, the former Regional Administrator for EPA Region 
10, which covers the States of Oregon, Washington, Idaho and Alaska and 
271 Tribal governments within those four states. Today I would like to 
describe the work EPA completed regarding the proposed Pebble Mine in 
Alaska during my time at EPA and some relevant details regarding the 
current status of the evaluation of the Pebble Mine proposal by the 
Corps of Engineers. I was at Region 10 from February 2010 until late 
January 2017 when EPA prepared the Bristol Bay Watershed Assessment and 
later issued a ``Proposed Determination'' to protect salmon resources 
within the watershed.
    In May of 2010, several federally recognized tribes from the 
Bristol Bay watershed in Alaska petitioned EPA to use its Clean Water 
Act Section 404(c) authority to restrict the discharge of fill material 
from the proposed Pebble Mine. EPA also received similar requests from 
a diverse group of stakeholders, while others requested that EPA 
refrain from taking action.
    The groups that petitioned for EPA's use of Section 404(c) 
expressed deep and legitimate concerns that the largest open pit mine 
ever proposed in North America would be destructive of the fisheries 
within one of the Western Hemisphere's most productive and vulnerable 
watersheds.
    The economic and cultural value of the Bristol Bay watershed is 
immense. Data from the region shows that Bristol Bay fisheries support 
about 14,000 full- and part-time jobs and generate over $480 million in 
direct economic expenditures and sales. In addition, for over 4,000 
years, it has served as a significant subsistence fishery to Alaska 
Native people, who are among the last remaining salmon-based 
subsistence cultures in the world. For these reasons, EPA took very 
seriously the local concerns raised about a mining project that had the 
potential for significant environmental harm to this valuable and 
vulnerable ecosystem.
    After receiving the petitions, EPA staff and management visited the 
watershed and deliberated for months about how to respond to the 
requests. We decided not to initiate EPA's Section 404(c) authority at 
the time of the petitions. Instead, we wanted to develop a solid 
understanding of the watershed and the potential risks of proposed 
mining activities to fisheries and native cultures before deciding 
whether or not to exercise our authorities.
    In February 2011, consistent with Clean Water Act Section 104, I 
announced EPA's intent to conduct an ecological risk assessment. The 
purpose was to characterize the biological and mineral resources of the 
Bristol Bay watershed, to increase understanding of the potential risks 
of large-scale mining on the region's fish resources, and to inform 
future decisions by government agencies and others related to 
protecting and maintaining the physical, chemical and biological 
integrity of the watershed.
    To help collect, evaluate and summarize information regarding the 
Bristol Bay watershed and to assess potential risks to salmon and other 
resources, EPA brought in scientists from multiple federal agencies and 
also reviewed the best scientific literature available regarding the 
Bristol Bay fishery. EPA's Headquarters Office of Research and 
Development led the preparation of the watershed assessment along with 
a team assembled by Region 10.
    Consistent with EPA's authorities under the Clean Water Act, EPA 
committed to an expansive public process to provide an opportunity to 
engage with all interested stakeholders. For example, EPA consulted 
with 20 tribes from the watershed, most of whom supported EPA's 
proposed assessment but also with some that did not. EPA also formed an 
intergovernmental technical team to get input from federal agencies, 
the State of Alaska and tribal governments in the Bristol Bay 
watershed.
    EPA also released two drafts of the assessment for public comment. 
In total, eight public meetings were attended by approximately 2,000 
people, and more than 1.1 million comments were submitted. The Pebble 
Partnership itself submitted over 1,300 pages of written comments on 
the first draft and over 450 pages on the second draft and participated 
in the public meetings.
    EPA staff, including EPA's Administrator and me, met with Pebble 
Executives, state officials and other interested parties to solicit 
their input. We even invited the State of Alaska to partner with EPA in 
preparation of the scientific assessment.
    In addition to creating and maintaining an open and transparent 
process, EPA also sought to guarantee that the assessment incorporated 
high quality data and that all findings were scientifically sound. In 
developing the assessment EPA followed all data quality and peer-review 
requirements for a Highly Influential Scientific Assessment, as 
outlined by the Office of Management and Budget in the White House.
    The Agency also conducted an extensive peer-review with 12 
independent experts in mine engineering, salmon fisheries biology, 
aquatic ecology, aquatic toxicology, hydrology, wildlife ecology and 
Alaska Native cultures. And, at a day-long public meeting in Alaska in 
August 2012, Pebble and other stakeholders provided feedback directly 
to the independent peer-reviewers. An independent review by EPA's 
Inspector General, which was requested by the Pebble Partnership, 
confirmed that the Agency followed all applicable processes and 
procedures.
    Opening of the Pebble Deposit would ultimately result in the 
largest open pit porphyry gold and copper mine in North America in one 
of the most productive and sensitive intact salmon ecosystems on the 
planet. The owners of the Pebble Mine claims have, in their own Wardrop 
Report filed with the SEC in 2011, identified the pathway for a mine 
unprecedented in scope and scale in North America. The infrastructure 
to support the Pebble mine would include transportation into the heart 
of the watershed and a gas pipeline and power plant that would open the 
surrounding area to creation of a large mining district. Almost half of 
the world's sockeye salmon are harvested in Bristol Bay and the Pebble 
Deposit is located at a very vulnerable location--the headwaters of the 
Nushagak and Kvichak Rivers.
    The Bristol Bay watershed assessment evaluated several different 
mining scenarios for the Pebble Deposit. Two of the scenarios were 
based on mining plans filed with the Securities and Exchange Commission 
(SEC) in the Wardrop Report prepared by consultants for Northern 
Dynasty Minerals, the owner of the Pebble mining claims. A third mining 
scenario was added to the assessment based on peer-reviewer's comments 
that the evaluation should consider a first phase mine that would be 
based on the average size of porphyry gold and copper mines worldwide.
    The Bristol Bay assessment found that the Bristol Bay watershed, 
while enormously productive ecologically, is also deeply vulnerable to 
challenges posed by the construction and operation of a large mine at 
the Pebble Deposit. The assessment concludes that a large-scale mine at 
the Pebble site would pose risks to salmon and the communities that 
have depended on the salmon for thousands of years.
    Based on the mine sizes evaluated, EPA estimated that from 24 to 94 
miles of salmon-supporting streams and 1,300 to 5,350 acres of 
wetlands, ponds and lakes would be destroyed. And extensive quantities 
of mine waste, leachates and wastewater would have to be collected, 
stored, treated and managed during mining operations and long after 
mining concludes.
    EPA ultimately decided that the impacts of mining at the Pebble 
Deposit would create unacceptable adverse impacts on fishery resources 
unless limits were placed on the scale of mining at the site. EPA 
Region 10 proposed use of Section 404(c) of the Clean Water Act to 
place those limits. Section 404(c) specifically authorizes EPA to 
prohibit the specification of--or deny or restrict the use of any 
defined areas as a disposal site for dredged or fill material whenever 
the Administrator determines that such disposal would cause 
unacceptable adverse effects. The Proposed Determination would have 
protected Bristol Bay and placed limits on the amount of stream miles, 
wetlands, lakes and ponds that could be destroyed based on the smaller 
mining scenario added during the peer review process.
    EPA's watershed assessment process and proposed 404(c) action did 
not prevent the Pebble Partnership from applying to the U.S. Army Corps 
of Engineers for permits. Both the watershed assessment process and the 
404(c) procedural rules provided numerous opportunities for public 
comment and interaction. At numerous times before and after 
commencement of the watershed assessment process, the Pebble 
Partnership informed EPA that an application would be filed for a Corps 
permit during the timeframe of the assessment process. However, Pebble 
did not file a permit application until after completion of the 
assessment and issuance of the Proposed Determination.
    The U.S. Army Corps of Engineers permitting process was not 
initiated by Pebble until 2018. The Corps of Engineers, in an 
extraordinarily rapid timeframe, issued a Draft EIS for public comment 
in March 2019. The Corps has received extensive negative comments on 
the analysis and content of the Draft EIS from the U.S. Fish and 
Wildlife Service, EPA Region 10, members of Congress and many others. 
Some key flaws of the Draft EIS are that the process for preparation 
has been inappropriately accelerated and that the analysis is 
superficial and not based on plans that provide sufficient detail for 
proper evaluation. The primary analysis under the Draft EIS is for a 
much smaller mine than is likely to be ultimately pursued at the site 
based on representations Northern Dynasty has made publicly and in the 
Wardrop Report filed with the SEC. Later, larger mine phases would have 
much greater adverse impacts on fishery resources.
    The DEIS also indicates that the mine proponents would use 
compensatory mitigation to address adverse impacts on fisheries but 
does not propose any specific plans or projects for such mitigation. 
Based on the discussions EPA had with fisheries scientists who have 
studied the Bristol Bay fishery for many years, compensatory mitigation 
would not be effective in this largely pristine watershed. Compensatory 
mitigation is a technique normally applied to restore habitat that has 
been disturbed and there would be few, if any, opportunities for such 
projects in a largely pristine watershed.
    In addition, EPA has now withdrawn the Proposed Determination from 
EPA Region 10 under Section 404(c) of the Clean Water Act. This comes 
after now departed EPA Administrator Scott Pruitt initially proposed 
withdrawal of the Proposed Determination in 2017 and then reversed 
course after receiving extensive negative public comments on the 
proposed withdrawal. Only recently, after President Trump reportedly 
met with Alaska Governor Mike Dunleavy, did EPA Headquarters direct EPA 
Region 10 to consider withdrawal of the Proposed Determination. The 
current Regional Administrator for EPA Region 10 quickly withdrew the 
Proposed Determination after a Headquarters memo directing 
reconsideration. The withdrawal action was taken without any 
opportunities for public comment or due process in a manner totally 
inconsistent with how past work regarding Bristol Bay has been 
conducted.
    In conclusion, the Bristol Bay watershed is a uniquely productive 
and fragile resource. The Pebble Deposit is located directly at the 
headwaters of the Nushagak and Kvichak Rivers, which produce nearly 50 
percent of the salmon in the Bristol Bay system. Mining at the scale 
planned for Pebble at the extremely sensitive location of the mineral 
deposit would result in significant harm to the world-class fisheries 
of the watershed. And, just as importantly, would open the central 
portion of the watershed to become a mining district with Pebble's 
development of road access, a power plant and other mining 
infrastructure. Northern Dynasty Minerals has aggregated a large area 
of mining claims beyond the Pebble Deposit and there are many other 
undeveloped mineral deposits in the unprotected area between Lake Clark 
National Park and Wood-Tikchik State Park. Loss of one of the world's 
last remaining salmon strongholds is simply unacceptable and that is 
why EPA during my tenure decided to take action to protect Bristol Bay 
fisheries. The mining proposed at the Pebble Deposit requires a better 
process of evaluation than what has been done so far under the Corps of 
Engineers' Draft EIS. We are spending hundreds of millions of dollars 
every year in attempts to recover endangered salmon and restore salmon 
habitat in the Pacific Northwest and California and we should not allow 
the mistakes of the past to be repeated in Bristol Bay.
    Thank you for the opportunity to present this testimony today.

    Mrs. Napolitano. Thank you, sir.
    Next, we will have Mr. Tom Collier. Your testimony, please.
    Mr. Collier. Thank you, Madam Chairman. Members of the 
committee, thank you for the opportunity to address you today 
on this important issue.
    For over 15 years, there has been a raging debate about 
whether you can build a copper mine 200 river-miles away from 
Bristol Bay without doing significant damage to the salmon 
fishery in Bristol Bay. But today, I am here to tell you that 
that debate is now over. In February, the Corps of Engineers 
issued, for the very first time, an independent, transparent, 
comprehensive review of all of the science and concluded 
unequivocally, and repeatedly, that building Pebble Mine will 
not cause any damage to the fishery in Bristol Bay. That is the 
conclusion it reached.
    Now, I wasn't surprised that that conclusion was reached 
and not because of the reason mentioned by the chairman of the 
committee. It is because we changed the project that we 
submitted. The project that was submitted was de-risked. We 
listened to the concerns that had been expressed by the 
agencies, and we listened to the concerns that were expressed 
by the opponents, and I personally managed a total and complete 
redesign of this project. It is smaller. There is no cyanide. 
It is out of the Upper Talarik Creek. There are no waste rock 
piles, completely redesigned the tailings facilities, and 
redesigned the water management system. This project is 
dramatically different from anything that was looked at by EPA 
in its Bristol Bay watershed assessment.
    What we are really here today, I think, to talk a lot about 
is EPA's decision to withdraw the proposed determination. And 
the question is, was that an appropriate decision for them to 
make? I not only think that decision was appropriate, I think 
it was outrageous that the proposed determination had ever been 
issued in the first place for a bunch of reasons. But let me 
just talk about one. I have listed many of them in my written 
statement.
    The Bristol Bay watershed assessment was a predetermined 
outcome, and the process was manipulated to reach that outcome, 
and I am not the only one that has reached that conclusion. 
That conclusion's been reached by a number of folks that have 
taken a strong look at it. And there are lots of examples of 
this having been done, but let me just give you one. It is my 
favorite.
    When the senior Senator from Alaska, Lisa Murkowski, wrote 
a letter to EPA after Mr. McLerran had decided to initiate the 
Bristol Bay watershed assessment, she congratulated the agency 
for finally agreeing to do an extensive study of the science so 
that any decision with respect to vetoing or not vetoing the 
mine could be based upon science, and that letter was 
circulated among the senior officials in the Department of EPA. 
And then one of them sent an email to another, and that email 
said, quote, ``Obviously, that's not what we have in mind,'' 
closed quote. In other words, they had already made up their 
mind. They knew what they were going to do. They were going to 
veto this project, and they were going to do a scientific study 
to justify the veto, and that is what we did.
    But that is not the basis for the withdrawal that occurred 
in July of the proposed and preemptive veto of this project. 
The basis of that withdrawal is process. You need to follow the 
process. We have a statute. The statute says do an EIS. They 
didn't do an EIS. In fact, at about the same time Mr. McLerran 
was deciding to do the first ever in the history of the Clean 
Water Act, preemptive veto of a major project, his colleague, 
in region 9, was faced with a request to do the same thing; and 
his colleague declined to do a preemptive veto of the Rosemont 
mining project in Arizona. And what he said was, I want to have 
all the information on the table before I make a decision. I 
want to have an EIS on the table. I want to see the applicant's 
permitting process, because I think it would be, and these are 
his words, impossible to make such a decision without having 
all that information on the table. And that is what EPA did, 
and that is the reason the proposed veto, preemptive veto, was 
withdrawn. Thank you.
    [Mr. Collier's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Tom Collier, Chief Executive Officer, Pebble 
                              Partnership
    Good morning. Mr. Chairman and members of the Subcommittee, my name 
is Tom Collier, and I am the CEO of the Pebble Limited Partnership, 
based in Anchorage, Alaska. I'm grateful that you included me as a 
witness in this important hearing.
    For over 15 years, a battle has been fought over whether building a 
copper mine over 200 river miles from Bristol Bay in Alaska would 
significantly damage the salmon fishery in that region.
    The debate is now over.
    In February of this year, the U.S. Army Corps of Engineers (``the 
Corps'') issued its draft Environmental Impact Statement (DEIS) for the 
proposed Pebble Mine and unequivocally concluded that the project will 
not harm the Bristol Bay fishery.
    We were confident that the Corps would reach this conclusion. Why? 
This conclusion was the result of several factors: First, the citizens 
of Alaska voiced concerns over the Pebble Project, and we have listened 
to them. Second, we have taken several steps to de-risk our mining 
plans. And finally, the Corps has led a process that to date has placed 
science over politics. It is certainly not because, as some have 
suggested, the Trump Administration orchestrated any sort of political 
fix. There is not a shred of evidence showing any inappropriate conduct 
in this process, which stands in stark contrast to what was uncovered 
from the EPA of the previous administration.
    I would like to talk about what the Pebble Partnership has done to 
improve its plans and dispel some of the myths associated with the 
Corps' work to date. Pebble has planned a smaller, smarter mine. In 
response to concerns voiced by various stakeholders, we have reduced 
the mine size to a footprint that even EPA's rigid Proposed 
Determination would nearly have allowed to proceed through the NEPA 
permitting process. The Proposed Determination was based on three 
hypothetical mining plans of differing sizes and stated that EPA would 
not object to an application being considered for permitting a mine 
smaller than the smallest hypothetical EPA mine. Pebble's new mine, at 
an equivalent footprint of just 5.2 square miles, is 75% smaller than 
the largest mine in the Proposed Determination, 48% smaller than the 
medium mine, and slightly larger than the smallest mine evaluated. A 
significant factor in reducing Pebble's footprint is the elimination of 
permanent waste rock storage on the surface, which further 
substantially reduces post-closure water management requirements.
    In response to public concerns, Pebble has also committed to using 
zero cyanide, thus there will be no secondary gold recovery. To be 
clear, cyanide is used safely at industrial facilities and mines 
throughout the world, including in Alaska. But Pebble has heard the 
community's concerns and has completely eliminated spill and post-
closure cyanide risks. This means that Pebble is walking away from 15% 
of the gold that, at this time, cannot be recovered without using 
cyanide.
    In addition, Pebble has incorporated a drained storage method for 
its bulk tailings, eliminating concerns that a disaster such as that 
which occurred at Mt. Polley could happen here. Some Pebble opponents 
have falsely claimed that the firm designing Pebble's tailings storage 
facility, Knight Piesold, also designed the failed TSF for Mt. Polley. 
In fact, although Knight Piesold designed the original facility, they 
later left the project, after which the design was radically altered 
with weaker, steeper slopes used for tailings storage.
    The operator at Mt. Polley permitted excessive water storage, far 
exceeding what Knight Piesold had designed originally. David Chambers 
of the Center for Science in Public Participation, who has for years 
opposed Pebble, even admitted that ``if the original design had been 
followed [i.e., Knight Piesold's design], the failure would not have 
occurred'' at Mt. Polley. Pebble's state of the art, ``buttressed flow-
through embankment'' design will minimize water storage, maximize 
stability, facilitate dry closure, and diminish the need for long-term 
water treatment.
    Pebble has also developed state-of-the-art methods for dealing with 
potentially acid-generating (``PAG'') tailings and waste rock. They 
will be stored subaqueously, preventing oxidation of potentially 
reactive materials. They will be stored in a fully lined tailings 
storage facility. Upon closure, PAG tailings and waste rock will be 
transferred to the former open pit, and this permanent subaqueous 
storage further prevents oxidation. There is thus no risk of PAG 
tailings being released into the environment.
    The Pebble Mine will feature an optimized water management strategy 
with the potential to have a positive impact on some fish habitats. 
Based on more than 75 years of high-quality hydrological records, 
Pebble has designed a system with enhanced management capacity to 
address both extreme climate events and long-term climate variations. 
The water management system will have multiple, redundant environmental 
safeguards and will meet the most stringent water quality guidelines.
    Pebble will utilize strategic water releases designed to optimize 
downstream fish habitat conditions. Unlike the scenarios analyzed in 
the Bristol Bay Watershed Assessment and Proposed Determination, 
Pebble's permit application calls for no mine facilities in the Upper 
Talarik Creek or Kvichak River watersheds. Mine development will occur 
only within two small creeks within the Nushagak River drainage: the 
North Fork Koktuli and the South Fork Koktuli.
    The NFK and SFK produce just 0.08% of Bristol Bay sockeye. The area 
streams contribute negligible salmon habitat relative to the entire 
watershed. Habitat availability is not a limiting factor for Bristol 
Bay sockeye or Chinook.
    One of my fellow panelists today, former EPA Regional Administrator 
Dennis McLerran, has called Pebble's permit application the ``camel's 
nose under the tent,'' which I suppose means that he believes that 
Pebble plans on shoehorning in a larger project despite the fact that 
we have scaled back the footprint in the mine plan currently before the 
Corps of Engineers. I have several responses.
    First, I believe it shows the level of desperation that the Pebble 
opposition has reached. Think about it: to oppose this permit 
application, they are forced to argue that it must in fact be far 
different than what is actually proposed. In other words, they are 
struggling to find problems with what is currently pending before the 
Corps.
    Pebble has no current plans, in this application or in any other 
way, for expansion. If expansion did become feasible, new permits would 
be required. The permit applicant would have to go through the same 
rigorous procedure that Pebble is now going through. Any concerns with 
scope or environmental risk can be addressed in that new permitting 
process. If the Corps grants Pebble's current permit application, 
nothing in that permit suggests a carte blanche to expand. Any future 
mining projects in the area would therefore be evaluated on their own 
merits based on then-existing conditions when and if future 
applications are submitted to the relevant permitting agencies.
    The Corps' EIS and NEPA processes to date have been comprehensive 
and complied with all statutory requirements. Those calling this 
process ``rushed'' are clearly unaware of how these decisions work. 
Charts 1 and 2 demonstrate that the process has been anything but 
rushed. In length of comment period and draft EIS itself, the Corps' 
work here has been thorough, transparent and deliberate, and several 
major projects went through this same process even faster. For example, 
as the chart shows, the Pogo, Kensington, and Red Dog Mines, as well as 
several major oil and gas projects in Alaska, all received major 
federal permits within about three years.

    <bullet>  Haile Mine: the EIS process for the Haile Mine in South 
Carolina began July 2011, and the FEIS was published less than three 
years later in June 2014.
    <bullet>  Pogo Mine: In August 2000, Teck-Pogo Inc. applied for a 
Section 404 permit for a proposed underground cut-and-fill gold mine on 
State of Alaska-owned land in the Goodpaster River Valley. EPA, in 
close consultation with the USACE, published a Draft EIS in March 2003, 
then a final EIS in Sept. 2003--three years and a month after the 
application.
    <bullet>  Kensington Mine: In 2001, Coeur Mining redefined the 
scope for its development of an underground gold mine within the 
Tongass National Forest outside of Juneau. This necessitated a new NEPA 
review, which was completed three years later in December 2004.
Chart 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Chart 2
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


    <bullet>  Red Dog Mine: EPA prepared the Supplemental EIS for the 
expansion of the Red Dog Mine into the Aqqaluk deposit in northwest 
Alaska. The permitting process started in mid-2007 and the EIS was 
finished during Fall 2009, taking just over two years. USACE was a 
cooperating agency.
    <bullet>  Point Thomson: The Corps was the lead agency for the EIS 
for the development of ExxonMobil's Point Thomson oil facility on the 
North Slope of Alaska. The EIS process began in late 2009 and the Final 
EIS was issued mid-2012, taking approximately two and a half years.

    Furthermore, this is undoubtedly one of the most transparent NEPA 
processes ever conducted. All documents and supporting information, 
including any Request for Information, are posted to the EIS website in 
near real time and accessible to anyone who is interested.
    The goal of NEPA has always been to foster better decisions, not 
merely add unnecessary process. The Corps' actions here show that it is 
committed to quality decision-making. The Corps is closely coordinating 
with numerous federal, state, and local agencies, including the State 
of Alaska and native Alaskan entities. Two Bristol Bay area tribes are 
cooperating agencies for the EIS, and the Corps' is also engaging in 
government-to-government consultation with a broad range of tribes in 
the Bristol Bay and Cook Inlet areas. To date, the Corps consulted with 
24 federally recognized tribes.
    Criticisms of the contents of the DEIS are similarly off base. 
First, many Pebble opponents have claimed that the DEIS has ignored 
several topics, but if they actually reviewed the documents, they would 
know that is not the case.

    <bullet>  Mitigation
      <bullet>  Chapter 5 and Appendix M of the DEIS confirm 
significant mitigation measures were incorporated into Pebble's permit 
application. More are being included based on input from the DEIS 
review.
      <bullet>  The DEIS summarizes 70 different Pebble-proposed 
mitigation measures.
      <bullet>  The DEIS includes a draft Compensatory Mitigation Plan.
      <bullet>  The Final Environmental Impact Statement will have a 
detailed compensatory mitigation plan with specific mitigation 
proposals included.
    <bullet>  Climate Change
      <bullet>  The DEIS provides a detailed description of different 
long-term climate change models and widely varying predictions of 
precipitation patterns.
      <bullet>  The Corps confirmed the reasonableness of Pebble's mine 
design for foreseeable climate change scenarios.
    <bullet>  Wetlands impacts
      <bullet>  The DEIS describes the affected environment for 
wetlands and other waters, which includes vegetated wetlands, ponds, 
lakes, streams, rivers, and marine and estuarine waters.
      <bullet>  The DEIS also describes potential environmental 
consequences from the project on wetlands and other waters.
      <bullet>  These assessments were based on USGS Hydrologic Unit 
CodeTenth Level watersheds.
      <bullet>  The DEIS separately addresses navigable waters and 
potential impacts related to transportation and navigation.
      <bullet>  The DEIS summarizes the key issues for wetlands and 
other waters and the key issues for transportation and navigation.
      <bullet>  Additionally, the mine site area has some of the most 
comprehensive wetland mapping ever collected for a mining project in 
Alaska. This mapping was prepared by independent third-party 
consultants.
    <bullet>  Fish Populations
      <bullet>  The DEIS summarizes and tabulates extensive 
quantitative analyses of fish habitat conditions based on widely 
accepted flow/habitat modelling methods and supporting intensive 
physical, chemical, and biological river survey data.
      <bullet>  There is enough information on fish populations in the 
record, including that found in Pebble's environmental baseline 
documents, to allow a final EIS to address any possible request for 
additional analysis.
    <bullet>  Risks to Commercial and Recreational Fisheries
      <bullet>  The DEIS relies on extensive scientific data and 
industry accepted methodologies to provide a robust level of analysis 
for such concerns.
      <bullet>  For the assessment of impacts to recreational and 
commercial fishing, the DEIS covers all river systems hydrologically 
connected to the project that contribute to the Bristol Bay salmon 
fishery and to the Cook Inlet saltwater environment.
      <bullet>  The DEIS's analysis area includes commercial and 
recreational fisheries, the Alaska Department of Fish & Game commercial 
registration Area T and Area H, the Cook Inlet Management Area 
(including associated federal waters) and the ADF&G Statewide Harvest 
Survey areas S, T, N, and P.
      <bullet>  Under each of the alternatives (and their variants) 
proposed for the project, the DEIS examines impacts to commercial 
fisheries and recreational fisheries resulting from the mine site, 
transportation corridor, port site, and pipeline route.
      <bullet>  The DEIS also provides a cumulative impacts analysis on 
commercial and recreational fisheries, examining issues concerning 
productivity losses, fragmentation of habitat, changes in wetland types 
and loss or degradation or ecosystem functions.
    <bullet>  Impacts to Wildlife
      <bullet>  The DEIS provides a description of the birds, 
terrestrial mammals, and marine mammals that are known or have the 
potential to occur in the project area.
      <bullet>  The DEIS describes the potential environmental 
consequences of the project to non-federally listed birds, terrestrial 
wildlife, and marine mammals and their habitats.
      <bullet>  The DEIS addresses impacts to certain species of 
terrestrial wildlife, including the caribou, moose, bear, gray wolf, 
and small terrestrial vertebrates.
      <bullet>  The DEIS addresses specific species, including the Cook 
Inlet beluga whale, humpback whale, fin whale, Steller sea lion, 
Northern sea otter, and Steller's eider. Furthermore, the USACE is 
consulting with the US Fish and Wildlife Service (USFWS) and the 
National Marine Fisheries Service (NMFS).
      <bullet>  In addition, for the final EIS, Pebble has prepared 
updated biological assessments for species under each agency's 
jurisdiction.
    <bullet>  Fugitive Dust
      <bullet>  The DEIS addresses fugitive dust in various sections, 
such as in relation to the spill risk, impacts of the project on water 
and sediment quality, potential environmental consequences from the 
project on vegetation, and potential impacts on soil.
      <bullet>  The DEIS recognizes that the project design 
incorporates various measures to minimize fugitive dust. Notably, 
Pebble's proposed mitigation measures include the use of locked 
containers to transport concentrate from the mill to the ship and 
developing a Fugitive Dust Control Plan, which would address fugitive 
dust emissions created by construction, operations, and closure 
activities.
      <bullet>  This plan, which will be in place before construction 
begins, ``would describe the equipment, methodology, training, and 
performance assessment techniques that would be used for controlling 
fugitive dust from site activities and wind erosion.''
      <bullet>  Additionally, best management practices would be 
implemented for fugitive dust management, and methods would be 
established in order to control dust from various sources, including 
vehicle travel on unpaved roads, material handling, and wind erosion 
from disturbed areas.
    <bullet>  Transportation Corridor
      <bullet>  The DEIS describes both the existing environment that 
would be affected by the transportation corridor alternatives and the 
potential impacts on environmental resources.
      <bullet>  For example, the DEIS discusses the magnitude and 
extent of impacts from construction of the transportation corridor in 
relation to wetlands and other waters.
      <bullet>  The DEIS also summarizes key issues for wildlife 
resources by project component, including the transportation corridor 
and describes the potential effects on soils along the transportation 
corridor.
    <bullet>  Spill Risk
      <bullet>  The DEIS specifically addresses the spill risk for the 
following substances, which were selected based on their spill 
potential and potential consequences: diesel fuel, natural gas, copper-
gold ore concentrate, chemical reagents, bulk and pyritic tailings, and 
untreated contact water.
      <bullet>  The DEIS also addresses a broad range of topics related 
to spills, including the probable outcomes that would result from a 
release into the environment, data on past spills, organizations or 
plans that may be available as resources in the event of a spill, 
mitigation and minimization design features or practices, hypothetical 
spill scenarios, and the potential impacts from each scenario.
    <bullet>  Environmental Justice
      <bullet>  The DEIS includes a significant examination of 
environmental justice issues, framing the analysis as an intersection 
between various resource topics, including subsistence users, 
subsistence resources, cultural practices, socioeconomic 
characteristics, and community health, with a potential for both 
beneficial and adverse impacts.
      <bullet>  The DEIS examines socioeconomic impacts associated with 
population, housing, and employment; subsistence resources and harvest 
patterns for subsistence-based communities in the EIS analysis area; 
project-related impacts to human health (including effects from changes 
in air quality and water quality, and concerns about contamination and 
subsistence food consumption).
      <bullet>  Further, each project alternative is evaluated for 
potential disproportionate impacts to minority and low-income 
communities at issue.
    <bullet>  Subsistence
      <bullet>  The DEIS analysis area for subsistence issues includes 
the subsistence resources that could be affected by the proposed mine 
site, port, transportation corridor and natural gas pipeline corridor 
for each alternative presented.
      <bullet>  The review includes habitat and migration routes for 
subsistence resources, community subsistence search and harvest areas, 
and areas used by harvesters to access resources.
      <bullet>  The DEIS includes a focus on subsistence activities in 
indigenous communities, reviewing traditional ecological knowledge and 
the culture value of subsistence in developing the analysis on 
subsistence. The analysis also accounts for the cyclical harvest 
pattern of seasonal round.
      <bullet>  The DEIS goes on to examine the impacts of the project 
on subsistence in communities near Iliamna Lake, in the Kvichak and 
Nushagak river drainages, and on the southwest coast of the Kenai 
Peninsula, assessing the magnitude, geographic extent and duration of 
impacts for each project phases.
    <bullet>  Geochemistry
      <bullet>  The DEIS covers the existing geochemistry of the mine 
site.
      <bullet>  The DEIS also discusses in detail geochemistry with 
respect to surface water quality impacts, tailings releases, and 
spilled concentrate.
      <bullet>  Pebble's environmental baseline documents further delve 
into geochemistry issues.

    Second, many critics have claimed that their comments were ignored 
or disregarded. Again, if those critics read the DEIS. they would see 
that the opposite is true. It is important to remember that the DEIS is 
just a draft, and the Corps can and will bolster the document before 
releasing a final EIS. The Corps is already gathering substantial data 
on many issues to add to the FEIS. For example:

    <bullet>  Reclamation: PLP has provided for the Corps a draft 
Reclamation and Closure Plan that meets State of Alaska formatting 
requirements in support of the FEIS.
    <bullet>  Compensatory Mitigation: PLP has developed a revised 
compensatory mitigation plan, which the Corps will evaluate for the 
FEIS.
    <bullet>  Biological Assessment: PLP agreed to develop a revised 
biological assessment and work with US Fish and Wildlife Service on 
mitigation measures and effects decisions to address Endangered Species 
Act concerns.
    <bullet>  TSF Design/Spill Risk: The Corps has facilitated 
technical working group meetings with cooperating agencies to address 
these issues.
    <bullet>  Groundwater Impacts: Pebble and its contractors have 
developed an updated groundwater model, which is now being utilized to 
generate data in response to a request for information from the Corps.
    <bullet>  Wetlands: Supplemental wetland mapping from the 2019 
field season will fill data gaps for the final EIS.

    Another concern expressed today has been whether EPA withdrawing 
its preemptive, unprecedented veto (also known as the Proposed 
Determination) was the correct decision. There can be no question that 
it was.
    First, the entire Proposed Determination was the epitome of bad 
process--a lack of statutory authorization, no valid scientific record 
to speak of, and unelected, unaccountable bureaucrats trying to 
regulate a major economic development project out of existence.
    In the 47-year history of the Clean Water Act, EPA has never used 
Section 404(c) preemptively--that is, without a permit application 
reviewed by the Corps. As you can tell from Chart 3, EPA has only used 
the power 13 times. In 11 of the 13 instances, EPA had a full permit 
application record to review before it issued its veto. In the 
remaining 2 vetoes, unique circumstances existed to make the decision 
to veto wholly different than exists here.

    <bullet>  First, in the Bayou aux Carpes project in Louisiana, EPA 
was reviewing a project proposed by the Corps itself, so of course the 
processes for approval were different. As a federal court reviewing the 
issue noted, the Corps does not apply to itself for a permit. 
Additionally, the project approval process began before the passage of 
the Clean Water Act. There actually was a permit application to review; 
it was by the local parish under the Rivers and Harbors Act as well as 
a related permit application under the Clean Water Act that the Corps 
had denied.
    <bullet>  Second, for the veto related to a development site near 
the Everglades in the 1980s, EPA determined that the permit application 
would be identical to applications submitted for two neighboring sites. 
All three locations were considered ``similar pieces of the East 
Everglades wetlands complex with similar ecological values.'' When EPA 
moved to veto the Corps' pending 404 permits for the first two 
projects, it vetoed the third at the same time because it deemed them 
to have the same characteristics as the other two properties.

    Finally, EPA has even admitted that its actions lacked precedent.

    <bullet>  A briefing paper prepared in 2010, prior to the BBWA, 
noted that the contemplated preemptive veto had ``[n]ever been done in 
the history of the CWA.''
    <bullet>  The paper also correctly predicted that, given the 
unprecedented use of the authority, there was ``[l]itigation risk.''

    The preemptive veto is rarely used for a simple reason: In addition 
to it being bad policy to make major regulatory decisions on the basis 
of zero project-specific information, the Clean Water Act does not 
authorize a preemptive veto. The language of the statute itself 
contemplates a permit application before EPA can exercise its narrow 
veto authority. The U.S. Army Corps of Engineers is authorized to issue 
permits ``for the discharge of dredged or fill material into the 
navigable waters at specified disposal sites.'' 33 U.S.C.  1344. EPA's 
authority is narrow and must be based on a permit application, as the 
statute only allows the Agency to ``prohibit the specification'' or 
``deny or restrict the use of any defined area for specification.'' EPA 
can only take this action after determining that the discharge ``into 
such area'' will have an unacceptable adverse effect on the 
environment.
Chart 3--USEPA CWA Section 404(c) Final Veto Actions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


    The legislative history of the Clean Water Act and major cases 
interpreting it confirm that it was not intended to allow for 
preemptive vetoes. When Congress enacted the Clean Water Act, it 
expressly declined to give EPA complete authority over the issuance of 
permits, dividing up responsibilities between EPA and the Corps. The 
Senate Debate on the Conference Report contemplated that there would be 
a permit application before any 404(c) action ``because the permit 
application transmitted to [EPA] for review will set forth both the 
site to be used and the content of the matter of the soil to be 
disposed.''
    The United States Supreme Court held that the Clean Water Act 
``gives EPA authority to `prohibit' any decision by the Corps to issue 
a permit for a particular disposal site.'' Coeur Alaska Inc. v. 
Southeast Alaska Conservation Council, 557 U.S. 261, 274 (2009). The 
D.C. Circuit, in its ruling upholding that EPA could issue a veto even 
after the Corps has issued a permit, had before it a ``retroactive'' 
veto, not a preemptive veto such as Pebble faced. Indeed, the Court 
focused on the fact that in the Mingo Logan case, the disposal site was 
specified in the permit, meaning that EPA could only withdraw post-
permit. See Mingo Logan Coal Co. v. EPA, 714 F.3d 608, 614 (D.C. Cir. 
2013). The case does not address a preemptive veto, which would raise a 
host of different questions than those addressed by the Mingo Logan 
court.
    The Proposed Determination was also faulty process because it 
deliberately avoided NEPA and an EIS, which together comprise a 
superior, time-tested means of evaluating major development projects. 
Internal EPA emails make clear that the Agency had no intention of ever 
getting to a NEPA process. When Senator Lisa Murkowski of Alaska 
suggested that EPA's decision to conduct the BBWA in February 2011 
meant no preemptive action would occur until all the science had been 
evaluated, an EPA official stated ``her statement would suggest no 
404(c) would be done until all the science is in (EIS?). Obviously, 
that's not what we have in mind . . .''
    NRDC, a vocal opponent of the Pebble Project, has long referred to 
NEPA as the Magna Carta of environmental protection and ``democratic at 
its core.'' But now, when presented with an opportunity to put NEPA to 
work doing the exact project analysis for which it was designed, NRDC 
has shown its true colors: it only likes NEPA when it can be used to 
block a project.
    Not all EPA regional administrators during the Obama Administration 
believed the statutory federal permitting process could be disregarded 
like Mr. McLerran did. In 2016, then-Region 9 Administrator Jared 
Blumenfeld, when asked if EPA would veto a second permit for the 
Rosemont Copper Mine in Arizona, stated that he could not say if EPA 
was considering a veto until the Corps indicates that it intends to 
issue one. According to Blumenfeld, EPA needs ``a complete record'' to 
``see the entire body of information'' and in the absence thereof, it 
would be ``irresponsible to make a statement'' regarding a veto. As 
Blumenfeld aptly put it: ``Prejudging is actually not useful for EPA.''
    Allowing the Proposed Determination to stand would have set a far-
reaching, negative precedent for federal land use decisions. Using the 
Clean Water Act in this way is essentially the Antiquities Act on 
steroids. EPA--without statutory authority--grabbed the power to turn 
private and state land into a national park without any adequate 
stakeholder involvement or process.
    Make no mistake: federal zoning authority is what EPA explicitly 
wanted with this decision. One of the early, pre-BBWA EPA briefing 
papers stated that an advantage of a preemptive veto of Pebble was that 
it would ``serve as a model of proactive watershed planning for 
sustainability.''
    The bottom line is that the bad process and lack of statutory 
authority alone are solid reasons to withdraw the Proposed 
Determination. But if you look at how EPA actually crafted its Clean 
Water Act Section 404(c) veto, you will see the most shoddy and corrupt 
federal agency analysis that I have ever seen in more than 40 years 
working in environmental regulation.
    EPA's action was initiated not by the public or an independent 
tribal petition as claimed, but by a rogue EPA staffer who colluded 
with a known anti-mining activist to improperly petition his own 
agency. In 2009, EPA Region 10 ecologist Phil North concluded his 
agency should use its authority under Section 404(c) of the Clean Water 
Act to veto Pebble. North advocated for a pre-emptive 404(c) veto 
throughout the agency, including to then-Administrator Lisa Jackson in 
early 2010.

    <bullet>  According to sworn deposition testimony, by 2010 North 
had convinced two high ranking EPA Region 1O staff members (Richard 
Parkin and Michael Szerlog) that the project should be preemptively 
vetoed. EPA determined it needed political cover to kill Pebble, so it 
conspired with anti-mine activists to orchestrate a ``tribal petition'' 
as a pretext to initiate a process.
    <bullet>  North worked secretly with Geoff Parker, a known Pebble 
critic and attorney for several Alaska Native Tribes, to draft a 
petition for submission by some tribes. In an email uncovered by the 
House Oversight Committee, some within EPA expressed concern over the 
level of access and influence Parker had within EPA.
    <bullet>  EPA ``lost'' Phil North's computer hard drive for a 
critical two-year period when North and others regularly used personal 
email to conduct Pebble-related business.

    Even before receiving the petition and without any scientific 
study, EPA started drafting internal policy documents to facilitate 
preemptive action against Pebble.

    <bullet>  In 2010, a budget was prepared to secure funds to 
preemptively veto Pebble. EPA developed an ``options paper'' in 
consultation with Parker outlining the various paths EPA could take to 
a veto.
    <bullet>  Other federal agencies were looped in: a 2010 US Fish & 
Wildlife Service memo describes how EPA had made up its mind to veto 
the project.

    From the very beginning of the BBWA process, EPA stacked the deck 
against Pebble by placing avowed Pebble opponents in prominent 
positions drafting the BBWA.
    <bullet>  Richard Parkin
      <bullet>  Region 10's Richard Parkin, placed in charge of the 
BBWA, believed as early as 2010 that Pebble should be vetoed and 
campaigned aggressively within EPA for that result.
      <bullet>  At an early community meeting about the BBWA, Parkin 
even admitted that politics were ``as big or bigger factor'' than 
science in evaluating Pebble.
    <bullet>  Phil North
      <bullet>  North testified that he opposed Pebble very early and 
began campaigning within EPA in 2009 for an eventual veto.
      <bullet>  North even worked with Geoff Parker, a known Pebble 
critic and attorney for several Alaska Native Tribes, to draft a 
petition on behalf of those tribes urging EPA to veto Pebble. In other 
words, North engaged in a clandestine lobbying effort of his own 
agency, and EPA 's Inspector General determined that this constituted a 
``possible misuse of position.''
      <bullet>  North was named ``technical lead'' for the BBWA.
    <bullet>  Michael Szerlog, head of Region 10's Aquatic Resources 
Unit, testified that he too became opposed to Pebble before the BBWA.

    EPA was also sure to load the BBWA team with Pebble opponents from 
outside the Agency.

    <bullet>  Ann Maest
      <bullet>  EPA incorporated hydrologist Ann Maest's work after 
meeting with her numerous times and noting her bias against Pebble.
      <bullet>  The second draft of the BBWA was released after Maest 
was forced to admit in federal court to having falsified scientific 
reports in other litigation.
      <bullet>  In this other litigation, the U.S. District Court for 
the Southern District of New York ruled that a $9.5 billion Ecuadorian 
judgment against Chevron, in which Ann Maest served as Plaintiff's #2 
environmental consultant, was the product of fraud and racketeering 
activity by the Plaintiff's legal team. Maest declared under oath, ``I 
disavow any and all findings and conclusions in all my reports and 
testimony on the Equator Project.''
      <bullet>  EPA covered up Maest's role by removing explicit 
citations to her work in the BBWA, but not the underlying information.
    <bullet>  EPA chose University of Washington professor Thomas Quinn 
as a BBWA contributor, despite having participated in numerous 
briefings in which he advocated strongly for a preemptive veto, 
including one instance in which Quinn was forced to apologize for his 
aggressiveness during a briefing.
    <bullet>  EPA hired Alan Boraas to conduct subsistence and 
traditional use studies for the BBWA, despite Boraas having previously 
published several anti-Pebble editorials.
    <bullet>  EPA picked Phil Brna, a USFWS employee, to co-author a 
major appendix to the BBWA, despite his previously expressed excitement 
at the possibility of a veto. In an email, Brna stated: ``[t]his [i.e., 
a decision barring Pebble] is going to happen and it's going to get 
bloody. I am looking forward to it!''

    The BBWA began with anti-mine material, drawing heavily on the 
resources of ENGOs and activists and developed in close coordination 
with them. EPA shared with ENGOs an outline of the BBWA nearly a year 
before it announced the study. EPA planned to mimic a ``risk 
assessment'' by The Nature Conservancy (``TNC'') that had an extreme, 
negative view of Pebble. Before the launch of the BBWA in early 2011, 
EPA scheduled several briefings with anti-Pebble groups and invited 
anti-mine scientists to ``summarize the TNC risk assessment and how it 
supports 404(c).'' TNC has bragged that its ``science work is flowing 
directly into EPA's assessment of mining risk.'' Over the course of the 
BBWA (2011-2014), EPA communicated hundreds of times with anti-Pebble 
activists and scientists to share campaign information, technical 
studies and other intelligence relevant to EPA's 404(c) strategy.
    Other EPA officials were similarly conflicted. Nancy Stoner, EPA's 
former Deputy Assistant Administrator for Water, had previously worked 
for NRDC for over a decade. Despite NRDC's active opposition to Pebble, 
in which she participated while at the organization, Stoner did not 
recuse herself from Pebble-related matters at EPA. In fact, in response 
to a meeting request from NRDC leaders in June 2010, Stoner had to bend 
over backwards to keep an appearance of impartiality, stating in an 
email ``I passed along your request to others here. I am not supposed 
to set up meetings with NRDC staff, but can attend such a meeting if 
there are enough others in attendance.'' Despite recognizing this 
conflict, she continued to work on Pebble-related projects.
    What we know about EPA's wrongdoing in the Proposed Determination 
process may in fact only be the tip of the iceberg due to shoddy and 
perhaps nefarious record-keeping.

    <bullet>  Phil North and others regularly used personal email to 
communicate, including on Pebble-related matters, but EPA has never 
conducted a full search of personal emails.
    <bullet>  Somehow, EPA even ``lost'' North's computer hard drive 
spanning a full two-year period when he was working on Pebble matters.
    <bullet>  In an email uncovered by the House Oversight Committee, 
Richard Parkin indicated that staff members may have routinely taken 
sham steps to avoid FOIA disclosure, asking an attorney, ``Should [our] 
subject line include something like Atty/Client Privileged or whatever? 
Should we just do that routinely?''

    Not surprisingly, this predetermined, rushed process produced a 
scientifically indefensible Assessment and Proposed Determination. With 
no actual permit application to review, EPA designed hypothetical 
mining scenarios that it knew would have adverse impacts. EPA admitted 
the scenarios ``are not based on a specific mine permit application and 
are not intended to be the detailed plans by which the components of a 
mine would be designed.'' For just one example, EPA's hypothetical mine 
scenarios did not include the standard robust compensatory mitigation 
that is required for any project.
    Peer reviewers criticized the reliance on hypothetical mine 
scenarios, stating ``because of the hypothetical nature of the approach 
employed, the uncertainty associated with the assessment, and therefore 
the utility of the assessment, is questionable.'' EPA continued to use 
hypothetical mine scenarios that did not reflect modern engineering or 
environmental management because it knew that doing so would result in 
exaggerated environmental impacts and overstated risks, ensuring it 
could justify its proposed pre-emptive veto.
    The water release scenario in the BBWA shows how the hypothetical 
mines were practically designed to fail. The BBWA assumed that the 
Pebble Mine would release surplus water into only two of three 
available streams. Despite no logical, scientific, or legal basis for 
assuming such a release system, EPA chose to adopt it so that the BBWA 
could overstate impacts on downstream aquatic habitats. If, instead, 
EPA had chosen to assume that surplus water would have been released 
strategically, as is the case with Pebble's proposed plan, it would 
have concluded, for each hypothetical mine scenario analyzed, that the 
changes in stream flow would have involved a relatively high level of 
ecosystem protection, rather than finding a potentially adverse impact 
on the surrounding ecosystem. The obvious explanation for the BBWA's 
surplus water release scenario, therefore, is that EPA was designing a 
mine to fail.
    EPA even manipulated the peer review process to hide these glaring 
problems. Each time the BBWA underwent a peer review, reviewers pointed 
out its serious shortcomings. The following are quotes from various 
peer reviewers.

    <bullet>  ``I find this report, by its nature, to be very biased.''
    <bullet>  This report ``is clearly intended to convince the reader 
that the Pebble Mine should not be permitted to operate'' and ``lacks 
impartiality.''
    <bullet>  ``[S]ome of the comments read like editorial opinions 
rather than reporting scientific results.''
    <bullet>  One reviewer noted the BBWA's conclusions were ``not 
appropriate for a document that is intended to provide a scientific and 
technical foundation for future decision making.''
    <bullet>  Another concluded, ``Although interesting, the potential 
reality of the assessment is somewhat questionable. It is also unclear 
why EPA undertook this evaluation, given that a more realistic 
assessment could probably have been conducted once an actual mine was 
proposed and greater detail about operational parameters available.''

    EPA designed a peer review process that was contrary to its own 
regulations and guidelines so the many flaws in its BBWA study would 
remain hidden.

    <bullet>  In violation of its own guidelines, EPA had excessive 
contact with peer reviewers.
    <bullet>  EPA short-circuited the peer review process, limiting 
both oral and written submissions during public meetings.
    <bullet>  When EPA released the second draft of the BBWA, it had 
expanded from 339 pages to 618, and included an entirely new 
hypothetical mine scenario. This was not a second draft; it was an 
entirely new document which EPA should have peer reviewed. Not 
surprisingly, EPA ignored requests that it conduct a full peer review 
of the new document.
    <bullet>  EPA allowed peer reviewers to review only a limited set 
of materials in a limited amount of time and permitted them to address 
only specific questions selected by EPA.
    <bullet>  EPA ignored peer reviewers when they complained about the 
process and the insufficient time given for review.
    <bullet>  EPA tried to mollify peer reviewers' concerns by 
misleading them with promises that the BBWA would not be used for a 
regulatory decision. In response to peer review comments, EPA stated 67 
times that the BBWA was not intended to be a decision document, even 
though it ultimately relied on it exclusively in issuing preemptive 
restrictions on Pebble.

    In short, the Trump Administration has not overturned science with 
this decision. To the contrary, by withdrawing a shoddy and corrupt 
decision and allowing the statutorily-mandated federal permitting 
process to proceed, this Administration has in fact injected more--and 
better--science into the process.
    I appreciate the opportunity to testify before this committee and 
to address many of the myths that opponents are trying to build around 
the Pebble mine. We are dedicated to building a mine that can deliver 
the economic benefits that Alaskans so desperately need while ensuring 
that we do no damage to the fishery that is vital to the life of our 
State.

    Mrs. Napolitano. Thank you very much for your testimony, 
sir, and we now will have Mr. Richard Borden. You may proceed.
    Mr. Borden. I would like to thank Chairwoman Napolitano, 
Ranking Member Westerman, and members of the subcommittee for 
the opportunity to present this testimony.
    I am a geologist, environmental scientist, and manager with 
over 30 years of experience in the mining and consulting 
industries, including 23 years with Rio Tinto. During my 
career, I have performed permitting, evaluation, design and 
environmental work at more than 50 mines and mining projects 
across the world.
    I believe mining is essential to sustain our society, and 
that most commercially viable ore deposits should be developed. 
However, that does not mean that all ore bodies should be 
developed regardless of their negative environmental, 
commercial, or social impacts.
    The Pebble project is located in the most sensitive, 
globally significant, and challenging environmental setting of 
any mining project I have ever reviewed. It will be extremely 
difficult to construct, operate, and close a commercially 
viable mine in this setting that does not do permanent material 
harm to the Bristol Bay salmon fishery.
    Risks associated with the smaller 20-year mine proposed by 
the Pebble Partnership have been reduced, but by no means have 
they been eliminated. Even if everything goes exactly according 
to plan, the proposed mine would disturb 14 square miles of 
land and 8 miles of salmon-bearing rivers and streams. It would 
create a very large contaminated water treatment liability 
which will persist for many decades to centuries after closure.
    Despite these challenges, the environmental impact 
statement, or EIS, is scheduled for completion in less than 
half the time of a typical new mining project. This overly 
rushed process has contributed to the deeply flawed draft EIS 
that was released 6 months ago. Much of the EIS analysis 
contains insufficient detail to determine if the planned 
actions are equate or practicable.
    There are significant omissions. The document commonly 
understates potential impacts. In a number of significant 
instances, the conclusions are clearly wrong. Based on my 
experience, the draft EIS does not even meet industry standard 
practice.
    The proposed EIS project only mines about 10 percent of the 
total resource, and by necessity, must process relatively low 
grade ore. It would produce only half as much metal for sale as 
the smallest Pebble Mine plan that has undergone a rigorous, 
independent, and publicly available financial evaluation. This 
represents a loss of roughly $15 billion in revenue.
    Based upon a careful review of the available financial 
data, it is my professional opinion that the mine plan being 
evaluated by the EIS is, most certainly, not economically 
feasible. I have estimated the proposed project to have a net 
present value of approximately negative $3 billion.
    The financial analysis for the 20-year mine plan provided 
in the draft EIS by the Pebble Partnership is deeply flawed. It 
ignores smelting and refining costs, understates capital and 
operating costs, and fails to provide even a placeholder cost 
for closure.
    This represents a fatal flaw in the process because a 
larger mine would almost certainly need to be constructed in 
order to obtain a positive rate of return on the very large 
initial capital investment, which is almost certain to exceed 
$6 billion.
    The current EIS is, thus, almost certainly not evaluating 
the true environmental impacts and risks associated with the 
viable mining project. Even a small expansion of the project to 
extract 20 percent of the ore body would almost double the size 
of the disturbed footprint, quadruple water quality risks, and 
likely spread large-scale impacts into three different river 
drainage basins.
    Before closing, I also feel obligated to point out two of 
the more significant problems provided by Mr. Collier's written 
testimony. The examples cited in his EIS timeline are 
misleading. They are mostly oil and gas projects, or mines that 
are 10 to 1,000 times smaller than the proposed Pebble project. 
They all have a very different, and generally, a much lower 
risk profile, so it is no surprise they were completed more 
rapidly. The closest analog cited is the Donlin Mine EIS which 
took 6 years to complete, compared to the 2 years allotted for 
Pebble.
    The written testimony is also completely silent about the 
economics of the small mine being permitted, and that will 
almost certainly lose billions of dollars without a major 
expansion. In fairness to the EIS process, the investment 
community, and local stakeholders, I would urge the Pebble 
Limited Partnership to clearly demonstrate that the 20-year 
mine plan detailed in the EIS is financially viable. Thank you 
for the opportunity to speak with you.
    [Mr. Borden's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Richard K. Borden, Owner, Midgard Environmental 
                              Services LLC
    I would like to thank Chairwoman Napolitano, Ranking Member 
Westerman, and Members of the Subcommittee for the opportunity to 
present this written testimony on the ``Pebble Mine Project: Process 
and Potential Impacts.''
    During my 30-year career I have performed permitting, design and 
environmental work at more than fifty mines and mining projects across 
the world. The Pebble Project is located in the most sensitive, 
globally significant and challenging environmental setting of any 
mining project I have ever reviewed. It will be extremely difficult to 
construct, operate and close a commercially viable mine in this setting 
in a way that does not do permanent material harm to the salmon 
fishery. Even the smaller 20-year mine proposed for permitting by the 
Pebble Partnership would create very large environmental impacts and 
risks in the heart of the Bristol Bay salmon fishery.
    Despite these challenges, the Environmental Impact Statement (EIS) 
is scheduled for completion in less than half the time of a typical 
mine EIS. This overly rushed process has contributed to the deeply-
flawed draft EIS that was released six months ago. I have provided 
almost 50 pages of detailed technical comments on the draft EIS to the 
Army Corps of Engineers in six separate letters. Much of the EIS 
analysis contains insufficient detail to determine if the planned 
actions are adequate or practicable; the document commonly understates 
potential impacts; essential analyses and designs are deferred to the 
post-EIS permitting period; and in a number of significant instances, 
the conclusions are clearly wrong. The draft EIS clearly does not meet 
industry standard practice.
    The proposed EIS project only mines about ten percent of the total 
Pebble resource and by necessity must process relatively low-grade ore. 
It would produce only half as much metal for sale as the smallest mine 
plan that has undergone a rigorous, publicly available financial 
evaluation by an independent engineering consulting firm. The proposed 
EIS project by itself is also not the world class resource which is 
being advertised. Without a significant expansion it is not even in the 
top 25 ore bodies in the world for contained copper or gold.
    Based upon a careful review of the available financial data, it is 
my professional opinion that the mine plan being evaluated by the EIS 
is almost certainly not economically feasible, with an estimated 
negative net present value of three billion dollars. This represents a 
fatal flaw in the EIS because a larger mine would almost certainly need 
to be constructed in order to attain a positive rate of return on the 
very large initial capital investment. The current EIS is thus almost 
certainly not evaluating the true environmental impacts and risks 
associated with a viable mining project. Even a small expansion of the 
project to extract 20% of the ore body would almost double the size of 
the disturbed footprint, quadruple water quality risks and likely 
spread large-scale impacts into three different river drainage basins.
                        Professional Background
    I am a geologist, environmental scientist and manager with over 
thirty years of experience in the mining and consulting industries. 
During my 23 years with the global mining company Rio Tinto I 
participated in and contributed to more than twenty financial and 
technical assessments of new major capital projects, divestments and 
potential acquisitions. This included over seven years as Head of 
Environment for Rio Tinto's Copper, Copper & Diamonds and Copper & Coal 
Product Groups. I have published numerous papers on mine environmental 
performance and management in peer reviewed scientific journals, 
conference proceedings and books. I am intimately aware of the 
environmental challenges, issues and costs posed by the responsible 
development, operation and closure of large copper mines.
        Pebble Project Environmental Setting, Impacts and Risks
    The Pebble copper-gold ore body is located on a drainage divide 
between the headwaters of three important river systems in the center 
of the Bristol Bay watershed. This watershed hosts the globally 
significant Bristol Bay salmon fishery. Salmon are very sensitive to 
direct disturbance and to water quality changes within spawning rivers 
and surrounding wetlands. Most of the deposit is chemically reactive 
and would be prone to acid rock drainage formation if exposed to 
surface weathering conditions by mining. The site also has a very wet 
climate and is in a pristine, remote and seismically active location. 
All of these factors contribute to the very high innate environmental 
risk posed by any development of the ore body. Any commercial mining 
would, by necessity, result in widespread direct disturbance to 
wetlands, streams and upland areas. It would also create a contaminated 
water management liability which will certainly persist for decades and 
likely persist for centuries after mining is completed.
    The mine plan submitted for the EIS by the Pebble Partnership seeks 
to control these environmental impacts and risks by 1) only mining ten 
percent of the ore body; 2) minimizing the disturbed footprint; and 3) 
implementing design and engineering controls. These efforts have 
reduced, but by no means have they eliminated all the impacts and risks 
associated with the project. The 20-year mine plan proposed for the EIS 
would still result in direct disturbance of roughly 14 square miles and 
the permanent loss of eight miles of salmon river and stream habitat. 
Approximately 13,000 gallons per minute of contaminated water would 
need to be reliably captured and treated during operations and over 
5000 gallons per minute would need to be managed in perpetuity after 
closure. Over one billion tons of bulk tailings would also need to be 
managed in perpetuity. The closure of the small mine would be complex 
and the total closure cost liability created would almost certainly 
exceed 1.5 billion dollars. As shown in the table below, if an 
economically-viable full scale mine were ever developed at the site, 
most impacts and risks would increase by factors of three to five times 
and some would increase by more than one hundred times compared to the 
mine plan currently being evaluated by the EIS process.

----------------------------------------------------------------------------------------------------------------
                                           Proposed 20-year EIS      Expanded 78-year
                                                 mine plan         Development Scenario      Relative increase
----------------------------------------------------------------------------------------------------------------
                   Direct Disturbance         14 square miles       > 46 square miles       3.3 times greater
 Permanent Direct Wetland Disturbance        5.5 square miles       > 19 square miles       3.5 times greater
                           Permanent Loss 8 miles of streams and  42 miles of streams         5 times greater
                                                       rivers              and rivers
             Bulk Tailings Production       1140 million tons       5700 million tons         5 times greater
          Pyritic Tailings Production        155 million tons        800 million tons         5 times greater
       Non-Acid-Generating Waste Rock         95 million tons      13600 million tons       140 times greater
                            Production
Acid-Generating Waste Rock Production         50 million tons       3400 million tons        70 times greater
   Fugitive Dust and Mobile Equipment     250,000 tons/day of     900,000 tons/day of       3.6 times greater
                             Emissions         material moved          material moved
                   Open Pit Footprint               608 acres              3600 acres         6 times greater
       Maximum Pit Groundwater Inflow        2400 gallons per      12,000 gallons per         5 times greater
                                                       minute                  minute
      Operational Spill Risk Duration                20 years                78 years       3.9 times greater
            Green House Gas Emissions     > 22 million tons of    > 160 million tons of       7 times greater
                                              CO2 equivalents         CO2 equivalents
----------------------------------------------------------------------------------------------------------------
Source: Pebble Project Draft EIS; Wardrop, Preliminary Assessment of the Pebble Project, 2011 (commissioned by
  Northern Dynasty Minerals); and independent calculations

Pebble Mine Project Economics
    In 2011, Northern Dynasty Minerals Limited commissioned Wardrop (an 
independent mining engineering consulting firm) to complete a 
``Preliminary Assessment of the Pebble Project''. This study performed 
financial evaluations on 25-, 45- and 78-year mine scenarios that 
targeted approximately 17, 32 and 55% of the total ore body 
respectively. This is the last publicly available, rigorous and 
independent economic evaluation of the Pebble ore body. The 20-year 
mine plan being evaluated by the EIS only produces half as much metal 
for sale as the smallest mine plan evaluated by Wardrop. In sum the 
value per ton of ore mined by the 20-year EIS mine plan is also about 
21% lower than the average ore mined by the 25-year Wardrop plan. Given 
both project scenarios would have roughly the same very high initial 
capital costs for infrastructure construction, this has a profound 
negative impact on the likely economics of the mine being evaluated by 
the EIS. A comparison of the profits generated by concentrate sales 
from the two projects can be made using the life of mine average net 
smelter return per ton of ore calculated in 2011 minus the average 
total operating costs per ton of ore. For the 25-year mine plan this 
equates to $32 billion and for the 20-year mine plan this equates to 
$17 Billion. Thus, the mine currently being evaluated in the EIS 
process makes $15 billion less profit from concentrate sales. When this 
difference is apportioned by year and a discount rate of seven percent 
per year is applied, this equates to a five-billion-dollar reduction in 
net present value (NPV) between the 25-year plan evaluated in 2011 and 
the 20-year EIS case. It is certainly acknowledged that these are 
approximate, back-of-the-envelope calculations but the strategic 
implications for overall project economics are significant and will be 
extremely difficult to offset.
    The initial mine construction costs assumed by Wardrop were 
anomalously low compared to other large copper mines that have been 
studied or built over the past five to ten years. Part of the apparent 
discrepancy in capital cost can be attributed to the removal of $1.3 
billion in capital from the 2011 Wardrop construction cost estimate 
because ``it has been assumed in the financial evaluation that the 
Pebble Partnership will enter into strategic partnerships as needed to 
develop, finance and operate a number of infrastructure assets--
including the transportation corridor (port and road) and the power 
plant.'' However, it is unclear who would partner with the Pebble 
project in order to provide this extra capital. As such, this 
assumption is considered speculative. Adding this $1.3 billion back 
into the capital cost estimate for the Pebble 25-year mine case brings 
the total construction cost up to six billion dollars which is a little 
more in line with other recent mining projects.
    The Wardrop study also significantly underestimated annual water 
treatment costs and did not include even a placeholder cost for closure 
of the Pebble mine. As shown in the table below, when the higher 
construction costs; higher operational expenditures for water 
treatment; closure costs and much lower revenue from concentrate sales 
are factored into the Wardrop study's 25-year mine plan economic 
evaluation, the 20-year mine plan being considered by the Pebble EIS 
has a negative NPV of approximately three billion dollars. This should 
only be considered a conceptual level approximation of the project's 
actual NPV. While a new rigorous economic evaluation may make the NPV 
less or more negative, I believe it is very unlikely to make the 
project have a positive rate of return on what is likely to be an 
extremely large and risky capital investment.

------------------------------------------------------------------------
                                                              NPV
------------------------------------------------------------------------
Estimated NPV of the 2011 Wardrop 25-Year Mine Plan.      +$3.8 Billion
Capital for Access Corridor and Power Plant added         -$1.3 Billion
 back into construction cost........................
Lost revenues from decreased concentrate sales......        -$5 Billion
Refined operational water treatment costs...........      -$0.3 Billion
Discounted Closure Cost.............................      -$0.4 Billion
Conceptual NPV of the EIS 20-Year Mine Plan.........        -$3 Billion
------------------------------------------------------------------------

    The conceptual financial analysis provided by the Pebble Limited 
Partnership for the 20-year mine plan in the draft EIS is fatally 
flawed. It ignores smelter and refining costs, understates capital and 
operating costs and fails to provide even a placeholder cost for 
closure. With the incorporation of just these limited corrections, the 
Pebble Limited Partnership financial evaluation also has a strongly 
negative net present value. The draft EIS is thus evaluating a mine 
plan that does not meet its own alternatives screening criteria 
including the requirement that each alternative be ``practical or 
feasible from the technical and economic standpoint''.
    If the base case mine plan assumed for the EIS is not economic, 
then the entire permitting process is compromised because the impacts 
and risks being evaluated are much smaller than those required for a 
full-scale economically viable project. In other words, the EIS is not 
evaluating the ``least environmentally damaging practicable 
alternative.'' This situation would also place prospective developers 
in a difficult situation because in order to create a profitable 
operation they would either need to 1) immediately begin a new EIS for 
a larger economically viable mine plan or 2) knowingly permit, fund and 
build an uneconomic mine in the hopes that a later EIS and permitting 
process would allow a larger, economically viable operation.
    For additional detail of the full economic evaluation submitted to 
the Army Corps of Engineers during the draft EIS public comment period 
see Appendix A attached to this written testimony.
Environmental Impact Statement Process
    The draft EIS document for the Pebble Project was written in only 
eleven months. This is almost three times faster than the 2.6 years to 
complete the average draft EIS in the United States between 2010 and 
2017 (Executive Office of the President, Council on Environmental 
Quality, December 2018). This short timeline is unprecedented for such 
a large, complex mining project which will have unavoidable, material 
and long-term impacts to a sensitive, globally significant ecosystem. 
It has almost certainly compromised the technical rigor and reliability 
of the EIS process.
    Based upon a careful review of the Pebble Project draft EIS it is 
my professional opinion that the document and associated analysis is 
fatally flawed. The draft EIS contains an unacceptable number of 
deficiencies, omissions and errors. Due to the global significance of 
the salmon fishery, any EIS within the Bristol Bay watershed should be 
held to the highest standard, but the Pebble draft EIS does not even 
meet industry standard practice. Much of the analysis contains 
insufficient detail to determine if the planned actions are adequate or 
practicable; the document commonly understates potential impacts; 
essential analyses and designs are deferred to the post-EIS permitting 
period; and in a number of significant instances, the conclusions are 
clearly wrong. The analysis of key project components such as water 
management, geotechnical stability, reclamation & closure, wetlands 
mitigation and air quality are clearly inadequate. In particular the 
failure to consider the profound impacts that would result from large-
scale catastrophic tailings dam failure means that the draft EIS 
ignores one of the largest environmental risks posed by the project. 
The cumulative effects evaluation of the more-credible 78-year mine 
plan significantly understates and, in some cases, grossly 
underestimates the much larger impacts and risks associated with an 
expanded mining operation. There are also several important 
alternatives which could significantly reduce the environmental impacts 
and risks of the project which were either not evaluated or were 
eliminated prematurely.
    I have provided almost 50 pages of detailed technical comments on 
the draft EIS to the Army Corps of Engineers in six separate letters. 
These letters are publicly available at the Army Corps Pebble Project 
EIS website and are also attached as Appendix A to this written 
testimony. Given the substantial flaws in the draft EIS, I have urged 
the Army Corps of Engineers to restart the process with an analysis 
based on an economically-credible mine plan; and supported by an 
independent, rigorous economic analysis to demonstrate that the project 
is the least environmentally damaging practicable alternative. The EIS 
process will be severely compromised if the deficiencies of the current 
document are not fully addressed. This would almost certainly require, 
as a minimum, the completion of a Supplemental Environmental Impact 
Statement.
                               appendix a
  technical comment letters on the pebble project draft environmental 
                            impact statement
submitted to the united states army corps of engineers during the 2019 
                         public comment period
    [The comments are retained in committee files and are available 
online at the U.S. House of Representatives Document Repository at 
https://docs.house.gov/meetings/PW/PW02/20191023/110065/HHRG-116-PW02-
Wstate-BordenR-20191023.pdf beginning on page 7, as well as at https://
pebbleprojecteis.com/publiccomments/drafteiscomments.]

    Mrs. Napolitano. Thank you very much, Mr. Borden.
    I now recognize Alannah Hurley, and you may proceed.
    Ms. Hurley. Good morning, Chairwoman Napolitano, Chair 
DeFazio, Ranking Member Westerman, and members of the 
subcommittee. I thank you all for having me here today. My 
Yup'ik name is Acha [phonetic], and my Irish name is Alannah 
Hurley, and I am executive director for the United Tribes of 
Bristol Bay.
    And UTBB is a Tribal consortium whose mission is to defend 
our indigenous way of life by protecting our traditional lands 
and waters. The Yup'ik, Denaina, and Alutiiq peoples of Bristol 
Bay represent three of the last remaining salmon cultures on 
the planet. We are salmon people, but salmon are more than food 
for us. Salmon are central to our cultural identity, our 
spirituality, and our sacred way of life that has made us who 
we are for thousands of years in the Bristol Bay region.
    Pebble's proposal to build a mine at the heart of our 
watershed has been a dark cloud over Bristol Bay for the last 
15 years. As proposed, the mine would permanently impact 
thousands of acres of pristine lands and waters that sustain 
the world's greatest salmon habitat. While our people have 
opposed Pebble for nearly two decades, our recent experience 
with the Army Corps of Engineers has made it clear to us, the 
Government is paving the way for Pebble, regardless of the 
consequences.
    Despite the Corps statement that it is committed to a 
thorough, fair, and transparent review of Pebble, our Tribes' 
experiences in the environmental review process demonstrate it 
is merely paying lip service to its statutory obligations and 
its trust responsibility to our Tribes. Despite two of our 
member Tribes' significant efforts to work as cooperating 
agencies, the Corps has erected substantial barriers to their 
meaningful participation. The Corps has dismissed the Tribes' 
concerns and failed to provide the information necessary to 
meaningfully evaluate impacts, impacts to our people.
    Additionally, throughout this process, the Corps has 
repeatedly failed to meaningfully consult with Tribes on a 
Government-to-Government basis. We have extended countless 
invitations to the Corps to visit our communities, see and 
witness our way of life, and to engage in open dialogue about 
these issues that are most important to our people. Yet, the 
Corps continues to be unresponsive to these requests.
    The posters you see here today are prime examples of how 
information is routinely kept hidden from the public eye. As a 
result, Tribes are forced to rely on the media for critical 
information the Government should be providing directly to 
Tribes. This is unacceptable, and it really sends a clear 
message to our Tribes that the Corps' recitals of its 
obligations are nothing but hollow words, words so hollow that 
a senior Corps official in Alaska could not get through 
prepared remarks at the end of a draft EIS hearing in 
Dillingham last spring without weeping and having to turn it 
over to another official.
    After nearly 2 years of this treatment by the Corps, 
Bristol Bay's Tribes are continually left with the lingering 
question of why. Why is the Army Corps rushing a timeline that 
doesn't match up with any realities in Bristol Bay? Studies 
remain undone, data gaps remain unfilled, and the draft EIS has 
been universally condemned by the scientific community, by 
other Federal agencies, and by our people for its lack of 
thorough analysis of this project and its impact to the people 
of Bristol Bay. Why is it that major announcements and agency 
decisions are known to Northern Dynasty shareholders who 
actively discussed this knowledge in online investment forums 
before those decisions are publicly announced? And why is it 
that Bristol Bay's first people to whom this Federal Government 
owes a sacred trust responsibility are continually treated as 
second-class citizens by agencies of the United States?
    We are not a box to be checked, we are not an obstacle to 
overcome, and we are not enemies to be defeated. We are the 
indigenous people of Bristol Bay. Our culture is not for sale, 
and we deserve to be heard, we deserve to be respected, and we 
will not be brushed aside. We have inherited the responsibility 
to be strong stewards of Bristol Bay, and we will not stop 
fighting until our homeland is protected from the Pebble Mine.
    I am not here to debate the shape shifting size and scope 
of whatever size and scope the Pebble Mine is peddling, 
depending on the month. I am here to tell you that any mine in 
Bristol Bay threatens our very existence as indigenous peoples. 
If Pebble is developed, there is no doubt it will forever 
change who I am, who my people are, where I come from, and it 
will rob our children's children of their right to continue 
being Native people as we have for thousands of years in 
Bristol Bay. I cannot accept that, our people cannot accept 
that, and this committee should not accept that.
    The Corps has made it clear that our people, science, and 
fact do not matter in this process, so we plead with this 
committee to do everything in its power to hold this 
administration accountable. This must be done to ensure the 
traditional and natural resources of Bristol Bay wild salmon 
are protected. Please uphold your responsibility to our Tribes 
and put an end to this culture of corruption. [Speaking in 
Native language.] Thank you for having me.
    [Ms. Hurley's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Alannah Hurley, Executive Director, United Tribes 
                             of Bristol Bay
                            I. Introduction
    Dear Chairman DeFazio, Ranking Member Graves, Subcommittee 
Chairwoman Napolitano, and Subcommittee Ranking Member Westerman, my 
name is Alannah Hurley and I am the Executive Director of the United 
Tribes of Bristol Bay (UTBB), a tribally chartered consortium of 
fifteen federally recognized tribes in Bristol Bay.\1\ Each member 
tribe passed a tribal resolution delegating its governmental powers to 
UTBB to implement the Bristol Bay Regional Visioning Project, a region-
wide action plan developed by Bristol Bay's tribal communities focused 
on improving economic development opportunities, preserving cultural 
and subsistence resources, and increasing educational opportunities for 
tribal youth. UTBB is organized as a consortium of tribal governments 
working to protect the traditional way of life of the indigenous people 
of Bristol Bay and the natural resources upon which that way of life 
depends. UTBB's mission is to advocate for sustainable communities 
through development consistent with our traditional values.
---------------------------------------------------------------------------
    \1\ UTBB's member Tribes include: Aleknagik Traditional Council, 
Chignik Lake Tribal Council, Clark's Point Village Council, Curyung 
Tribal Council, Ekuk Village Council, Levelock Village Council, 
Manokotak Village Council, New Koliganek Village Council, New Stuyahok 
Traditional Council, Nondalton Village Council, Pedro Bay Village 
Council, Pilot Point Tribal Council, Portage Creek Village Council, 
Togiak Traditional Council, and Twin Hills Village Council. Each is a 
federally recognized Indian tribe. Indian Entities Recognized by and 
Eligible To Receive Services From the United States Bureau of Indian 
Affairs, 84 Fed. Reg. 1,200, 1,204-05 (Feb. 1, 2019).
---------------------------------------------------------------------------
    The Yup'ik, Dena'ina, and Alutiiq peoples of Bristol Bay represent 
three of the last remaining ``salmon cultures'' in the world.\2\ 
Extending from time immemorial to the present, salmon has been the 
foundation of Alaska Native cultures in the region. Today, salmon makes 
up nearly 82% of the subsistence diet in the region.\3\ Individuals 
practicing a subsistence way of life devote innumerable hours per year 
preparing nets, boats, smokehouses, and other equipment just in 
preparation for the summer salmon runs.\4\ The subsistence way of life 
is viewed as full-time job and wealth is often defined it in terms of a 
full freezer or a good stockpile of subsistence foods.\5\ Beyond 
subsistence harvests, salmon also serves an important cultural role. 
Salmon is more than food for us. Catching, preserving, and eating 
salmon are part of a genuine and treasured way of life. A way of life 
that we desire to keep living and have worked diligently to protect.
---------------------------------------------------------------------------
    \2\ U.S. Environmental Protection Agency, an Assessment of 
Potential Mining Impacts on Salmon Ecosystems of Bristol Bay, Alaska 
App. D, at 11 (2014) (EPA 910-R-14-001B).
    \3\ Id. at 78.
    \4\ Id. at 85.
    \5\ Id. at 85, 88.
---------------------------------------------------------------------------
    The proposed Pebble mine poses a serious threat to the 
extraordinary natural resources of Bristol Bay and our traditional ways 
of life that depend upon those resources. The pristine ecosystems in 
the Bristol Bay watershed are critical to the continued health of 
salmon populations in the region. Pebble Limited Partnership is 
proposing to build one of the largest open-pit mines in North America 
in the heart of the Bristol Bay watershed. As proposed, the mine would 
adversely and permanently impact Bristol Bay's extraordinarily 
productive system of streams, wetlands, and uplands that support the 
world's largest salmon fishery. As part of the proposed development of 
Pebble mine, Pebble Limited Partnership submitted a permit application 
to the U.S. Army Corps of Engineers (Corps or USACE) to discharge fill 
material into and perform work within the waters of the United 
States.\6\ Despite the Corps' statements that it is committed to a 
thorough, fair, and transparent review of the proposed Pebble mine, our 
Tribes' experiences participating in the environmental review process 
as cooperating agencies and interacting with the Corps on a government-
to-government basis clearly demonstrate that the Corps is merely paying 
lip service to its statutory obligations and its trust responsibility 
to our Tribes.
---------------------------------------------------------------------------
    \6\ U.S. Army Corps of Engineers, Public Notice of Application for 
Permit, POA-2017-271 (Jan. 5, 2018).
---------------------------------------------------------------------------
            II. Treatment of Tribes as Cooperating Agencies
    Under the National Environmental Policy Act, the Corps is required 
to conduct a thorough, science-based analysis of the impacts associated 
with the proposed Pebble mine. NEPA fosters informed decision-making by 
requiring federal agencies to take a ``hard look'' at the environmental 
impacts of a proposed action.\7\ An environmental impact statement 
(EIS) must ``provide full and fair discussion of significant 
environmental impacts'' and ``inform decisionmakers and the public of 
the reasonable alternatives which would avoid or minimize adverse 
impacts.'' \8\ Tribes, like state and federal agencies, have the 
ability to participate as cooperating agencies and contribute to the 
development of the EIS. Two of UTBB's member Tribes, Curyung Tribal 
Council and Nondalton Tribal Council, are participating in the NEPA 
process as cooperating agencies. Despite the Tribes' significant 
efforts to fulfill their responsibilities as cooperating agencies, they 
have faced substantial barriers to full and meaningful participation. 
The Corps' has summarily dismissed tribal cooperating agencies' 
substantive concerns and failed to provide the information necessary to 
meaningfully evaluate the impacts of the proposed Pebble mine.
---------------------------------------------------------------------------
    \7\ W. Watersheds Project v. Kraayenbrink, 632 F.3d 472, 486 (9th 
Cir. 2011).
    \8\ 40 C.F.R.  1502.1.
---------------------------------------------------------------------------
    From the beginning, the Corps arbitrarily limited the involvement 
of tribal cooperating agencies. In November 2018, the Corps distributed 
an internal draft EIS to cooperating agencies for review and comment. 
At that time, Shane McCoy, program manager for the Corps' Alaska 
District, informed tribal cooperating agencies that the Corps would 
only consider their comments on subjects the Corps identified as their 
areas of expertise--cultural resources, subsistence, land use, and 
socioeconomics.\9\ Despite requests from tribal cooperating agencies to 
remove these limitations, the Corps has imposed them throughout the 
NEPA process.\10\ Most recently, when the Corps held cooperating agency 
meetings in July and August 2019, McCoy again informed tribal 
cooperating agencies that their participation would be limited to the 
subjects that the Corps identified as their areas of expertise.\11\ 
Though tribal cooperating agencies were invited to attend all the 
meetings, they were only permitted to participate in the discussion at 
one. Tribes, as sovereigns, have broader interests, concerns, and 
expertise, than the arbitrary and insulting limits that the Corps 
placed upon tribal cooperating agencies.\12\
---------------------------------------------------------------------------
    \9\ See Email from Shane McCoy, Program Manager, U.S. Army Corps of 
Engineers, Alaska/District, to cooperating agencies (Oct. 17, 2018) 
(``When revising the draft EIS prior to public comment, USACE will 
consider those comments which are related to the CA's identified area 
of special expertise. Other comments related to the DEIS will be 
considered at the same time as the public's comments, after the Notice 
of Availability for the dEIS.'').
    \10\ Letter from William Evanoff, President, Nondalton Tribal 
Council, to Lieutenant General Todd T. Semonite, Commanding General and 
Chief of Engineers, U.S. Army Corps of Engineers, at 1 (Sept. 5, 2018).
    \11\ See Email from Shane McCoy, Program Manager, U.S. Army Corps 
of Engineers, Alaska District, to cooperating agencies (July 22, 2019) 
(``All agencies can attend any of the meetings, however, discussions on 
topics will be limited to the agencies with that expertise.'').
    \12\ See Letter from William Evanoff, President, Nondalton Tribal 
Council, to Lieutenant General Todd T. Semonite, Commanding General and 
Chief of Engineers, U.S. Army Corps of Engineers, at 1 (Sept. 5, 2018).
---------------------------------------------------------------------------
    The Corps' improper treatment of cooperating agencies is not 
limited to Tribes. Throughout the NEPA process, the Corps has inhibited 
the ability of cooperating agencies to participate and failed to 
properly consider cooperating agencies' substantive comments and 
concerns. The Department of Interior's (DOI) comments on the draft EIS 
raised serious process-related concerns, stating that ``we must note 
that, despite being cooperators, [U.S. Fish and Wildlife Service, 
National Park Service, and Bureau of Safety and Environmental 
Enforcement] were only provided certain sections of the Administrative 
DEIS to review as it was prepared and were not able to access the 
entire document until after it was released for public comment.'' \13\ 
Addressing the Corps' failure to meaningfully consider and respond to 
cooperating agencies' comments, the DOI recommended that the Corps 
``more effectively and directly address prior comments . . . For 
example, responses to previous comments often cited conclusions from 
other sections of the DEIS to resolve concerns, but these citations did 
not sufficiently address the issues that were originally raised.'' \14\ 
The Environmental Protection Agency (EPA) also raised concerns about 
the manner in which the Corps limited cooperating agencies' 
participation, stating that it would continue to provide ``special 
expertise in specific areas requested by the Corps,'' but would ``also 
continue to request the ability to assist the Corps in additional areas 
. . . including fisheries and air quality, where [the EPA has] special 
expertise and jurisdiction.'' \15\
---------------------------------------------------------------------------
    \13\ Letter from Philip Johnson, Regional Environmental Officer, 
Office of Environmental Policy and Compliance, Anchorage Region, to 
Shane McCoy, Program Manager, U.S. Army Corps of Engineers, Alaska 
District, at 1 (July 1, 2019) (hereinafter ``DOI Comment Letter'').
    \14\ Id. at 3.
    \15\ Letter from Chris Hladick, Regional Administrator, 
Environmental Protection Agency, Region 10, to Shane McCoy, Program 
Manager, U.S. Army Corps of Engineers, Alaska District, at 6 (July 1, 
2019) (hereinafter ``EPA Comment Letter'').
---------------------------------------------------------------------------
    In addition to process-related concerns, cooperating agencies 
submitted extensive comments on the draft EIS's substantive 
deficiencies, including insufficient analysis of impacts to watershed 
health, including impacts to fish and fish habitat; \16\ insufficient 
analysis of ``potential impacts to subsistence resources and the 
communities that depend on them;'' \17\ and insufficient analysis of 
spill risk associated with tailing storage and other facilities.\18\ 
Based on these and other deficiencies, the DOI concluded that the draft 
EIS did not follow NEPA requirements and was so inadequate that it 
``preclude[d] meaningful analysis.'' \19\ Ultimately, the DOI 
recommended that the Corps undertake additional analysis--``Due to the 
substantial deficiencies and data gaps identified in the document and 
as a department with multiple cooperating agencies, the DOI recommends 
that the USACE prepare a revised or supplemental DEIS.'' \20\ Nondalton 
Tribal Council repeatedly raised the same concern with the Corps, 
requesting that the Corps prepare a supplemental EIS in accordance with 
its obligations under NEPA. In multiple letters, Nondalton Tribal 
Council explained to the Corps that failure to produce a supplemental 
EIS would deny Bristol Bay Tribes, the public, and state and federal 
agencies the ability to fairly and objectively review the proposed 
project and make informed decisions about its impacts.\21\ Senator Lisa 
Murkowski, Alaska's senior Senator, also recognizes that the Corps' 
process is broken. A committee report accompanying the appropriations 
bill for DOI, environment, and related agencies included language, 
drafted by Senator Murkowki, stating that ``[a]dverse impacts to 
Alaska's world-class salmon fishery and to the ecosystem of Bristol 
Bay, Alaska, are unacceptable'' and directing other federal agencies 
``to exercise their discretionary authorities . . . to ensure the full 
protection of the region'' if they continue to be unsatisfied with the 
Corps' analysis of the project.\22\
---------------------------------------------------------------------------
    \16\ See e.g., DOI Comment Letter at 5; EPA Comment Letter at 4; 
Comments of the Nondalton Tribal Council and the United Tribes of 
Bristol Bay on the U.S. Army Corps of Engineers' Draft Environmental 
Impact Statement for the Proposed Pebble Mine POA-2017-271 (July 1, 
2019) (hereinafter ``Nondalton and UTBB Comment Letter''); Letter from 
Robert Heyano, President, Ekuk Village Council, to Colonel Phillip J. 
Borders, District Commander, U.S. Army Corps of Engineers, Alaska 
District, at 1 (April 11, 2019) (hereinafter ``Ekuk Comment Letter'').
    \17\ See e.g., DOI comment letter at 3; Nondalton and UTBB Comment 
Letter at 2; Ekuk Comment Letter at 1-2.
    \18\ See e.g., Nondalton and UTBB Comment Letter at 2; EPA Comment 
Letter at 5.
    \19\ DOI Comment Letter at 3.
    \20\ Id.
    \21\ See e.g., Letter from George Alexi, President, Nondalton 
Tribal Council, to Lieutenant General Todd T. Semonite, Commanding 
General and Chief of Engineers, U.S. Army Corps of Engineers, at 1-2 
(Sept. 27, 2019); Letter from George Alexi, President, Nondalton Tribal 
Council, to Lieutenant General Todd T. Semonite, Commanding General and 
Chief of Engineers, U.S. Army Corps of Engineers, at 2 (Aug. 27, 2019).
    \22\ S. Rep. No. 116-123, at 87 (2019).
---------------------------------------------------------------------------
    Though the Corps has repeatedly stated that it is committed to a 
fair and transparent review of the proposed Pebble mine, its course of 
action reveals the disingenuousness of that commitment. In response to 
cooperating agencies' substantial criticisms of the draft EIS and 
recommendations to develop a supplemental EIS, the Corps has indicated 
that it will not undertake additional analysis. On a press call with 
reporters in July 2019, David Hobbie, chief of the Corps' Alaska 
District Regulatory Division, stated that he was not considering a 
supplemental draft EIS ``at this point.'' \23\ Similarly, on a call 
with reporters last month, Shane McCoy, program manager for the Alaska 
District stated that despite significant changes to plans for the 
proposed Pebble mine submitted by the project proponent, the Corps 
``would not be publishing a supplemental [environmental impact 
statement], and there wouldn't be an opportunity for the public to 
comment.'' \24\ Despite the fact that the Corps was ``still working 
through all the comments'' and was ``still waiting on additional data 
on groundwater modeling, wetlands and cultural resources'' from the 
project proponent, McCoy stated that the Corps was still on pace to 
issue a final EIS in early 2020.\25\ McCoy then went a step further, 
essentially agreeing with claims the project proponent made in a recent 
presentation to investors that the proposed Pebble mine ``will not harm 
salmon and will not affect water resources of Bristol Bay.'' \26\
---------------------------------------------------------------------------
    \23\ Ariel Wittenberg, EPA punts on latest Pebble mine decision, 
E&E News (July 29, 2019), https://www.eenews.net/greenwire/stories/
1060806401.
    \24\ Dylan Brown, Revised mining plan won't require new review--
Army Corps, E&E News (Sept. 18, 2019), https://www.eenews.net/
greenwire/stories/1061134919 (alteration in original).
    \25\ Id.
    \26\ Id.
---------------------------------------------------------------------------
    Hobbie and McCoy's statements are consistent with the Corps' 
pattern of summarily dismissing the significant concerns and 
substantive recommendations of cooperating agencies. This pattern is 
particularly alarming in contrast to the Corps' conduct toward Pebble 
Limited Partnership. As the Nondalton Tribal Council explained to the 
Corps in a recent letter, these statements ``clearly demonstrate a 
significant bias in favor of the applicant, the intent to implement a 
politically driven fast-track schedule, and a pre-decisional mindset 
that sets aside any attempt to make a reasonable, fair, and objective 
final permit decision.'' \27\
---------------------------------------------------------------------------
    \27\ Letter from George Alexi, President, Nondalton Tribal Council, 
to Lieutenant General Todd T. Semonite, Commanding General and Chief of 
Engineers, U.S. Army Corps of Engineers, at 2-3 (Sept. 27, 2019).
---------------------------------------------------------------------------
      III. Treatment of Tribes on a Government-to-Government Basis
    The Corps, like all federal agencies, owes a trust responsibility 
to Tribes. Because of Tribes' legal status as sovereigns, the federal 
government has an obligation to consult with Tribes on a government-to-
government basis when contemplating actions that may affect tribal 
lands, resources, members, and welfare. Executive Order 13175 mandates 
that all executive agencies recognize and respect Tribes' sovereign 
status.\28\ The order also requires agencies to establish policies and 
procedures to ensure meaningful and timely consultation with tribes 
when an action affects tribal interests.\29\ Under the Corps' own 
guidance, it must ``ensure that all Tribes with an interest in a 
particular activity that has the potential to significantly affect 
protected tribal resources, tribal rights (including treaty rights) and 
Indian lands are contacted and their comments taken into 
consideration.'' \30\ The Corps' guidance also emphasizes beginning 
consultation at ``the earliest planning stages, before decisions are 
made.'' \31\ Though the Corps often recites its obligations in 
communications with Bristol Bay Tribes, its course of action falls far 
short of its recitals. In stark contrast to its promises, the Corps has 
ignored tribal concerns, withheld information from Tribes, refused to 
meet on a government-to-government basis, and treated Tribes like 
stakeholders instead of sovereign Nations.
---------------------------------------------------------------------------
    \28\ Exec. Order No. 13,175, 65 Fed. Reg. 67,249, 67,249-50 (Nov. 
6, 2000) (mandating that agencies ``respect Indian tribal self-
government and sovereignty'' when ``formulating and implementing 
policies'' that affect tribal interests).
    \29\ Id. at 67,250.
    \30\ U.S. Army Corps of Engineers, Tribal Consultation Policy, at 4 
(Nov. 2012).
    \31\ Id. at 2-3.
---------------------------------------------------------------------------
    The Corps' failure to meaningfully consult with Tribes on a 
government-to-government basis is a concern that UTBB and its member 
Tribes have continuously raised with the Corps. We have extended 
countless invitations to the Corps to visit our villages and to engage 
in open dialogue about the issues that are most important to us. We 
have explained that meeting with us in our communities provides the 
most inclusive participation of our Tribal leaders and members. 
Traveling to our communities would also provide the Corps leadership 
and staff with a better understanding of the resources, and in turn the 
traditional ways of life, that would be adversely affected by the 
proposed Pebble mine. But the Corps has been unresponsive to our 
requests.
    The Corps' monthly tribal teleconference is another illustrative 
example of the way in which the Corps views its government-to-
government relationship with Tribes. Though a teleconference with 
thirty-five Tribes is not an appropriate means to engage in government-
to-government consultation, the Corps includes its monthly tribal 
teleconferences in its record of tribal consultation.\32\ Monthly 
teleconferences could be an appropriate mechanism to provide Tribes 
with information and updates that implicate tribal interests; however, 
the Corps' tribal teleconferences fail to achieve even this more 
limited purpose. As a result, Tribes are forced to rely on the media 
for critical information that the Corps should provide directly to 
Tribes. News articles about the recent changes to the proposed mining 
plan are just one of the many instances where Tribes learned of 
significant project-related information from the news instead of the 
Corps.\33\ This is unacceptable and sends a clear message to Tribes 
that the Corps' recitals of its obligations are merely hollow words.
---------------------------------------------------------------------------
    \32\ U.S. Army Corps of Engineers, Pebble Project EIS: Draft 
Environmental Impact Statement, at 6-2 to 6-6 (Feb. 2009).
    \33\ Dylan Brown, Revised mining plan won't require new review--
Army Corps, E&E News (Sept. 18, 2019), https://www.eenews.net/
greenwire/stories/1061134919.
---------------------------------------------------------------------------
             IV. Land Ownership and Reasonable Alternatives
    The Corps must ``[r]igorously explore and objectively evaluate all 
reasonable alternatives.'' \34\ Failing to meet this basic NEPA 
requirement, the Corps merely tweaked Pebble Limited Partnership's 
proposal. The two additional action alternatives the Corps included in 
the draft EIS are variations on access to the mine and transportation 
of mine products; they are not alternatives. The inadequacy of the 
range of alternatives is further undermined by the fact that the only 
feasible and practicable alternative is Pebble Limited Partnership's 
proposal, suggesting that the Corps is attempting to improperly select 
the company's preferred alternative.
---------------------------------------------------------------------------
    \34\ 40 C.F.R.  1502.14(a).
---------------------------------------------------------------------------
    Most of the alternatives that the Corps considered in its draft EIS 
include building components of the transportation corridor over Native 
allotments and lands where an Alaska Native Claims Settlement Act 
corporation owns the surface or subsurface.\35\ The Corps considered 
alternatives using these lands even if the landowners did not extend 
their permission to use the land, or in some cases expressly refused 
permission. For example, despite Pedro Bay Corporations' refusal to 
allow Pebble Limited Partnership to use its land, two of the three 
alternatives considered in the draft EIS would cross the corporation's 
lands.\36\ Pebble Limited Partnership's preferred alternative is the 
only alternative that does not cross Pedro Bay Corporation's lands. On 
two occasions the corporation's board of directors voted unanimously 
against providing access to its lands, first in 2014 and again in 
January 2019.\37\ Pedro Bay Corporation explained to the Corps that the 
proposed Pebble mine does not satisfy its ``responsible development 
standards'' and for ``Alaska Natives who depend on the natural 
environment for traditional and cultural hunting, fishing, and 
gathering, the Pebble Project represents an existential threat to their 
ways of life.'' \38\ An alternative is not reasonable or feasible when 
a landowner has not, and will not, consent to the use of its lands.
---------------------------------------------------------------------------
    \35\ See U.S. Army Corps of Engineers, Pebble Project EIS: Draft 
Environmental Impact Statement, at 3-2.1.
    \36\ Id.
    \37\ Ariel Wittenberg, Native corp.: Pebble mine can't use our 
land, E&E News (Feb. 28, 2019), https://www.eenews.net/stories/
1060122683.
    \38\ Letter from Matt McDaniel, CEO, Pedro Bay Corporation, to 
Shane McCoy, Program Manager, U.S. Army Corps of Engineers, Alaska 
District, at 1-2 (July 1, 2019).
---------------------------------------------------------------------------
    In developing and analyzing alternatives, the Corps disregarded the 
property interests of individual Alaska Native allottees and Alaska 
Native Claims Settlement Act corporations, leaving Pebble Limited 
Partnerships' proposal as the only feasible and practicable option 
considered in the draft EIS. Again, the Corps ignored the indigenous 
people of Bristol Bay in favor of furthering Pebble Limited 
Partnership's interests.
                             V. Conclusion
    I would like to thank Chariman DeFazio, Ranking Member Graves, 
Subcommittee Chairwoman Napolitano, and Subcommittee Ranking Member 
Westerman for inviting me to testify today. One thing is clear, the 
proposed Pebble mine will have significant and permanent adverse 
impacts on the extraordinary natural resources of Bristol Bay and our 
traditional ways of life that are so closely tied to those resources. 
With so much at stake, the people of Bristol Bay, and all Alaskans, 
deserve a fair, thorough, and transparent review of the proposed Pebble 
mine. In contrast, the Corps' opaque process is moving toward a permit 
decision at an unprecedented pace, ignoring substantial criticism and 
concern from Bristol Bay Tribes, other federal agencies, and the 
public. Under the Corps' current timeline, it is planning to issue a 
final EIS in early 2020 and make a permit decision in mid-2020.\39\ The 
Corps has made clear that it will not listen to our voices, so we ask 
this Committee to act now and help us protect Bristol Bay.
---------------------------------------------------------------------------
    \39\ U.S. Army Corps of Engineers, Pebble Project EIS, https://
pebbleprojecteis.com/schedule (last visited Oct. 16, 2019).

    Mrs. Napolitano. Thank you, Ms. Hurley.
    We now have Mr. Brian Kraft. You may proceed.
    Mr. Kraft. Chairwoman Napolitano, Chair DeFazio, Ranking 
Member Westerman, thank you for the opportunity to testify 
today. My name is Brian Kraft. My wife and I are long-time 
Alaskan residents where we are raising our family and four 
kids. We own and operate two remote sportfishing lodges in the 
Bristol Bay region. Between my wife's company and mine, we 
employ 180 people in the State of Alaska. We understand 
business in Alaska. We get it.
    I grew up in Chicago and was fortunate enough to move to 
Alaska and discover the uniqueness and special nature that 
Alaska has and Bristol Bay in particular. It is in this area 
where gin-clear rivers flow over the tundra into the sea. The 
nutrient-rich environment allows salmon runs to grow to 
millions and rainbow trout to grow to epic size.
    I first heard of the Pebble Mine proposal in 2004, and was 
all for it. I actually thought, great; jobs, economic 
opportunity. This is it what it is going to be about in this 
area. And I was an oil field roughneck, worked in the North 
Slope, worked for ARCO, understood resource development in the 
State of Alaska. It wasn't until I actually had a client at the 
lodge from Newmont Mines. His name was Gary Dowdle. And Gary 
was at the lodge, and I asked him about Pebble. This is about 
2005. And he said, hey, Brian, fly me up over that area. Show 
me where we are talking about.
    So I flew him up there, we landed, we got out, walked 
around, and this is before parts per billion or dam size or pit 
size, or cyanide, not cyanide. He just looked at it, and as a 
mining manager, he said, Brian, I have made my life living and 
working in mines. We try and get it right, but most of the time 
there are mistakes that happen. We don't always get it right. 
And whatever number we think it is going to be, it is usually 
bigger and more costly, more damaging. He looked at the site, 
and he said, too much water. And so I have always held that in 
the back of my mind that it is all about the water.
    When I was building my lodge in 1998, I had an elder come 
down to the river, the Kvichak River which drains Lake Iliamna. 
He grabs my arm, and you know, I am a kid from Chicago, as I 
said. Turn on the faucet, water comes out, and I drink it in my 
home. This elder grabs my arm, and he says, hey, Brian, take 
care of the water. I said OK, Mikey, yeah, no problem. I will 
take care of the water. He says no. Take care of the water. It 
is who I am. It is in my soul.
    And the gravity and the weight of that moment, I can feel 
his hand on my arm today. It carries just something that a lot 
of us in this room don't have any idea. Maybe Alannah does. But 
other than that, we just think it is just water, right? Well, 
that resource is of unbelievable importance, and I appreciate 
the committee taking time to look at this. It is a national 
issue.
    My industry, the sportfishing industry, touches every 
single State in the Union. We have got clients from all over 
the country that come and visit the area, and to a person, they 
express how unique and special the area is.
    I have been involved in this battle for 15 years. I started 
an organization called the Bristol Bay Alliance to educate 
people and myself on what mining is and does. And the 
conclusion that I have come to, not being a scientist, is that 
the best mining decisions are made when it takes location into 
account. And so you have this location, and you can't 
directionally drill. We can't shift the deposit, so we have to 
consume the habitat where the minerals are, and there is 100 
percent consumption of that habitat.
    So the decision comes, quite simply, down to, is it 
appropriate to be in this location? If everything is done 
right, according to the smaller, but yet it is still an 
enormous mine footprint, but the smaller mine plan, you are 
still going to consume 80 miles of streams. You are still going 
to consume 3,500 acres of wetland in an area that is part of 
the Bristol Bay fisheries reserve, where our first legislation 
action in the State of Alaska was to create a Bristol Bay 
fisheries reserve in 1972 to protect the area. Nobody could 
have conceived back then the amount of habitat destruction that 
a mine of this nature would have proposed.
    The sportfishing industry generates $65 million a year to 
the Alaska economy. It is part of a broader $1.5 billion a year 
that is produced in the economy through the sportfishing, 
commercial fishing, tourism, and other outdoor activities.
    I can see I am out of time. I just want to thank the 
committee for the opportunity to testify.
    [Mr. Kraft's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Brian Kraft, Owner, Alaska Sportsman's Lodge
    Chairwoman Napolitano and Ranking Member Westerman, thank you for 
the opportunity to testify today before the House Transportation and 
Infrastructure Committee for its hearing on the Pebble Mine Project: 
Process and Potential Impacts. My name is Brian Kraft, and my wife and 
I are long-time Alaska residents where we are raising our family. We 
currently own and operate two sportfishing lodges in the southwest part 
of the state known as the Bristol Bay region. Someday, in the not too 
distant future, I hope that one or several of our daughters will take 
over our lodge business as they have a passion for the fishery and have 
a strong connection to the region and its environment.
    Today I'd like to share with the Committee why the Bristol Bay 
region is unlike any other place in the world, specifically from the 
perspective of a person that grew up in the suburbs of Chicago and now 
spends half of each year in a remote, roadless, pristine, intact, 
functioning ecosystem. I will also share with you the significance this 
habitat and fishery plays in a thriving sportfishing industry that 
creates a strong economic engine for the state of Alaska. This could 
all be compromised with the massive industrialization of the area 
through large-scale open-pit mining.
    We are relying on effective and science-based implementation of the 
Clean Water Act to protect our livelihoods from this potentially 
destructive mine proposal. I am here to tell you that the Army Corps of 
Engineers (Corps) is failing at implementing the Clean Water Act as it 
reviews the Pebble Mine proposal. We commend you for making it a 
priority of your Committee to review the Corps' implementation of the 
Clean Water Act on what we believe is one of the most critical permit 
proposals in history.
    I also want to thank Committee leadership for supporting 
Representative Huffman's amendment to the FY 2020 Interior and 
Environment appropriations bill which would have cut funding to the 
Corps until it fixed its flawed review of the Pebble mine permit. I 
urge the Committee to continue working with the appropriators, 
including Senator Murkowski who recently added strong report language 
to the Senate version of the bill, to compel the Corps to fix its 
review using the best available science.
             Bristol Bay is a state and national treasure.
    People spend significant amounts of money, time and effort to 
travel from all over the world to experience and fish in this unique, 
pristine and incredibly productive corner of Alaska. There are very few 
places left in the world where you can see and fish for thriving runs 
of salmon and massive rainbow trout, and fly for miles without seeing a 
road, buildings or other signs of human development. There is a strong 
desire and willingness to pay for the experience of being outdoors in 
such a pristine setting. Clients who come to my lodge are blown away by 
the magnitude of this place, and the special, uniquely Alaskan 
experience that comes with it.
    Salmon have fueled everything that lives in this region for 
thousands of years. Here, salmon runs are measured in the millions. For 
the past two years, record breaking salmon runs have returned to the 
rivers and lakes of the Bristol Bay region. It's one of the only places 
left in the world where there are still thriving runs of wild salmon 
and where 30-inch rainbow trout are not mythical creatures. It's one of 
the few places in the world where you can watch a brown bear, yards 
away, devour salmon as if you were not there. It's one of the last 
places left on the planet where you can stand on a river, perhaps with 
your niece or grandfather, and be hundreds of miles from a highway. The 
bottom line is that Bristol Bay is special even by Alaska's already 
high standards.
    But perhaps fish, wildlife and scenic landscapes aren't your thing. 
Let me speak to the importance of Bristol Bay from a business 
perspective. Bristol Bay is an economic powerhouse, fueled by salmon. 
Wildlife viewing, hiking, hunting and sportfishing play an important 
part of the regional economy.
    There are approximately 150 sportfishing or hunting related 
businesses that operate in the Bristol Bay drainage with about 30,000 
sportfishing trips taken to the region each year. Some anglers stay at 
lodges like mine, some are local fishermen, and some are anglers who 
experience Bristol Bay through ``do it yourself'' trips. It is 
estimated that each year Bristol Bay anglers spend approximately $58 
million, with a vast majority of this spending (approximately $47 
million annually) coming from nonresident anglers.\1\ An additional 
$12.4 million in economic activity is attributable to people traveling 
to the area to hunt bear, moose, ducks and other wildlife. A growing 
part of the tourism economy in Bristol Bay is bear viewing. A study 
produced this spring found in 2017, bear viewing-related service 
providers (air/boat taxis, guides, lodging) reported $34.5 million in 
sales.\2\ McNeil River and Brooks Camp are two of the most important 
and well-known bear viewing areas in the world.\3\ Together, 
recreational fishing and hunting activities support more than 1,000 
jobs in the area, and bear viewing supports another 490 sustainable 
jobs in the region.\4\
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/bristolbay/bristol-bay-assessment-final-
report-2014
    \2\ University of Alaska Fairbanks, The Economic Contribution of 
Bear Viewing to Southcentral Alaska, (2019) https://
static1.squarespace.com/static/5c4025a7b40b9dc76548186e/t/
5cdb69154e17b630b2880c51/1557883183050/BearEconomicsStudy-Full.pdf
    \3\ The Value of Watchable Wildlife: A Case Study of McNeil River 
by C. Clayton and R. Mendelsohn 1993 https://www.sciencedirect.com/
science/article/pii/S0301479783710571?via%3Dihub
    \4\ https://www.fs.fed.us/rm/pubs/rmrs_p049/rmrs_p049_035_044.pdf
---------------------------------------------------------------------------
    All told, commercial, sport and subsistence fishing accounts for 
more than $1.5 billion to the regional economy and are an important 
part of Alaska's broader fishing-based economy.\5\
---------------------------------------------------------------------------
    \5\ https://iseralaska.org/static/legacy_publication_links/2013_04-
TheEconomicImportanceOfTheBristolBaySalmonIndustry.pdf
---------------------------------------------------------------------------
    The University of Alaska Center for Economic Development estimates 
consumers in Alaska spent $501 million on equipment for sport fishing 
in 2017.\6\ That is one of several reasons that companies such as 
Orvis, and other fishing gear manufacturers, care so much about keeping 
Bristol Bay the way it is.
---------------------------------------------------------------------------
    \6\ https://www.alaskatia.org/Research/
OutdoorRecreationImpactsandOpportunities%202019.pdf
---------------------------------------------------------------------------
    My clients, and anglers of all types who visit the region, 
consistently emphasize the importance of Bristol Bay's remote, and wild 
setting in their decision to fish the area. Additionally, a significant 
proportion of anglers, when responding to surveys, specifically 
traveled to the Bristol Bay region to fish the world-class rainbow 
trout fisheries. Yet, when assessing the potential impacts of the 
proposed Pebble mine, the Corps gave little consideration to the 
importance of rainbow trout and other non-salmon species and dismissed 
the impact industrial activities will have on the remote setting on 
which my business depends. This is not just hearsay; survey responses 
confirm that anglers consistently emphasize the importance of Bristol 
Bay's remote and wild setting in their decisions to fish the area.\7\
---------------------------------------------------------------------------
    \7\ https://www.fs.fed.us/rm/pubs/rmrs_p049/rmrs_p049_035_044.pdf
---------------------------------------------------------------------------
    The Bristol Bay's world-famous fisheries, its unparalleled water, 
and the local economies and cultures they support can continue to 
thrive if we simply have the common sense to leave this place as it is.
    For reference, on the Columbia River, once a wild salmon-filled 
river, about $500 million a year is spent on salmon mitigation, 
restoration and management. Yet, salmon populations continue their 
precipitous decline and, in many cases, are barely hanging along. By 
comparison, only about $5 million a year is spent on fisheries research 
and management in the Bristol Bay region, while many millions more than 
that return through related industries.\8\ If we properly protect 
existing habitat and carefully manage for sustainable yield, nature 
will continue to provide a renewable resource that continues to produce 
indefinitely. It just doesn't make economic sense to compromise this 
resource, which supports thousands of small, American family-run 
businesses like mine.
---------------------------------------------------------------------------
    \8\ Presentation by Dr. Daniel Schindler, University of Washington 
at American Fisheries Society Meeting, Anchorage 2018
---------------------------------------------------------------------------
    I first heard about Pebble 15 years ago. At first, I thought, 
``Great--jobs.'' I had worked on the North Slope as a roughneck on the 
oil rigs and then worked as an intern for Arco in the Drilling 
Engineering Department. I thought mining would be similar to oil 
extraction on the North Slope of Alaska. However, I really knew nothing 
about open-pit mining on the scale of Pebble. I went on an educational 
journey. I actually had the CEO of Northern Dynasty, the sole owner of 
the Pebble Project, at my lodge to present his case to the people of 
Igiugig. It was at this presentation in 2005 that we learned of their 
plans--and the core concepts of their plans remain basically the same 
to this day.
    Upon learning the proposed Pebble mine would consume massive 
amounts of the headwater lakes, streams and wetlands that support our 
wild fisheries, I knew the project would create long-term problems for 
our fisheries. I started the Bristol Bay Alliance to educate the people 
of the Bristol Bay region about large-scale open-pit mining and what it 
would mean for the region and recreational fishing.
    Open-pit mining consumes earth. That's how it works. There are no 
other ways to get the minerals out without removing the earth that 
holds the minerals. This is the crux of the issue and why certain 
locations are better suited for mining than others. The more we all 
learned about the industry, the more we understood that this was the 
wrong mine in the wrong place.
    The goal of the Clean Water Act is to restore and maintain the 
health of the Nation's waters. Surely the tremendous resources I have 
described above would warrant one of the most critical, science-based 
reviews for a permit in the history of the law. The Corps has done just 
the opposite.
    As we and many critical comments from federal and state resource 
agencies have called out, the Corps has rushed its Draft Environmental 
Impact Statement (DEIS) and missed many key points that are important 
to understanding why the proposed Pebble mine should not receive its 
necessary permits. Beyond the many technical, ecological, and 
scientific shortcomings of the DEIS, the Corps has also failed to 
adequately assess the logistical components of the project. The Corps 
has two alternative routes for the road corridor, both of which must 
cross privately held Alaska Native Village Corporation lands. These 
landowners refuse to grant permission to use their lands for the 
project and, thus, the Corps cannot consider these options as viable. 
This is one small example of the many missteps the Corps has made with 
regards to evaluating the permit application.
    The pending permit application also calls for only mining just \1/
8\th of the deposit, while putting potentially acid generating toxic 
tailings back into the open pit after extracting the minerals. Of 
course, since the Pebble Partnership is simultaneously selling the huge 
size of the deposit (nearly 11 billion tonnes \9\) and its potential 
for expansion to potential investors, we know the project will expand 
and that tailings will need to be stored somewhere else while the 
remaining portions of the deposit are mined. Because the toxic mine 
waste will require perpetual care, we know we will still be dealing 
with the tailings and acid-generating waste long after the Pebble 
Partnership, or any successive owner of the mine, closes its doors.
---------------------------------------------------------------------------
    \9\ Ghaffari, H., R. S. Morrison, M. A., deRuijeter, A. Zivkovic, 
T. Hantelmann, D. Ramsey, and S. Cowie. 2011. Preliminary Assessment of 
the Pebble Project, Southwest Alaska. Document 1056140100-REP-R0001-00. 
February 15. Prepared for NDML by WARDROP (a Tetra Tech Company), 
Vancouver, BC.
---------------------------------------------------------------------------
    Furthermore, neither the DEIS nor any of its accompanying materials 
include a mine construction plan, mine operations plan, or water 
management plan. While the Corps acknowledges that these details will 
not be available until successive state-permitting phases, it plans to 
issue a final decision before any of the missing information will be 
available and without a full accounting and evaluation of likely 
impacts associated with hazardous contaminants, fish migration, 
proposed culverts, changes to water quality and quantity, critical 
habitat loss, and other indirect ecological effects. The DEIS fails to 
consider foreseeable impacts to the habitat.
    I am not a scientist, but I can tell you that the entire Bristol 
Bay system is connected and that water flows downhill. The water is the 
lifeblood of this region. These flowing, moving waters allow life to 
exist in this region. These salmon runs feed the world. The entire 
system relies on each part remaining intact. The proposed mine site is 
critical to salmon and other freshwater species and will be destroyed 
if this project is built. It can be hard for many of us to understand 
the importance of the water and habitat to remain in its natural state, 
functioning perfectly without human interference or destruction. We 
turn on the water facet and clean water comes out. We can drink it, 
wash with it, and never even give it a second thought. However, as an 
elder Alaskan told me as I was building my lodge on the banks of the 
Kvichak River: ``Take care of the water. It is who I am, it is in my 
soul, it is my survival.''
    I am here to urge you to look at this issue closely, it is of 
national importance. The review being conducted by the Army Corps of 
Engineers is unacceptable. It is a mockery not worthy of the lofty 
goals of the Act that this Committee oversees and stewards. The stakes 
are too high to cut corners and a foreign mining company has had far 
too much influence on a system that is supposed to protect the best 
interests of Americans. We should be doing everything we can to protect 
American jobs and existing thriving businesses, not squander them.
    Thank you for your time and willingness to give attention to this 
issue that is extremely important to my family, hundreds of other 
businesses that depend on Bristol Bay, and sportsmen and women in 
Alaska and around the world that love this special corner of America. 
We continue to urge you to do all in your power to use the legislative 
tools available to you and the Congress to make sure the Bristol Bay 
watershed is protected.

    Mrs. Napolitano. Thank you very much, sir.
    We now have Mr. Mark Niver, a fisherman. You are on, sir, 
please.
    Mr. Niver. Good morning. We have a video to show up on the 
screens here this morning. Is that possible or not? There we 
go. All right. This is my family. It is my sons on deck of the 
fishing vessel Surrender. And roll? No action? OK.
    [Video shown.]
    Thank you, Congressman DeFazio and Chairwoman Napolitano, 
for giving me the opportunity to be here this morning to 
testify on behalf of Bristol Bay's 8,000 commercial fishermen, 
including my three sons. One of them is behind me here. He came 
here on his own dime here today. My other sons are Blake and 
Bryce, and Grant is behind me. My name is Mark Niver. I live in 
Wasilla, Alaska.
    I have fished in Bristol Bay since 1980, and I am here 
because I am deeply concerned about the proposed Pebble Mine 
and the discreditable permitting process currently underway. I 
have lived in Alaska since 1977, and I am newly retired from 
the Prudhoe Bay oil field where I worked as a plant operator 
for BP for 42 years. I supplemented my oil job by commercial 
fishing in Bristol Bay with my father and three brothers.
    After fishing with them for a few seasons, I decided this 
fishery was what I wanted to invest in and bought my own 
fishing boat and permit. Commercial fishing in Bristol Bay is 
not easy, and it requires a substantial amount of financial 
investment. Today, a driftnet permit costs around $185,000. A 
fishing boat costs around $250,000. While this initial 
investment is daunting, it is one worth making thanks to 
Bristol Bay's strong runs and high market price. This fishing 
season, my boat alone made $650,000. That is a lot of money.
    For me and many others, fishing in Bristol Bay is a family 
endeavor with multiple generations fishing together. I raised 
my three boys on my fishing boat, and they have chosen to 
continue fishing in Bristol Bay as adults. In addition, they 
run their own seafood company, marketing the salmon that we 
catch back in the Midwest area. Bristol Bay salmon fishery 
allows them to make a good living and is a job that they are 
proud of. As their father, I am proud to know that they will 
continue fishing after my time is over and perhaps their future 
children and their grandchildren will do the same.
    There are thousands of similar stories in Bristol Bay. 
Bristol Bay's commercial fishermen are just one link of the 
chain, though. Bristol Bay's salmon fishery employs more than 
14,000, as Mr. DeFazio talked about earlier, people every 
summer, and creates more than $1.5 billion in the worldwide 
economic activity. We sell our catch to seafood processors, who 
then process and distribute Bristol Bay salmon to buyers and 
markets around the world. With the quality and value of Bristol 
Bay salmon increasing, its global value will only increase in 
time.
    Relative to other salmon fisheries in Bristol Bay, Bristol 
Bay is unmatched in its sustainability and productivity. In 
2018, we harvested over 43 million salmon. Bristol Bay produces 
half of the world's sockeye salmon. Bristol Bay's commercial 
salmon fishery continues to thrive thanks to its pristine, 
undeveloped freshwater habitat and Alaska's science-based 
fishery management.
    Despite all this, Bristol Bay is one of the most endangered 
fisheries. For over a decade, the proposed Pebble Mine has cast 
a shadow of uncertainty over my livelihood and my family's 
future. Nowhere in the world has a mine of this type and size 
been located in a place as ecologically sensitive and pristine 
as Bristol Bay. As the late Senator Ted Stevens once said, 
wrong mine, wrong place.
    Bristol Bay's fishermen have taken precious time away from 
fishing to submit comments to the Army Corps during both the 
scoping and draft EIS comment periods. However, the Army Corps 
has yet to address our concerns and questions. I have no 
confidence in this permitting process, and that the Army Corps 
will factor in our concerns.
    We have one shot at doing this permitting process right. It 
should be testing Pebble's assumptions and promises, not taking 
Pebble at its word.
    I have been fighting to save my sons' and my livelihood 
from the Pebble Mine for over a decade and will continue to do 
so, along with Alannah next door to me here, until Bristol Bay 
is protected. I am increasingly concerned that my efforts and 
those of my fellow fishermen won't be enough. The permitting 
process is a runaway train paving the way to the Army Corps to 
rubber stamp the Pebble Mine. That is why I traveled here, 
along with my son, to ask for your help and leadership.
    I understand there are very important things before 
Congress at this moment. However, our Federal agencies have 
chosen to ignore Bristol Bay's fishermen and science that shows 
salmon and the Pebble Mine cannot coexist. I urge you to do 
anything and everything to stop this flawed process. We are 
running out of time. There is too much at stake to punt this 
issue. The facts are clear, and it is time for this project to 
put its fishermen and businesses in jeopardy to be stopped. 
Alaska, the State of Alaska, is its people. The people of 
Alaska do not want this mine. Thank you for giving me the 
opportunity to speak.
    [Mr. Niver's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Mark Niver, Bristol Bay Driftnet Permit Holder,
                              FV Surrender
    I am submitting the following testimony regarding the proposed 
Pebble Mine project in Bristol Bay, Alaska's headwaters. This project 
is irresponsible and jeopardizes a thriving renewable industry, 
including my livelihood and that of my three sons. I am deeply 
concerned with how the Trump Administration is handling the Pebble 
project's permitting process. The process has been rushed since day one 
and ignores well-documented science showing that the Pebble Mine would 
cause irreversible harm to Bristol Bay's salmon fishery. I ask that you 
and your colleagues do everything in your power to stop this corrupt 
permitting process from moving forward and that you not allow this 
administration to destroy the world's largest wild salmon fishery and 
with it 14,000 American jobs.
    My Bristol Bay fishing career started in my teens when I worked for 
Kachemak Seafoods in Togiak. I soon after moved to Alaska during 
college to take a job in the Prudhoe Bay Oil Field where I just 
recently retired as a Plant Operator. I supplemented my oil job on the 
``North Slope'' by commercial fishing in Bristol Bay with my father and 
three brothers. After fishing with them for a few seasons I decided 
that this was a fishery I wanted to invest in and I bought my own 
fishing boat and permit.
    Commercial fishing in Bristol Bay is not easy and it requires a 
substantial amount of investment and long-term commitment. Today, a 
driftnet permit costs on the average of $185,000 with a fishing boat 
costing on average $250,000. While this initial investment can be 
daunting for new fishermen, it's one worth making thanks to Bristol 
Bay's strong runs and high market price. This fishing season, my one 
boat harvested $650,000 worth of salmon.
    For me and many others, fishing in Bristol Bay is a family endeavor 
and that's part of what makes it so special. It's also generational and 
you often have multiple generations fishing together. I raised my three 
boys on my fishing boat; they started to come out with me when they 
were ten years old. Commercial fishing taught them how to work hard and 
solve problems on their own. Today, they continue to fish and have also 
started their own seafood company, Surrender Salmon, selling more than 
100,000 pounds of Bristol Bay salmon fillets to markets in the Midwest. 
It's a good living that they are proud of. As their father, I'm proud 
to know that they will continue fishing after my time is over, and 
perhaps their future children and grandchildren will do the same.
    Bristol Bay is the largest and most valuable wild salmon fishery 
left in the world. In 2018, Bristol Bay saw a record-breaking return of 
62 million sockeye salmon, 43 million of which were sustainably 
harvested by the commercial fishery.\1\ In an average year, Bristol 
Bay's salmon fishery contributes roughly 50% of the world's sockeye 
salmon and generates $650 million in income and $1.5 billion in 
economic activity \2\. The commercial fishery in Bristol Bay has 
existed for over 130 years and today provides more than 14,000 jobs, 
including 8,000 fishing jobs.\3\
---------------------------------------------------------------------------
    \1\ Alaska Department of Fish & Game: www.adfg.alaska.gov
    \2\ Knapp et al. University of Anchorage: Institute of Social and 
Economic Research. April 2013. The Economic Importance of the Bristol 
Bay Salmon Industry.
    \3\ Wink Research and Consulting. 2018. Economic Benefits of the 
Bristol Bay Salmon Industry.
---------------------------------------------------------------------------
    At a local level, Bristol Bay's salmon fishery is an economic 
engine for the region. It employs 1,567 regional resident workers, 
provides 4,217 total average regional jobs, and generates $220 million 
in total regional labor income.\4\ These jobs and income are 
significant since they are renewable and will be available to local 
residents so long as Bristol Bay's salmon populations remain productive 
and are able to support a commercial fishery.
---------------------------------------------------------------------------
    \4\ Wink, Economic Benefits
---------------------------------------------------------------------------
    The economic impacts of Bristol Bay's salmon fishery extend well 
beyond the Bristol Bay region, making it an invaluable part of our 
nation's renewable economy. It sustains service and support industries 
such as boat builders, engine mechanics, and fishing gear manufacturers 
as well as other industries in the seafood supply chain, including 
distribution, retail, and food service. Bristol Bay is especially 
important for the Pacific Northwest given the hundreds of permit 
holders, seafood processors, and seafood distributors that are based in 
Washington and Oregon. The Puget Sound region in particular has deep 
ties to the Bristol Bay fishing industry given that the majority of 
Bristol Bay's major seafood processors are based in the Seattle area 
and a substantial percentage of Bristol Bay's salmon products are 
shipped to Seattle for reprocessing and distribution to other markets 
around the country and world \5\.
---------------------------------------------------------------------------
    \5\ Knapp et al., The Economic Importance
---------------------------------------------------------------------------
    As other salmon fisheries in Alaska face cyclical declines, Bristol 
Bay's salmon fishery is more important than ever. In 2018 thanks to its 
record-high returns, Bristol Bay contributed 38% of Alaska's entire 
2018 salmon harvest and 48% of its total estimated ex-vessel value \6\. 
Its abundance allows it to provide financial stability for seafood 
processors, fishermen, and other businesses and is a pillar for the 
entire Alaska seafood industry.
---------------------------------------------------------------------------
    \6\ Alaska Department of Fish & Game: www.adfg.alaska.gov
---------------------------------------------------------------------------
    For over a decade the Pebble Mine has been casting a shadow of 
uncertainty over my livelihood and Bristol Bay's entire fishing 
industry. I first learned about the proposed Pebble Mine in 2006 and 
the more I learned about the project the more concerned I got. Nowhere 
in Alaska or the world have we ever had a mine of this type and size 
located in a place as ecologically sensitive and pristine as Bristol 
Bay. As the late U.S. Senator Ted Stevens once said, ``it is the wrong 
mine for the wrong place.''
    It's extremely troubling that the Trump Administration would push 
this project forward despite its well-documented risks and despite the 
14,000 jobs at stake. Bristol Bay's salmon fishery is a renewable 
economic engine, and one that cannot be replaced. What is especially 
troubling about the current permitting process is the U.S. Army Corps 
of Engineers' Draft Environmental Impact Statement (DEIS). The Army 
Corps' DEIS is fatally flawed and fails to accurately portray the 
ecological impacts that the proposed Pebble project would have on the 
Bristol Bay watershed and its wild salmon populations. Ultimately, this 
is because the DEIS is based on a false project scope and duration even 
though the Army Corps itself says in the DEIS that expansion of the 
project is ``reasonably foreseeable.'' In addition, the DEIS downplays 
many of the direct and indirect impacts outlined in the EPA's 2014 
peer-reviewed Bristol Bay Watershed Assessment, which concluded that 
``large-scale mining in the Bristol Bay watershed poses significant 
near- and long-term risk to salmon, wildlife and Native Alaska 
cultures,'' according to former EPA Regional Administrator Dennis 
McLerran. The discrepancies in the DEIS and the EPA Bristol Bay 
Watershed Assessment are concerning and raises questions about the 
scientific integrity of the DEIS.
    Of particular concern to myself and Bristol Bay's commercial 
fishermen are the following information gaps and inaccuracies in the 
DEIS regarding potential impacts to Bristol Bay's fish and fish 
habitat:

    <bullet>  The DEIS grossly underestimates Pebble's potential 
impacts and bases its analysis on a false project scope and duration, 
leading to inaccurate conclusions in the DEIS about future changes in 
the number of returning salmon available for harvest. The Army Corps' 
estimations are not supported by the best available science and 
analysis, specifically when it comes to the impacts of changes in water 
temperature and traces of copper on aquatic life.
    <bullet>  The risk of a potential tailings dam failure, which would 
be catastrophic for the Nushagak River--one of Bristol Bay's most 
productive salmon river systems. The Army Corps has yet to conduct a 
thorough, long-term assessment of a potential tailings dam failure and 
its impacts, which is inexcusable given other recent tailings dam 
failures and the threats that such a failure could have to the 
communities and industries that are downstream. Because of these risks, 
Bristol Bay's drift net permit holders took it upon themselves to hire 
independent earth scientist, Dr. Cameron Wobus, to model potential 
tailings dam failure scenarios and their potential impacts. His 
analysis found that it is likely that Pebble's tailings material would 
reach Bristol Bay \7\ and reinforces that a tailings dams failure at 
the Pebble project would have far reaching and long-lasting impacts on 
the Nushagak River drainage and deserves further analysis by the Army 
Corps and Pebble Limited Partnership.
---------------------------------------------------------------------------
    \7\ Lynker Technologies, LLC. 2019. A Model Analysis of Flow and 
Deposition from a Tailings Dam Failure at the Proposed Pebble Mine.
---------------------------------------------------------------------------
    <bullet>  The DEIS does not include a post-operation reclamation 
plan or wastewater treatment plan. We understand that this is due to 
the fact that the Pebble Limited Partnership has not submitted this 
information to the Army Corps or the State of Alaska, which we find 
unacceptable and questionable given that this is standard practice in 
the industry. Because this project will require treatment and 
monitoring in perpetuity, this information must be made available in 
the DEIS for the public to review and comment on.

    The inadequacies in the Army Corps' assessment of potential impacts 
to fish and habitat impedes the Army Corps from accurately assessing 
the magnitude of Pebble's socio-economic impacts, including changes to 
the value and marketability of Bristol Bay's salmon and the subsequent 
impacts these changes would have on the well-being of Bristol Bay's 
commercial fishermen, businesses, and support industries. The Army 
Corps erroneously assumes that the total value of the fishery is based 
solely on the volume of fish harvested and value per pound of salmon. 
This assumption is wrong and does not factor in the influence that 
marketing, public perception, and quality can have on fish value. In 
addition, the Army Corps also makes a sweeping assumption in its DEIS 
that a change in market reception of Bristol Bay's salmon is not likely 
to occur (DEIS 4.6-2). This assumption is ill-founded and is in direct 
contrast to the Pacific Seafood Processors Assocation's conclusion 
that, ``we know from past experience, that actual or perceived damage 
to the purity of the waters or fish of the Bristol Bay region would 
harm the marketability of Alaska salmon,'' \8\. Thus, even if there is 
not a catastrophic environmental disaster at the proposed Pebble Mine 
site, just the public's perception of an open-pit mine in Bristol Bay's 
headwaters will damage the Bristol Bay and greater Alaska seafood 
brands. The DEIS completely dismisses these risks and its subsequent 
impacts on the thousands of businesses that purchase and sell Bristol 
Bay salmon, including seafood distributors, retailers, and restaurants.
---------------------------------------------------------------------------
    \8\ Pacific Seafood Processors Association. June 2017. Position on 
the Pebble Mine Project.
---------------------------------------------------------------------------
    The DEIS does not account for the hundreds of millions of dollars 
in investments made by Bristol Bay's permit holders and seafood 
processors, nor does it evaluate the potential impacts that the Pebble 
project could have on the value of these investments and assets. As 
stated previously, many fishermen invest hundreds of thousands of 
dollars to participate in the Bristol Bay commercial fishery, requiring 
loans that depend on a consistent supply of salmon and strong market 
prices. Any loss in fishing income would create financial hardship for 
these fishermen.
    Over the last year and a half, Bristol Bay's fishermen have taken 
precious time away from fishing to write and submit comment letters to 
the Army Corps during both the Scoping and Draft EIS comment periods. 
We have yet to see the Army Corps address our concerns and questions, 
including our request for a more rigorous tailings-dam failure 
assessment. Instead it appears that this Administration has already 
decided the outcome and is simply going through the motions. That's not 
how a permitting process should work, especially in Bristol Bay where 
the world's largest wild salmon fishery is at stake. The integrity of 
this permitting process has been compromised and I have no confidence 
that the concerns and interests of Bristol Bay's fishermen will be 
factored into the Army Corps' final permitting decision.
    As someone who spent their career working in the oil industry, I am 
not anti-development. Far from it. I fully support development of our 
natural resources, but only when it's done responsibly and based on the 
best available science. We have one shot to do this permitting process 
right in Bristol Bay--there is no where else with a salmon fishery this 
valuable and productive. To allow the Pebble Limited Partnership to 
drive this permitting process in spite of science and the will of 
Alaskans goes against our country's own best interests, violates the 
National Environmental Policy Act, and jeopardizes more than 14,000 
renewable jobs. This permitting process should be testing Pebble's 
assumptions and promises, not taking the Pebble Partnership at its 
word. We deserve a rigorous permitting process that's transparent, 
rigorous, and based on the best available science and information.
    I have been fighting to save my livelihood--and my sons' 
livelihoods--from the Pebble Mine for over a decade and will continue 
to do so until Bristol Bay is protected. I'm increasingly concerned 
under this current Administration that this permitting process is a 
runaway train with nothing stopping the Army Corps from rubber stamping 
the Pebble Partnership's permit application in just a matter of months. 
That is why I am here, to ask for your help and leadership. Please do 
everything you can to stop this flawed process from moving forward any 
further. Allowing the Trump Administration to permit this project would 
be an economic disaster for our country and Bristol Bay's thousands of 
commercial fishermen.
    Thank you for your attention and consideration.

    Mrs. Napolitano. Thank you, sir.
    We now have Anisa Costa. You may proceed.
    Ms. Costa. Thank you. Chairman DeFazio, Chairwoman 
Napolitano, Ranking Members Graves and Westerman, members of 
the committee, my name is Anisa Costa, and I serve as chief 
sustainability officer at Tiffany & Co. I would like to thank 
you all for holding this important hearing. It is an honor for 
me to testify here today to express Tiffany & Co.'s 
longstanding opposition to the proposed Pebble Mine, and to ask 
for rigorous environmental review of the mine proposal.
    Since Tiffany & Co. was founded, we have looked to the 
beauty of the natural world for design inspiration. We also 
rely on materials that come from the earth, whether it is 
diamonds or precious metals to bring life to our designers' 
creations. In other words, nature's abundance is integral to 
the success of our company. As such, we have a business 
imperative to operate our company and source our materials in a 
responsible manner that protects the planet and supports 
communities.
    Tiffany was founded in 1837 in New York City and has since 
grown into a global luxury house at the forefront of jewelry 
design and expert craftsmanship. The company has retail and 
manufacturing operations in 29 States and the District of 
Columbia, and we employ nearly 6,000 people across the country. 
We manufacture the majority of our jewelry here in the United 
States and source the majority of our precious metals from 
recycled sources and mines in the U.S. as well.
    Whether here or elsewhere in the world, we take great pride 
in upholding exemplary standards for environmental and social 
responsibility at every step in our supply chain. With more 
than 180 years of experience in sourcing precious metals and 
gemstones, we have learned that there are certain special 
places where mining simply must not occur. We take too much 
risk in altering timeless treasured landscapes that generations 
of communities have thrived in for short-term financial gain.
    Relatedly, we have also long championed the need to reform 
the Mining Law of 1872, and I would like to thank the House 
Natural Resources Committee, which is advancing an important 
mining law reform bill this morning, written by Chairman Raul 
Grijalva.
    In Bristol Bay, we believe mining would ultimately destroy 
the lands in the watershed, causing irreparable harm to the 
communities who depend on this majestic place. It is our view 
that sourcing for mines that destroy our economies and 
ecosystems is not good for our bottom line, or for our 
country's. For these reasons, we have publicly opposed the 
proposed Pebble Mine for more than a decade.
    In 2008, we were one of the first jewelers to sign on to 
the Bristol Bay Protection Pledge and declare that we would 
never source gold from the proposed Pebble Mine. Since signing 
that pledge, Tiffany & Co. has raised awareness about the risk 
of mining in such a pristine place, first within the jewelry 
industry, and then among the broader public. We stand by the 
Bristol Bay Protection Pledge today alongside 100 of our 
colleagues in the jewelry industry as well as other sectors who 
have since signed the pledge.
    We know, from experience, that when our customers, when 
consumers view mining as irresponsible and harmful, it hurts 
all industries who use mined materials from technology to 
renewable energy enterprises, to automotive companies, and the 
construction sector, and of course, the jewelry industry. 
Today's corporate stakeholders, including our valued customers, 
expect business to be done without risking the country's 
natural resources.
    Sadly, the Army Corps' EIS fails to even consider the 
findings of the EPA 2014 watershed assessment to push for 
answers for the Bristol Bay region. So we are respectfully 
urging the committee to push for answers to the critical 
questions raised by the EPA while there is still time.
    Many of our concerns have been highlighted by the other 
witnesses this morning, and are included in my written 
testimony, so I will not repeat them here. But simply put, we 
urge the committee to consider the many omissions in the Army 
Corps' permit process, and ensure that they are fully 
addressed. The communities of Bristol Bay and the diverse 
coalition that opposes the mine deserve nothing less.
    We at Tiffany & Co. look forward to continuing to source 
materials and manufacture our products here in the United 
States. However, we can promise that we will never use gold 
from the proposed Pebble Mine should it be developed. The long-
term threats to the Bristol Bay region are simply too great. 
They outweigh the short-term value of any precious metals which 
might be extracted from there.
    For this generation and all those to follow, this majestic 
landscape simply must be protected. We know that there will be 
other copper and gold mines to develop, but there will never be 
another place as special and productive as Bristol Bay. Thank 
you for your time.
    [Ms. Costa's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Anisa Kamadoli Costa, Chief Sustainability 
                         Officer, Tiffany & Co.
    Chairman DeFazio and Chairwoman Napolitano, Ranking Members Graves 
and Westerman, and Members of the Committee, my name is Anisa Kamadoli 
Costa and I am the Chief Sustainability Officer at Tiffany & Co.
    I would like to thank you all for holding this important hearing 
related to the Bristol Bay Region of Alaska and the proposed Pebble 
Mine. It is an honor for me to testify here today to express Tiffany & 
Co.'s longstanding opposition to the proposed Pebble Mine and to ask 
for rigorous environmental review of the mine's proposal.
    Since our inception, Tiffany & Co. has looked to the beauty of the 
natural world for design inspiration. We also rely on the bounty of 
this world for the precious materials that bring our designers' 
creations to life. In other words, nature's abundance is integral to 
the success of our company, given the precious materials that are mined 
to be utilized in our products. As such, we believe we have a business 
imperative to operate our company and source our materials in a 
responsible manner that protects the planet and supports communities.
    Tiffany was founded in 1837 in New York City and has since grown 
into a global luxury house at the forefront of jewelry design and 
expert craftsmanship. The company has retail and manufacturing 
operations in 29 states and D.C., and we employ approximately 5,900 
people across the United States. We manufacture the majority of our 
jewelry domestically and source the majority of our precious metals 
from mines and recycled sources in the U.S. Whether here or elsewhere 
in the world, we take great pride in upholding exemplary standards for 
environmental and social responsibility at every step in our supply 
chain.
    After more than 180 years of experience in sourcing precious metals 
and gemstones, we have learned there are certain places where mining 
simply must not occur. We risk too much in altering timeless, treasured 
landscapes in pursuit of short-term financial gain. In Bristol Bay, we 
believe mining would ultimately destroy the lands and the watershed, 
causing irreparable harm to the communities who depend on this majestic 
place. It is our view that sourcing from mines that destroy economies 
and ecosystems are not good for our bottom line or our country. For 
these reasons, we have publicly opposed the proposed Pebble Mine for 
more than a decade.
    In 2008, we were one of the first jewelers to sign the Bristol Bay 
Protection Pledge and declare that should the proposed Pebble Mine be 
developed, we would not source gold from it. Since signing the pledge, 
Tiffany & Co. has proactively raised awareness about the danger of 
mining in such a pristine place, first within the jewelry industry and 
then among the broader public. We have voiced our positions in National 
Jeweler, National Geographic, The Washington Post, San Francisco 
Chronicle and The Seattle Times.
    We continue to stand by the Bristol Bay Protection Pledge today, 
alongside 100 of our colleagues in the jewelry industry and other 
sectors who have since signed onto the pledge. Indeed, Tiffany & Co. is 
far from alone in in our opposition to Pebble Mine. A diverse 
coalition--including recreational and commercial fishing companies, 
restaurateurs, conservationists and Alaska Natives--has raised a 
unified voice in opposition to the proposed mine. The list of those who 
believe this proposed mine should not be built has continued to grow in 
recent years and now includes mining companies who previously planned 
to develop the deposit. All of us concluded long ago, that this mine 
represents a risk of the highest order. We all agree Pebble is the 
wrong mine in the wrong place and should not be permitted.
    We know from experience that when consumers view mining as 
irresponsible and harmful, it does not blemish the jewelry industry 
alone. All industries reliant on mined materials are impacted 
negatively, from technology and renewable energy, to automotive 
companies and the construction sector. Today's corporate stakeholders, 
including our valued customers, expect business to be done without 
destroying the country's natural treasures, including Bristol Bay.
    In light of the potentially harmful environmental, social and 
economic consequences which could result from the construction of 
Pebble Mine, we commend the Committee for holding this important 
hearing to examine the process and potential impacts of the mine 
proposal. It is especially critical at this moment in time, as the U.S. 
Army Corps of Engineers (Army Corps) is continuing to move forward with 
permitting the mine without considering the extensive scientific data 
that have clearly projected devastating consequences resulting from the 
mine's development.
    In particular, the Army Corps' Draft Environmental Impact Statement 
(DEIS) fails to consider the findings of the Environmental Protection 
Agency's (EPA) 2014 Watershed Assessment of the Bristol Bay region. 
Given the Committee's jurisdiction over both the Army Corps and the EPA 
on matters related to clean water, wetlands, watershed health, and 
clean-up and remediation of environmental catastrophes, we respectfully 
urge you to push for answers to the questions posed by the EPA on these 
topics. By driving the discussion, this Committee can help ensure that 
the highly predictable and catastrophic impacts of mining in the 
Bristol Bay ecosystem are avoided.
    As a company, we provided comments on the Army Corps' DEIS earlier 
this year, highlighting various gaps in the assessment. We believe 
these gaps must be addressed and that the Army Corps must disclose the 
direct, indirect and cumulative effects of the proposed Pebble Mine, 
given it would be built in one of the most significant, precious and 
pristine ecosystems in the world.
    Our recent comments focused on five major deficiencies: (i) the 
limited scope of the DEIS, (ii) long-term water management, (iii) water 
quality, (iv) biodiversity matters and (v) post-mining reclamation.

    (i)  In terms of scope, the current application is to mine 1.4 
billion tons of mineralized ore. However, the Pebble deposit is 
reported as at least a 10-billion-ton mineral resource. It is 
reasonable to predict that mine proponents would seek to exploit the 
entire mineral resource. Therefore, any review of the proposed mine 
should assess the impacts of mining the entire resource.
         Additionally, the Army Corps only evaluates the potential for 
risks and failures over a 20-year timeline. However, this estimated 
timeframe is likely far shorter than the life of the mine would be. A 
100-year timeline, or even longer, would be more appropriate for proper 
evaluation. The long-term pollution issues associated with abandoned 
mines throughout the United States underlines the importance of looking 
beyond a 20-year horizon.
    (ii)  Regarding water management, the proposed Pebble Mine is 
located within the reaches of three separate stream systems and would 
have potentially devastating consequences for both water quantity and 
quality in each drainage. The Army Corps should require a water 
management plan that evaluates the potential impacts on water in these 
drainages and outlines proposed mitigation. The current application is 
inadequate in this regard, as a detailed water management plan has not 
been submitted. It is impossible to evaluate the direct, indirect and 
cumulative impacts to these watersheds until such a plan has been 
completed.
          Further, in order to characterize the impacts of mining on 
the Bristol Bay region, the Army Corps should explicitly consider the 
management of groundwater and surface water as a coupled system using 
an integrated hydrologic model. Hydrologists know that pumping 
substantial volumes of groundwater will adversely affect surface water 
and permanently degrade or destroy the effected streams. The Army Corps 
should evaluate groundwater and surface water flow modeling 
predictions.
    (iii)  From a water quality perspective, we expect there will be 
both short- and long-term degradation from the mine site water 
impoundments and open pit mining activities. The use of petroleum 
products, large quantities of chemicals for milling processes and 
erosion from heavy equipment operations degrade water quality. There is 
high potential for pollution from waste rock, tailings and pit wall 
leaching. A large open pit and dewatering will have negative impacts on 
nearby streams and lakes. A mine waste management plan should be 
included in the water management plan to account for groundwater 
pollution from the proposed mine.
    (iv)  Though the Army Corps is currently considering a permit for a 
mine at a smaller scale than originally proposed, a smaller mine would 
still eliminate, block or dewater over 80 miles of streams and nearly 
3,500 acres of wetlands. The loss of such habitat would significantly 
impact biodiversity, as these streams are critical for the spawning and 
rearing of salmon. Even with a smaller footprint--which, it is 
reasonably foreseeable would expand significantly--this proposed loss 
is considerably above the advised miles and acreage outlined in the 
EPA's 2014 watershed assessment. We continue to urge the Army Corps to 
reconcile the differences between its analysis and the EPA's 2014 
analysis.
          Further, it is critical to consider the potential for a 
tailings dam failure as none of the dams and tailing storage facilities 
would ever be removed. Such a failure would bury many miles of streams 
and salmon habitats with fine sediment, destroying the possibility of 
spawning and rearing. The impact this would have not only on the 
ecosystem's biodiversity, but on the Alaskan communities and economies 
who depend on a productive salmon fishery, is unacceptable.
    (v)  Finally, in relation to closure, the Army Corps does not 
analyze possible future impacts of a catastrophic failure of the 
tailings dam on the surrounding environment and fish and wildlife, nor 
does it provide a sophisticated geochemical analysis of a tailings 
dump. The Army Corps needs to evaluate all possible outcomes and should 
widen its scope of risk impacts to include catastrophic dam failure. It 
must also recognize a tailings dump is a permanent waste pile and will 
not be removed when the mine closes. The long-term impact of a tailings 
dump on water quality in the region should be carefully evaluated.

    We urge the Committee to consider the many omissions in the Army 
Corps' DEIS and demand they be fully addressed. The communities of 
Bristol Bay and the diverse coalition that opposes the mine deserve 
nothing less.
    We at Tiffany & Co. look forward to continuing to source materials 
and manufacture products in the United States. However, we can promise 
we will never use gold from the Pebble Mine should it be developed. The 
long-term threats to the Bristol Bay region far outweigh the short-term 
value of any precious metals which might be extracted there.
    For this generation and all those to follow, this majestic 
landscape simply must be protected. We know there are other copper and 
gold mines to develop, but there will never be another place so 
abundant and productive as Bristol Bay.
    Thank you for your time. I will be happy to answer questions at the 
appropriate time.

    Mrs. Napolitano. Thank you very much, Ms. Costa.
    Thank you to all the witnesses. We will now have questions 
for the witnesses, and again, we will use the timer to allow 5 
minutes of questions for each Member. If there are additional 
questions, we might have a second round as necessary, and I 
will now begin.
    Ms. Hurley, as a member of a sovereign nation, do you think 
that Tribal consultation on the project is adequate?
    Ms. Hurley. No.
    Mrs. Napolitano. Why is it important that Tribal 
perspective be included in the EIS?
    Ms. Hurley. It is very important for the Tribal perspective 
to be included in the EIS because we have lived in Bristol Bay 
for thousands of years. We know more about these lands and 
waters and what the potential impacts could be to our people 
from a project like this more than anyone else. The Tribal 
perspective should be included in the draft EIS, and to date, 
it has not been included in a meaningful way.
    Mrs. Napolitano. Thank you.
    Ms. Costa, your company led the way in signing the Bristol 
Bay Protection Pledge, committing not to source mine from 
Pebble. If it is true your company seeks to source materials 
only from the United States, why is it important you take this 
stand?
    Ms. Costa. It is important to us because what happens at 
the origins of our supply chain, it matters; it matters to our 
customers, it matters to our employees, it matters to our 
investors and all of our stakeholders. Consumers expect us to 
be sourcing responsibly, and simply put, I think anything that 
puts the mining industry in a bad light is bad for our 
business.
    Mrs. Napolitano. Thank you.
    Mr. McLerran and Mr. Borden, there is a lot of talk about 
letting the process play out. You have both been involved with 
the permitting from a Federal agency and then from a 
developer's perspective. How does this process compare in scope 
and detail?
    Mr. McLerran. So--Dennis McLerran. Actually, I have never 
seen anything quite like this. This is being shortcut. There 
are gaps in the data. The NEPA process only works well if it is 
done well, and this one is not being done well. So the process 
is deeply flawed. The withdrawal of the watershed assessment--
or excuse me--withdrawal of the proposed determination was 
truly extraordinary after President Trump met with Governor 
Dunleavy on a plane. There was an EPA headquarters directive to 
reconsider, and it was withdrawn within a matter of days. So it 
appears that it was a political decision rather than a science- 
or data-based decision.
    Mrs. Napolitano. Thank you.
    Mr. Borden?
    Mr. Borden. I can say also that I am very uncomfortable 
with this process. I have been involved with a lot of EISs and 
many permitting processes for mines of comparable size and 
smaller. I have never seen something going this fast, at least 
half the time of what you would expect for such a complex 
project. I also have to say the EIS that was submitted in draft 
had so many omissions and errors in it that I personally would 
have been ashamed to be involved with that.
    Mrs. Napolitano. How does the timeline compare for Pebble 
to other EIS processes?
    Mr. Borden. From my analysis, the average mining project is 
probably closer to the 5- to 6-year range. And the current 
administration also looked at EIS process overall in the United 
States over the last decade or so, and even the average EIS, 
and that includes very simple highway projects, things of that 
sort, they are closer to 4 to 5 years also. So this is even 
less than just the average project, not even the average mining 
project.
    Mrs. Napolitano. Thank you, sir.
    I yield to Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair.
    I find it interesting that we bring up draft EISs. We don't 
point out that all of this is subject to review. And, you know, 
just the idea that NEPA is a gold standard except when NEPA is 
actually being used, and now, NEPA and the people carrying it 
out are somehow villains.
    And, Mr. McLerran, in a recent interview with The Seattle 
Times, you said that what is happening now as a decisionmaking 
process is being politicized and removed from the science. And 
I find that extraordinary to be coming from you, the person who 
handpicked somebody to lead the Bristol Bay watershed 
assessment, that said in a public meeting that politics are as 
big or a bigger factor than science, in your Clean Water Act 
veto decision.
    Mr. McLerran, isn't it true that a preemptive veto, such as 
the one you undertook, wasn't necessary because you had no idea 
if the Army Corps of Engineers was even going to grant a 
permit? Isn't it the case that unless the Corps is going to 
grant a permit, that a veto is unnecessary?
    Mr. McLerran. So, first, there was no veto, as I explained 
in my testimony. But we did, after 3 years of science, impose 
restrictions on the development in the watershed, but that was 
based on good science. It was a very participatory process. So 
there was no predecision of that, as Mr. Collier testified. 
That certainly was not the case. We went into this with open 
eyes and open ears, and heard the science and made some----
    Mr. Westerman. You are saying the 404(c) was not used 
originally?
    Mr. McLerran. We did use the 404(c) process, which Congress 
has provided the authority and the power for EPA to use. We 
have used that--EPA has used that very sparingly over the 
years. But this is a case where the science really drove that 
and merited it.
    Mr. Westerman. So everyone on the committee has probably 
dealt with the Corps of Engineers in some form or fashion. And 
I have yet to see the Corps of Engineers get in a hurry about 
anything. I have yet to see them sidestep any processes or try 
to fast-track anything. Quite honestly, it has been just the 
opposite of that. There has been a lot of talk about the 
politicization of this process.
    What exactly about the U.S. Army Corps of Engineers and its 
career military team is politicized? Because I have not seen 
that with any of them that I have dealt with.
    Mr. McLerran. So I didn't state that the Corps of Engineers 
was politicized, but I did state that the EPA process to 
withdraw the proposed determination appears to have been 
politicized.
    Mr. Westerman. But it is the Corps of Engineers that is 
doing this permit.
    Mr. McLerran. So all of the Federal agencies do provide 
input into that. And the U.S. Fish and Wildlife Service, the 
EPA, several other Federal agencies have pointed out that the 
process is deeply flawed at this point that the Corps is 
undertaking.
    Mr. Westerman. Madam Chairman, I yield the remainder of my 
time to the gentleman from Alaska, Mr. Young.
    Mr. Young. I thank you.
    Mr. Collier, you have heard this comment about rushing 
NEPA. How long does the Donlin mine and the rest of the mines 
in Alaska, how long were their process going, permitting?
    Mr. Collier. So the Donlin mine was the longest, 
Congressman. It took 5 to 6 years. There are some reasons why 
that took a long time, including a management change that 
happened in the middle of the process and a need to slow it 
down for new management to consider whether they wanted to go 
ahead with the same plans that were on the table.
    Mr. Young. How does that compare to the Pebble process?
    Mr. Collier. Donlin was longer. But there are a lot of 
projects in Alaska, mining projects, that have been permitted 
in a significantly shorter time. There is a table in my written 
testimony that--you saw those. But I think the clear comparison 
for the hearing today, Congressman, is that I have heard 
repeatedly, since I have sat here, that the Bristol Bay 
watershed assessment was the gold standard process. That took 
precisely the same amount of time to prepare its draft as the 
DEIS took to prepare that draft, exactly the same amount of 
time. So if it was enough time for the Bristol Bay watershed 
assessment, that everybody thinks it ought to be upheld, it 
ought to be enough time for the DEIS in this process also.
    Mr. Young. I want to just say that, along that line, have 
you--because I have heard this--have you talked to the local 
people around Lake Iliamna and worked with them and other 
groups?
    Mr. Collier. Yes, Congressman, we have.
    Mr. Young. Are they part of the group that Ms. Hurley 
represents?
    Mr. Collier. No. The group she represents is much farther 
away from the project.
    Mr. Young. OK. I yield back.
    Mrs. Napolitano. Thank you, sir.
    Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair.
    Yeah, it is not politicized. I have a media advisory from 
the Army Corps of Engineers. They are going to try and rebut 
this hearing with a press event afterwards, not politicized at 
all. Everything is politicized with this administration.
    We have comments from the EPA. This DEIS likely, and 
there--this is 2019, this is Trump's EPA--likely underestimates 
adverse impacts to groundwater, surface flows, water quality, 
wetlands, fish resources, and air quality--nothing much to 
that--including the ability of the proposed water treatment 
plant to annually meet water treatment goals and water quality 
standards in perpetuity.
    Mr. Collier, tell me about the assets of the Pebble Mine, 
in a very short sentence. What are the assets, other than this 
claim?
    Mr. Collier. That is it. That is all there is.
    Mr. DeFazio. OK. All right. Thank you. I appreciate the 
brevity.
    The Department of the Interior submitted comments 
suggesting that the DEIS, as prepared, does not follow NEPA 
requirements and conventions for data inclusion, analysis of an 
activity of this scope and scale. This is the Trump Department 
of the Interior, and it is inadequate and it precludes 
meaningful analysis. That is the Trump administration coming 
out--Scott Pruitt--Scott Pruitt said, it is my judgment at this 
time that any mining projects in the region likely pose a risk 
to the abundant natural resources that exist there. Until we 
know the full extent of that risk, those natural resources and 
world-class fisheries deserve the utmost protection. Seriously, 
Scott Pruitt. So we have a little contradiction going on here.
    Mr. Borden, I was told there weren't any engineers here. 
You are an engineer, correct?
    Mr. Borden. I am a geologist.
    Mr. DeFazio. A geologist. You worked for Rio Tinto for 23 
years?
    Mr. Borden. Correct.
    Mr. DeFazio. And you developed mines all around the world?
    Mr. Borden. Yes, I did.
    Mr. DeFazio. Have you ever seen a water treatment plant 
constructed that is still working, or is going to work in 
perpetuity, in an area--we heard about the water--as wet as 
this?
    Mr. Borden. No. This would be truly unprecedented. The 
flows that would need to be routinely treated, up to 19,000 
gallons per minute, peaking above 20,000 at closure, and then 
incredibly complex and costly multistage water treatment 
process, I have never seen such high flows linked with such a 
complex treatment process in my career.
    Mr. DeFazio. Do you think maybe that is one of the reasons 
Rio Tinto, a real mining company with real assets, pulled out?
    Mr. Borden. I think I would break some confidentiality 
agreements there.
    Mr. DeFazio. As I recall, there were a number of major 
mining companies. We are down to one who has, you know--but 
also, they are not part of the shell company, so they won't 
have any liability if this fails. Is that correct?
    Mr. Borden. Water treatment is truly an Achilles' heel for 
this project. And I had estimated that even being rather kind 
and conservatively low, it would be $40 million a year every 
year just to--in operating costs to run a water treatment plant 
here.
    Mr. DeFazio. So how is a shell company with no assets going 
to do that, I wonder? Maybe they will post a $1 billion bond. 
Oh, no, we don't require that, do we?
    Mr. Collier. I would be happy to answer that question, if 
you would like.
    Mr. DeFazio. No, sir. I didn't--I want to ask another 
question. We will get to you.
    Mr. Collier. I thought you probably wouldn't.
    Mr. DeFazio. Yes. Thank you.
    How about the financial viability? You say its net present 
value is negative $3 billion.
    Mr. Borden. That is correct.
    Mr. DeFazio. All right. Now I have a question, Mr. Collier. 
Have you submitted a document on this much smaller mine showing 
it is financially viable to the Corps of Engineers that is a 
certifiable, real analysis? Yes or no?
    Mr. Collier. No.
    Mr. DeFazio. No. OK.
    Mr. Collier. But if the mine is not financially----
    Mr. DeFazio. No--sir, I asked you a yes or no. You answered 
no. Thank you very much.
    Mr. Collier. Thank you.
    Mr. DeFazio. I appreciate that.
    How about the height of--Mr. Borden, the height of these 
dams. Are there a lot of dams this height around the world in 
wet, seismically active areas?
    Mr. Borden. No. This would be unique. It would be at least 
in the upper 99th percentile of tailings dams constructed 
globally today for height.
    Mr. DeFazio. Oh, Mr. Collier looks appalled at that 
statement. So--we will see if he can document something else.
    So--and it will be about as tall as Hoover Dam--I mean 
Grand Coulee. Sorry. Not Hoover. Hoover is taller.
    Mr. Borden. It will be 545 feet high at its highest point. 
I am afraid I don't know how high----
    Mr. DeFazio. OK. Yeah, we are close. Yeah, OK.
    And what are these constructed of?
    Mr. Borden. The dam embankments will dominantly be 
constructed of bedrock, which is quarried from greenfields 
quarries.
    Mr. DeFazio. OK. Great. Thank you very much.
    My time has expired.
    Mrs. Napolitano. Thank you.
    Mr. Woodall, you are on.
    Mr. Woodall. Thank you, Madam Chair.
    I used to serve on the Oversight Committee, where we would 
routinely have the folks asking the yes-or-no questions and not 
giving an opportunity for folks to respond. But one of my great 
pleasures in moving to the chairman's committee is that this is 
a bipartisan committee where folks are actually seeking answers 
instead of just trying to make a point.
    And so, Mr. Collier, I actually have some other questions 
for other witnesses, but you didn't get a chance to answer any 
of the chairman's questions. And if they were worth asking, 
presumptively they are worth answering.
    Mr. Collier. Yes. Two answers that I would like to provide. 
The first is, as I am sure the chairman of the committee knows 
with his great experience in this area, you can't turn a shovel 
full of dirt for a project like this without a bond being 
posted that guarantees all of the financial closure 
requirements and perpetuity requirements that have been imposed 
by the permit that you are operating under.
    So we couldn't start building this mine until we had posted 
an adequate bond to make sure that all of those requirements 
could be taken care of. That is the law today. And furthermore, 
the State law in Alaska is even more severe than the Federal 
laws in terms of bonding.
    And as for financial viability, I don't believe for a 
second that members of this committee accept the fact that this 
project isn't financially viable. If it is not financially 
viable, it is not going to be built. And if it is not going to 
be built, what the hell are we doing here today?
    So if you believe it is not financially viable, let's all 
go home. But the project is financially viable. We have 
invested almost $1 billion in this project to get it where it 
is now, and we are going to be able to build it, and it is 
going to make money as we go forward.
    Mr. Woodall. I thank the gentleman.
    Mr. Niver, I am glad to see here you. I confess, I don't 
know much about Alaska. The Chesapeake Bay is in my back yard 
here. And whenever we are talking about protecting the bay, we 
rarely have families that have done generational fishing come 
to testify. So I just can't tell you how pleased I am to see 
folks who work for a living here making their case.
    I saw in your testimony, you got started on your dad's boat 
as a teenager. Did I read that correctly?
    Mr. Niver. Yes.
    Mr. Woodall. Does it go back another generation, or did 
your dad start the company?
    Mr. Niver. My dad actually got us into the fishing 
business, yes, and then we expanded it. All my brothers all 
ended up getting permits. And my sons are fishing with me now. 
They started a company called surrendersalmon.com. They sell it 
in the Midwest. They sold over 100,000 pounds of fillets last 
year, and they are doing quite well.
    Mr. Woodall. We are talking about protecting the watershed 
and protecting that fishery.
    Can your grandsons get permits today? Are permits still 
being issued in that----
    Mr. Niver. Well, it is a limited entry system, but they are 
always being bought and sold always, every year. You can go to 
a permit broker and buy a permit every year if you want. There 
are a limited amount, but there are people getting into the 
business and people getting out of the business every year.
    Mr. Woodall. We can't compete on the east coast with Ms. 
Hurley's thousands of years of dependence upon the land. But 
tell me about commercial fisheries in the bay. How far back 
generationally will a fishing family go? If we are not talking 
about Ms. Hurley and Native peoples, what are we talking about?
    Mr. Niver. Well, I mean, Ms. Hurley, her families go back 
thousands of years, right?
    Mr. Woodall. In the commercial fishing business, Ms. 
Hurley?
    Mr. Niver. In the commercial fishing, yes, it has been 
going on for 135 years.
    Mr. Woodall. We have got some great restaurants in Atlanta. 
I just want to know how long that has been shipping our way.
    Mr. Niver. All right. Well, I hope that your restaurants 
are getting wild Alaska salmon, because you don't want to do 
the farm salmon.
    Mr. Woodall. I noticed your son was marketing in the 
Midwest; he wasn't marketing in the Deep South. We will come 
and talk to him after----
    Mr. Niver. We will keep him away from there, OK?
    Mr. Woodall. Ms. Hurley, what are we talking about in terms 
of commercial fishermen in families that you represent? Are we 
going back--how far?
    Ms. Hurley. Yeah. I am happy to add to what Mark said. I am 
actually a fourth generation commercial set-netter as well. So 
my great grandmother, my grandmother, my mother, and I, and our 
permits have been passed down. And that is very--a regular 
practice in Bristol Bay. This is generations of fishing 
families, you know, not only from a Native perspective, but 
from a commercial perspective as well.
    And you would be hard pressed to find anyone in Bristol Bay 
who isn't connected and benefiting in a cash economy in some 
way, either directly or through a support industry, from the 
sustainable commercial fishery that has provided for this 
region economically and for the State and the Nation for over 
135 years and counting, with record runs this last year, 54 
million salmon.
    Mr. Woodall. Given those high stakes, Ms. Hurley, what I 
thought I understood in your testimony--I think shape-shifting 
was the reference you made. But there is no proposal that you 
could see for this mine that will satisfy your concerns, that 
your sense is that this mine cannot be built in any way and 
have the Tribes' concerns addressed.
    Ms. Hurley. Yeah. So what we have seen is with the 
company's proposal, that has changed in different ways, it has 
not changed in any way that changes our mind that this will not 
impact fisheries. We have seen this throughout history, 
throughout other mines.
    Ms. Mucarsel-Powell [presiding]. Thank you, Ms. Hurley. The 
time is up.
    Now I would like to recognize the gentlelady from Texas, 
Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much. I ask unanimous 
consent to put my opening statement in the record.
    Ms. Mucarsel-Powell. Without objection.
    [The information follows:]

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Madam Chairwoman, there are serious concerns with the Pebble Mine 
Project in Bristol Bay, Alaska.
    Bristol Bay is an American treasure and economic engine. It is home 
to the world's greatest wild salmon fishery that generates $1.5 billion 
annually, fuels Alaska's economy, supports 14,000 jobs, and feeds 
indigenous communities. The proposed Pebble Mine threatens the entire 
region--its people, water, fisheries, and wildlife.
    As Chair of the Science Committee, we have oversight of the EPA. I 
have been concerned about this issue for quite some time.
    We have been here before with hearings on EPA and the proposed 
Pebble Mine. As far back as August 2013, the Science Committee held a 
hearing on the EPA's Bristol Bay Watershed Assessment. It held a second 
hearing titled, ``Examining EPA's Predetermined Efforts to Block the 
Pebble Mine.'' That hearing included the CEO of the Pebble Partnership 
and two of the company's paid consultants.
    We also heard from an EPA witness, Mr. Dennis McLerran. As the EPA 
Administrator of Region 10, that includes Oregon, Washington, Idaho and 
Alaska, he played a pivotal role in helping the EPA carry out its 
critical mission of protecting human health and the environment.
    Madam Chairwoman, commercial fishermen in Bristol Bay, 
environmental groups, Native Alaskan Tribes, and even jewelry companies 
such as Tiffany & Company, were and are, deeply concerned that a mine 
in Bristol Bay would destroy the splendor and unspoiled beauty of this 
unique watershed, and cripple the economic livelihood of thousands of 
its residents who rely on its world-renowned salmon fisheries. All 
those groups called on the EPA to take action to protectthis critical 
environmental resource.
    I have heard from constituents in my district in Dallas on this 
issue.
    They are also opposed to this mine. This should not be a political 
issue. I believe, as others have said, that the proposed Pebble Mine in 
Bristol Bay is simply the wrong mine in the wrong place.
    The potential development of the Pebble Mine in Bristol Bay poses 
an extreme adverse threat to U.S. waters. We must not allow that to 
happen. We must continue to protect the waters of the United States.

    Ms. Johnson of Texas. Thank you.
    Mr. Kraft, at one point you were supportive of the Pebble 
Mine project. What made you change your mind?
    Mr. Kraft. Actually, Ms. Congresswoman, what changed my 
mind was actually a presentation by Northern Dynasty at my 
lodge. I had the CEO of--then it was Northern Dynasty that 
owned the deposit, wasn't in the Pebble Partnership. And he 
came to the lodge, at my request, and we had people from the 
Village of Igiugig, a Native village 4 miles from my lodge, 
came down, population of 35 people year-round.
    We came down and we all had concerns about what was going 
on. We are the first village downriver from the proposed mine 
site. And he did a presentation that looks very similar to the 
presentation that we see today. Frying Pan Lake, a headwater 
lake, it starts one of the salmon-bearing streams, is going to 
be gone. And he started pointing this out, and we are 
scratching our head, going, that doesn't sound so good. And 
this much habitat is going to be consumed and this much acreage 
is going to be gone.
    So it was at that point that we started asking questions 
and saying, wait a minute, maybe this isn't what is right for 
this area and for this region. So it was an educational journey 
that we went on. And it was talking to mine people and finding 
out what were the good mining decisions, why they went in where 
they did, and why they didn't go where they did.
    And so it just--it was evolutionary, over time, finding out 
that, look, this area, one, it is aqueous, the water table is 
at 6 feet, everything is interconnected. We have got salmon 
identified in landlocked-looking lakes, which means they travel 
underground. And finding out the connectivity of the entire 
system, it just became very obvious very quickly that an 
industrial development that digs a big hole and consumes the 
habitat is probably not the right thing for this fishery.
    Ms. Johnson of Texas. There is the argument that if the 
mine is smaller, the impacts are smaller. Do you agree, or what 
size mine would have no impact?
    Mr. Kraft. Ms. Congresswoman, it is--it is hard to get to 
yes because of the sheer location. Location, the size, and the 
scope of it. The Pebble Partnership has tried to put forth a 
mine plan that Mr. Collier thinks is permittable. I think that 
the strategy is not beyond anybody's reasonable assumption that 
as soon as this permit gets OKed, that they are going after the 
entire deposit.
    It would be ludicrous to think that, on a business sense, 
you are going to put in the capital infrastructure, the roads, 
the ports, the powerplant, the extraction mechanisms, to get to 
one-eighth of the deposit and leave seven-eighths of the 
deposit in the ground. So it is very hard to get to yes on 
this.
    Ms. Johnson of Texas. Thank you very much.
    Mr. Niver, you are a multigenerational family fisherman. If 
the salmon fishery was severely impacted, what would it mean to 
your family and to the community in Alaska or even the United 
States that depend on this fishery?
    Mr. Niver. Yes. It would--the impact of the mine will be 
substantial to all fishermen in the Bristol Bay watershed. And 
we are talking about putting an open-pit mine of the largest 
kind in the United States between the two largest salmon-
producing rivers in the world. I mean, we are only like 3 miles 
from Lake Iliamna and about 1\1/2\ miles from the upper reaches 
of the Nushagak River system. It will have an impact on all 
fishermen in Bristol Bay.
    Ms. Johnson of Texas. OK. Thank you very much.
    Mr. Niver. Thank you.
    Ms. Johnson of Texas. Now, Ms. Hurley, can you talk a 
little bit about the area's importance to the Alaska Natives 
who call the Bristol Bay watershed home? Quickly.
    Ms. Hurley. I am sorry. I didn't catch the beginning of 
what you said. Talk to the----
    Ms. Johnson of Texas. Why this area is important to the 
Alaska Natives.
    Ms. Hurley. Yeah. Sorry. This is very important to us. This 
is a human rights issue. This is an indigenous rights issue. 
This is an environmental justice issue for our people. If our 
lands and waters are devastated, our people are devastated and 
can no longer exist. We don't have a choice. We have to fight 
this project for the survival of our people.
    Ms. Johnson of Texas. Thank you very much. My time has 
expired.
    Ms. Mucarsel-Powell. Thank you.
    I now recognize Mr. Bost from Illinois.
    Mr. Bost. Thank you, Madam Chair.
    Because I think that he has the questions that are vitally 
important to his State and where he represents, I would like to 
yield my time to Representative Young, please.
    Mr. Young. Thank you.
    And, Mr. Collier, have you secured the necessary property 
rights permissions to develop the project?
    Mr. Collier. Yes, we have.
    Mr. Young. You have talked to--includes surface 
transportation and surface transportation and roads that can be 
built?
    Mr. Collier. Yes. In fact, the two village corporations in 
Alaska, that is Native Government corporations, that own the 
majority of the land in the--Lake and Pen Borough where we are.
    Mr. Young. So they actually support the project?
    Mr. Collier. They support the project and have entered into 
right-of-way agreements with us and contractual cooperation 
agreements.
    Mr. Young. The reason I ask that question is I have heard 
some people are claiming that they own the subsurface, and that 
would stop road. That is not the law, to my knowledge.
    Mr. Collier. That is not the law.
    Mr. Young. And these are Native groups too?
    Mr. Collier. That is correct.
    Mr. Young. That is good.
    Just out of curiosity, Mr. Borden, what do you do now?
    Mr. Borden. I retired from Rio Tinto in January of this 
year, and I am now running my own consulting firm.
    Mr. Young. For mining?
    Mr. Borden. Yes. So far, I have had five clients this year, 
three mining companies and two NGOs.
    Mr. Young. Just curious. Rio Tinto is a pretty good 
operation.
    I think everybody--anybody disagree that this is a draft 
statement from the Corps of Engineers? Everybody agree with 
that or disagrees with it?
    Is it a draft?
    EPA is a draft too?
    We are all talking about drafts here. These are not final 
products. And I think everybody in that table, both sides, have 
made up their mind already. This is about science. I don't see 
much science here. Everybody--I hear you referring to the 
scientists. What scientists? Who were they? Mr. McLerran, who 
were they?
    Mr. McLerran. So the watershed assessment was done by EPA's 
Office of Research and Development in conjunction with region 
10. That was EPA's science office.
    Mr. Young. You already made up your mind, didn't you----
    Mr. McLerran. No, never made up----
    Mr. Young [continuing]. Made up their minds?
    Mr. McLerran [continuing]. Our mind. During the--during the 
pendency of the watershed assessment, I knew I was going to be 
the decisionmaker on whether we use 404(c) or not and making a 
proposed determination. Ultimately, the decision would be made 
by headquarters Office of Water.
    But, no, I had not made up my mind. I wanted to see what 
the science said. I wanted to learn more about the watershed, 
and that is what the process we did with those scientists 
informed me.
    Mr. Young. What is your employment now?
    Mr. McLerran. So I am an attorney and----
    Mr. Young. I figured that.
    Mr. McLerran [continuing]. Policy consultant in Washington 
State.
    Mr. Young. All right. I yield back.
    Ms. Mucarsel-Powell. Thank you.
    I now recognize Representative Carbajal for 5 minutes.
    Mr. Carbajal. Thank you, Madam Chair.
    Ms. Costa, thank you for your testimony before our 
subcommittee today to discuss your concerns with the Pebble 
Mine project.
    From what we have heard today from you and some of the 
other witnesses, this proposed project poses a significant 
threat to the natural environment and commercial fishermen 
interests in Bristol Bay.
    You mentioned that in 2008, Tiffany & Company was one of 
the first jewelers to sign the Bristol Bay Protection Pledge, 
and continues to oppose this project, proposed Pebble Mine 
project.
    Can you elaborate further on why a successful business like 
Tiffany would oppose a mining project like this? And, two, are 
there other businesses that have signed the Bristol Bay 
Protection Pledge?
    Mr. Costa. Thank you for the question. Yes, there are many 
other businesses that have signed on, many other sectors and 
over 100 jewelers that have signed on to the pledge itself. And 
as I referenced, it has always been critical to us to make sure 
that we understand the origins of our supply chain because of 
what we are selling, our jewelry. But I think that it is even 
more critical now, because consumers are demanding to 
understand the origins of our products, and it is upon us to 
make sure that we are sourcing responsibly. And we feel, simply 
put, that this is the wrong mine in the wrong place at the 
wrong time, and that is why we have stated that we will not 
source from Bristol Bay--from the Pebble Mine should it move 
forward.
    Thank you.
    Mr. Carbajal. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Garamendi [presiding]. Mr. Weber, if you would care to 
take 5 minutes here.
    Mr. Weber. Thank you, sir.
    I appreciate our colleague from Alaska's comments earlier 
about--that would be Congressman Young--that everybody on both 
sides seems to have made up their mind. And as I sit here 
today, I think it is extremely telling that in one opening 
diatribe that the name of Donald Trump was once again invoked, 
mentioned, and once again maligned. It seems apparent that the 
hatred for the President is being, dare I say, mined to the 
deepest depths in order to continue the false narrative that 
President Donald Trump is pretty much to blame for just about 
everything. It is old.
    The actual depths that that hatred is being mined to 
appears to be one of the deepest despair that President Trump 
will actually continue to do what he was elected to do, and as 
one of the Democratic Members said in a televised interview, 
they are actually afraid that Donald Trump will get reelected, 
he has to be impeached. They fear that he might be reelected. 
They don't trust the American public to make the right 
decision.
    So I want to associate my remarks with Mr. Westerman when 
he was here and with Mr. Young. Why doesn't this committee 
focus on what we are here to do? And that is a highway bill, a 
water bill, and other priorities. Why don't we focus on 
actually helping build and sustain the good American economy 
that has made tremendous gains and gigantic leaps, dare I point 
out, under President Donald Trump? Why don't we?
    Oh, that is right. It might remind many Americans of what 
is already apparent, that the Donald Trump administration's 
agenda is actually benefiting America and Americans.
    Well, as Congressman Young said, follow the process, in his 
opening--in earlier comments. Of course, he was referring to 
the environmental impact process that has been used for many a 
year, and might I add, long before President Donald J. Trump 
came along and took the reins and catapulted our economy into 
high gear.
    So why not focus--why doesn't this committee focus on, dare 
I use the word, the best sustainable economy of arguably the 
last 30 to 50 years? Let's get to work on behalf of Americans 
to continue the process that has benefited the most people in 
this country in recent memory. Our citizens deserve no less.
    Now, having gotten that out of the way. I have some 
questions. Mr.--I have 2 minutes and 24 seconds. Thank you, Mr. 
Chairman.
    Mr. Collier, you were able to--thank you to Mr. Woodall 
from Georgia for allowing you to answer a couple of questions 
about maintaining the water. But I also remembered a remark by 
Mr. Borden that there was 99 percent of something that couldn't 
be done, and you kind of looked at him incredulously. Remind us 
what that was and what your answer was.
    Mr. Collier. He stated that the height of our tailings 
facility dam was in the 90-something percentile in terms of 
dams in the world. And that is just not true. It is about in 
the middle of the percentile.
    And there are a number of statements like that that have 
been made by Mr. Borden, including that the water treatment 
facility design here is unprecedented. That is a word with a 
technical meaning. It means it has never been done before. That 
is just wrong. And there are--there are a number of those.
    And one more, while I am kind of on a roll here, if I 
could. I am particularly interested in Tiffany's statement that 
they won't source from Pebble Mine if we get our permit and we 
are built, particularly in light of the fact that Tiffany's 
took a position a number of years ago before the SEC--before 
the Securities and Exchange Commission that they shouldn't be 
held to a particular standard in the conflict gold debate 
because they couldn't source gold. So if you can't source it, 
how are they going to--it is a publicity stunt to have done 
this. It has no meaning in reality.
    Tiffany's real contribution to this project was to 
contribute some money that was used by one of the NGOs to hire 
a woman named Ann Maest to do a number of studies that the 
Bristol Bay watershed assessment then relied upon. Ann Maest, 
in an action in New York, a RICO action in New York, admitted 
that she had made up her data and her conclusions in another 
legal proceeding.
    Mr. Weber. Is that in a deposition?
    Mr. Collier. Actually, she admitted it in order to be 
withdrawn as a defendant in the RICO action. But under oath, in 
that proceeding.
    So--and just one more point--I have run out of time. But I 
hope I have a chance to make one more. Thank you, sir.
    Mr. Weber. OK. Well, thank you.
    I appreciate the chairman's indulgence, and I yield back.
    Mr. Garamendi. Just when it was my turn and I was about to 
yield as much time as I might consume, I turn the chair back 
over.
    Ms. Mucarsel-Powell [presiding]. I apologize for all the 
musical chairs. I had to vote in the Judiciary Committee, and 
that is where I had to go.
    But now I would like to recognize--and thank you very much 
to our great Representative Garamendi for stepping in for 5 
minutes.
    Mr. Garamendi. Thank you.
    I am going to start in the 1860s. A Native American woman 
in the community of which I was raised said, and they came and 
they cut down the trees and they burned them. We would take the 
dead wood to warm ourselves. And they went to the hills, and 
they removed the rocks and filled the rivers. One hundred fifty 
years later, my part of California continues to resonate with 
the residue of the great California Gold Rush.
    In the 1990s, mid-1990s, Mr. Collier, you and I were both 
at the Department of the Interior, and this project was 
proposed at that time. I had the pleasure of traveling as the 
Deputy Secretary of the Department of the Interior to this 
area, spent nearly a week in the area looking at all that was 
going on. Went down one of the rivers in a raft and flew over 
the Pebble Mine area.
    There are some places that are special. My part of 
California is no longer special. The residue of the mines is 
still there, the mercury is still in the river, still causing 
problems, and the floods occur as a result of the mining that 
took place. There are some places you simply shouldn't rip the 
rocks from the hills and fill the valleys. That Native American 
woman was correct.
    I am sure this project could be built. But 150 years from 
now, when the miners have left and the residue of the mine is 
there, it will contaminate the rivers, it will contaminate the 
bays, and my daughter and son-in-law that have spent every 
summer in the Tikchik Lakes will not see the salmon that are 
there today, nor will their grandchildren and their 
grandchildren. There are some places that simply should not be 
mined, and this is one such place.
    I am familiar with this. I dealt with this in the 1990s. 
And at that time, Secretary Babbitt, who told me, take care of 
Alaska, I did my best, and one of the things that we said 
should not happen is Pebble Mine. Twenty-four years later, 
Pebble Mine should never happen. Not now, not tomorrow. There 
will be another developer coming through with some great plan 
about how much money can be made.
    But I will tell you, from my experience in California, my 
family's experience over three generations--four now--is that 
some places are precious, unique. This particular part of the 
world, the globe on which we all live, is really unique. There 
is no other place like it. The economic activity here is 
salmon. It is recreation, it is tourism, all of which would 
decline substantially if Pebble Mine and mines in this 
particular area ever come to be.
    And so today we hear, once again, 24 years after I first 
heard it, about the potential profit to be made and the 
potential damage--not the potential--the real damage that would 
occur from that profit that could be made. And so we simply 
should say, no, not here, not now, not ever. Not here, not now, 
not ever. Some things should be left alone.
    I yield back.
    Ms. Mucarsel-Powell. Thank you, Representative Garamendi.
    I now recognize Representative Weber for 5 minutes.
    Mr. Weber. Thank you, ma'am. Appreciate that.
    Mr. Niver--am I saying your name right? Is it Niver?
    Mr. Niver. It is Niver.
    Mr. Weber. OK. All right. Well, I appreciate that. Thank 
you for the correction. If you are like me, you have probably 
been called worse, and recently too.
    Mr. Niver. I probably have.
    Mr. Weber. Yeah. When you--and I owned an air-conditioning 
company for 35 years, small business guy, that I started from 
scratch, so I am familiar with how that works. So when you 
started doing fishing and stuff and you decided that you were 
going to go in and you are going to buy a fishing vessel, you 
quoted some numbers. Couple hundred thousand dollars?
    Mr. Niver. Today, they are around $250,000 on average to 
get into a Bristol Bay boat.
    Mr. Weber. Right.
    Mr. Niver. Yes.
    Mr. Weber. So you made the business decision, you 
calculated that out, and said, OK, there is some risk here, I 
am going to invest, it is going to take hard work. I know what 
that is about. But you hung in there and you made it work. But 
that was a calculated decision you made?
    Mr. Niver. Yes.
    Mr. Weber. And your dad made one before you, sounds like.
    Mr. Niver. Correct.
    Mr. Weber. You betcha.
    And I appreciate the other side's concern about Pebble 
Mine, that y'all might not make money, you know, and looking 
out for them. But wouldn't it be safe to assume that they made 
the same--y'all made the same calculated decision, Mr. Collier, 
that they did when they bought boats, you actually calculated 
this out? You betcha. And so it is going to make money for you. 
That is a good thing.
    I am going to stay with you, Mr. Collier, for a second. 
Been a lot of talk about the DEIS, draft environmental impact 
statement, about the deficiencies in that DEIS. And 
Representative Young, Congressman Young pointed out that it is 
just a draft, just simply a draft. And I think it is very--it 
is an important point to remember that it is just the draft.
    Is it true, Mr. Collier, in your experience, that the Army 
Corps will need to address--look at that draft and is currently 
undertaking to look at that draft, and they will actually 
address a response to the EPA's concerns over that DEIS, or 
draft environmental impact statement? Isn't that going to 
happen?
    Mr. Collier. Of course. That is the way the process works. 
And to add to that just a little bit, there have been three 
pretty powerful points that have been made by this side of the 
room. One is that the political fix is in, and that is why we 
are where we are in the permitting process. The second is the 
process is being rushed. And the third is DEIS is inadequate.
    And one of the things that has been pointed to repeatedly 
are the criticisms that have been filed by EPA and by the 
Department of the Interior. And the point I want to make is 
that they don't support those three points. In fact, they run 
directly against them.
    If the political fix is in, why is it that Trump's EPA and 
Trump's DOI are criticizing the draft environmental impact 
statement?
    Mr. Weber. I talked about that in my opening remarks. Go 
ahead.
    Mr. Collier. It is just--it is absurd, and it is internally 
inconsistent position to take.
    Second, if this is a rushed process, why are these agencies 
building speed bumps for the process? I mean, that is crazy.
    And then the third point--and this one is the most 
important--now that these criticisms have been put on the 
table, it is incumbent upon the Corps of Engineers to address 
them and address them thoroughly. And if they don't address 
them thoroughly, then a court is going to throw this permit 
right out the door the minute it is issued.
    And so one of the things that has happened is that the 
process is, in fact, working, which was your original point. 
This is a draft. Criticisms have been put on the table, and 
those criticisms are going to be addressed. And if they are not 
adequately addressed, we won't be able to have our permit 
upheld when the courts review it.
    Mr. Weber. And isn't it also true that if for some reason 
after the draft is thoroughly vetted, that if there is a 
problem, the EPA is still not satisfied, they still have the 
ability to use their 404(c) authority?
    Mr. Collier. That is correct.
    Mr. Weber. That is a true statement?
    Mr. Collier. That is correct.
    Mr. Weber. So, you know, let the process go forward, let it 
be thoroughly--after all, wouldn't we want as much science, as 
much information as we can to let the process go forward, let 
it be vetted as nearly and as clearly and as thoroughly in 
depth as it can be?
    And so I just thank you for being here.
    And I am going to stop there, Madam Chair. I am going to 
yield back.
    Ms. Mucarsel-Powell. Thank you, Mr. Weber.
    I now recognize myself for 5 minutes.
    Thank you for all of you for coming here.
    And I just want to say, Ms. Hurley, I hear you loud and 
clear. And we are going to do everything we can in this 
committee to conduct the appropriate oversight of this project.
    I represent south Florida. And the Pebble Mine site is more 
than 4,000 miles away from my district, which makes my district 
the farthest district from this mine location. But even yet, I 
am that far, I have very strong concerns about Pebble Mine, 
because it has such serious potential consequences for our 
environment, the fisheries, the indigenous populations, and 
water quality.
    Mr. Collier, in your testimony, you repeatedly refer to the 
draft environmental impact statement, which was released in 
February, when making the case that there won't be any 
significant environmental impact. But I think you need to do 
much better than that.
    The EPA, under the Trump administration, the most anti-
environment administration we have had in decades, the Trump 
EPA argued that the DEIS, quote, ``likely underestimates 
adverse impacts to groundwater and surface water flows, water 
quality, wetlands, fish resources, and air quality.'' 
Similarly, the Trump administration's Department of the 
Interior concluded that the DEIS is so inadequate that it 
precludes meaningful analysis. And I think that that's very 
damning.
    So I ask for unanimous consent to enter into the record two 
articles, one in the Juneau Empire entitled, ``Scientists: 
Pebble Mine study doesn't account for all risks,'' and one from 
the Anchorage Daily News saying, ``Pebble Mine EIS is fatally 
flawed.''
    [The information follows:]

                                 <F-dash>
        Article from Juneau Empire, Submitted for the Record by
                      Hon. Debbie Mucarsel-Powell
      scientists: pebble mine study doesn't account for all risks
Group presents to Alaska House Resources committee
https://www.juneauempire.com/news/scientists-pebble-mine-study-doesnt-
account-for-all-risks/.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

   Gayla Hoseth, 2nd Chief of Curyung Tribal Council and Director of 
 Natural Resources at Bristol Bay Native Association, left, Norman Van 
   Vactor, CEO of the Bristol Bay Economic Development Corporation, 
 center, and former Alaska legislator Rick Halford, present at a press 
 conference against the Pebble Mine project on Monday, April 1, 2019. 
                     (Michael Penn, Juneau Empire)

By Mollie Barnes
Wednesday, April 3, 2019

    Representatives have been grappling with the a proposal to develop 
a mine near Bristol Bay.
    As a part of the wider discussion, the House Resources committee 
heard Monday from a group of scientists and advocates who disagree with 
the Pebble Mine project which proposes developing the Pebble copper-
gold-molybdenum porphyry deposit (Pebble Deposit) in southwest Alaska 
as an open-pit mine, with associated infrastructure.
    A group of scientists and Bristol Bay residents held a press 
conference, detailing concerns with the draft environmental impact 
statement (DEIS) released by the U.S. Army Corps of Engineers in 
February. Some critics have said the 90-day comment period for this 
DEIS is not long enough, considering the length of the document.
    The chief concerns were that the DEIS used too short of a time 
frame to associate the risks of the mine, it used an inappropriate fish 
habitat assessment, cumulative risks were essentially ignored, there 
was very little mention of long-term risks associated with climate 
change and that it used selective use of scientific literature when 
backing up claims.
    ``It is absolutely clear that it has way underestimated risks and 
does not pass as credible science,'' said Daniel Schindler, a professor 
in the School of Aquatic and Fishery Sciences at the University of 
Washington during the press conference.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

Dr. Daniel Schindler, a professor in the School of Aquatic and Fishery 
Sciences at the University of Washington, left, and Dr. Cameron Wobus, 
     a Senior Scientist at Lynker Technologies, present at a press 
  conference against thePebble Mine project on Monday, April 1, 2019. 
                     (Michael Penn, Juneau Empire)

    Resources Co-Chair, Rep. Geran Tarr, D-Anchorage, says that the 
Army Corps of Engineers will be speaking in front of the committee on 
the same topic soon.
    Norman Van Vactor, a longtime participant in Bristol Bay fisheries 
and current CEO of the Bristol Bay Economic Development Corporation, 
said that he has absolutely no confidence in the Army permitting 
process.
    ``To allow Pebble to drive this permitting process makes absolutely 
no sense and defeats the purpose of a permitting process to begin 
with,'' he said at the press conference. ``(The) process should be 
testing their assumptions, not taking Pebble at it's word. . . . 
Science drives the decision-making, not industry speculation, fantasies 
or good intentions. The Army Corps' draft is the complete opposite--it 
ignores well documented data and is missing critical info. . . . Why 
are we lowering the bar to the lowest level possible? Alaska should be 
upholding strong standards and science-based permitting in all 
industries not just some.''
    The group also took problem with the economic implications of the 
mine, saying that major mining companies would not invest in the 
project because it would not net enough profit if it was only open for 
20 years, the period the DEIS draft uses.
    ``The economic world says this doesn't work either,'' said Rick 
Halford, a former Alaska legislator. ``Everything they do is designed 
to get a permit, and the permit is going to be worthless. This mine is 
at least a mile deep and it's the richest at depth and to mine your way 
down to the money and then stop is a ridiculous assumption.''
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

 Former Alaska legislator Rick Halford, right, and Norman Van Vactor, 
 CEO of the Bristol Bay Economic Development Corporation, present at a 
 press conference against the Pebble Mine project on Monday, April 1, 
                  2019. (Michael Penn, Juneau Empire)

    They change in the middle of the process, Halford said. ``They came 
in with a number for the size of their small mine . . . within months 
they've increased that by 25 percent. They're not bound by what they're 
trying to get a permit on and they know it.''
    During the committee presentation, Rep. Ivy Spohnholz, D-Anchorage, 
said that there are more jobs at risk from potential effects of the 
mine than the mine itself would create. This comment came after Rep. 
Sara Rasmussen, R-Anchorage, asked how many of the fishery jobs were 
held by workers from out of state.
    ``Forty-eight percent of Alaska's salmon comes from the region, 
14,000 direct jobs (at the fishery) compared to 750 jobs presented to 
us last week by Pebble Partnership,'' Spohnholz said. ``Even if only 
half of those go to year-round residents, that is a lot of jobs for a 
region in which people have lived for millenea. I think that's a very 
important distinction to make.''
    Rasmussen also asked, ``Why are so many people migrating from 
Southeast Alaska?''
    She said a number of families have migrated to her district from 
the area and that the Pebble Mine could support infrastructure that 
would slow this migration.
    Van Vactor said people migrate for different reasons. He said if 
the Pebble Mine project were to go through it would be mostly workers 
who come in for a certain period of time just to work at the mine, more 
like oil field workers rather than longtime residents.
    A big issue the scientists said they had with the EIS was that the 
timeline was way too short to evaluate risks and that a 100 year 
analysis would have been better than a 20 year one, because the 
tailings dam has a 1 in 5 chance of failing over a century.
    ``There's a lack of confidence in the Army Corps permitting process 
as it relates to this EIS project,'' Van Vactor said. ``I would ask the 
hundreds of thousands if not millions of Americans in the Midwest right 
now how much confidence they have in the Army Corps of Engineers 
certification process as it relates to the dams and levies that have 
failed and flooding that is happening throughout the U.S.''

                                 <F-dash>
     Article from Anchorage Daily News, Submitted for the Record by
                      Hon. Debbie Mucarsel-Powell
               opinion: pebble mine eis is fatally flawed
https://www.adn.com/opinions/2019/09/27/pebble-mine-eis-is-fatally-
flawed/

By Phil Brna
September 26, 2019
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

   This is an aerial view of a work camp in the area of the proposed 
 Pebble Mine in Iliamna, Alaska, seen on Tuesday, August 27, 2013. The 
 Pebble Mine could be the largest open pit mine on the continent, with 
  an earthen tailings dam higher than the Washington Monument to hold 
    mine waste for hundreds to thousands of years, according to an 
   Environmental Protection Agency analysis. (Bill Roth/ADN archive)

    The Environmental Impact Statement, or EIS, process and the 
document for Pebble mine by the Corps of Engineers are deeply and 
fatally flawed. I spent my entire professional career of 42 years 
working for the Corps, Alaska Department of Fish and Game, U.S. Fish 
and Wildlife Service and, as a consultant, on review and regulation of 
large and small development projects in Alaska. I worked on roads, oil 
and gas drilling and development, pipelines, refineries, utility lines, 
ports, boat harbors, hydroelectric projects, military projects, and 
many large and small mines.
    During my career I was directly involved with preparation of 
several dozen EIS's and I reviewed dozens more. Pebble is the largest 
and potentially most destructive project I have ever been involved 
with. The environmental resources at risk in Bristol Bay from Pebble's 
development and operations are the most precious, unique and 
susceptible to long-term and irreversible damage of any project in my 
experience. I have not seen an EIS as poorly written and inadequate as 
the Pebble draft EIS.
    Although there are many issues to be concerned about, I want to 
focus on Pebble's environmental baseline studies, which were begun and 
completed years before Pebble applied for a Corps permit. Environmental 
baseline studies are intended to show the current state of the 
environment in a project area so that potential project effects can be 
predicted and measures to mitigate the harm can be proposed. They also 
serve to guide long-term monitoring during and following operations. 
Pebble's study designs for baseline studies were inadequate and not 
based on best-available scientific methods.
    This was because Pebble did not want to know or to ultimately 
divulge to the public the actual scope, importance of and risk to fish, 
wildlife, water and subsistence resources. I call their studies the 
``illusion of good science.'' Others have called it ``junk science.'' 
If they had conducted proper studies, the results could have been used 
to oppose the project. Scientific fact would have undermined Pebble's 
hollow claims of ``no harm.'' Pebble repeatedly said its studies were 
``state of the art'' and cost millions of dollars. However, state and 
federal agencies said over and over that Pebble's study objectives and 
methods were not statistically defensible or repeatable, and their 
financial cost was irrelevant.
    Pebble's baseline environmental studies were not designed to or 
intended by Pebble to tease out the differences between natural, long-
term environmental change and long-term acute or chronic effects of a 
mine, as recommended by the agencies. Pebble artificially limited the 
scope, time and geographic extent of their studies. State and federal 
agencies repeatedly suggested ways for Pebble to design scientifically 
defensible studies. Those suggestions were largely ignored. If the 
baseline environmental science is bad, Pebble cannot be held 
accountable for the damage it will do. Independent science clearly 
shows Pebble mine will result in disastrous long-term and irreversible 
effects on fish, wildlife, air, water and, most importantly, local 
people and their subsistence way of life. This may not happen in my 
lifetime, but it will happen.
    This then is the first major flaw of the Corps' EIS process. The 
Corps has not independently evaluated the inadequate baseline 
environmental information they were presented by Pebble. Rather, they 
accepted it and used it to develop their flawed draft EIS. The remedy 
for this fatal flaw is for the Corps to begin again. First, by 
conducting an expert and independent review of the Pebble baseline 
environmental studies, and then requiring Pebble to complete 
scientifically meaningful studies. This may take years, but only then 
should the Corps accept an application and begin an open and 
transparent EIS process.
    Agencies like the U.S. Fish and Wildlife Service, the Department of 
Interior, and the Environmental Protection Agency have noted numerous 
EIS deficiencies. For instance, the Department of Interior said the 
draft EIS ``does not fully discuss the potential impacts of the 
proposed mining activity'' and ``lacks a number of important analyses 
that are necessary to adequately assess the project.'' The Interior 
Department also said the draft EIS ``was so inadequate that it 
precludes meaningful analysis.'' The Corps has no responsible choice 
except to begin the Pebble EIS again.

Phil Brna is a retired wildlife biologist living in Anchorage.

    Ms. Mucarsel-Powell. Moving forward with this mine is 
utterly irresponsible and will be putting at risk $1.5 billion 
in annual economic output from the sockeye salmon fishery, 
which provides half of the world's supply. We will be putting 
at risk more than 10,000 jobs in the area. We will be putting 
many Alaska Native villages in harm's way to benefit a company 
that is not even a U.S.-based company. This is the epitome of 
carelessly putting profits over health and safety.
    And my first question, Mr. Collier, because I have watched 
you all morning rolling your eyes, listening to the concerns of 
the people that are actually living in this area. It was 
reported that if you were to get the permit by the EPA, a quick 
approval from the Corps, you will receive a bonus of $12.5 
million. Is that correct?
    Mr. Collier. Yes, it is.
    Ms. Mucarsel-Powell. OK. Thank you.
    Mr. Borden, the proposed mine would be operational for 20 
years. After that, it would, in theory, be reclaimed. But that 
doesn't mean that everything goes back to normal.
    Can you just explain how the mine would cause damage, long-
term damage, and the likely extent of the damage?
    Mr. Borden. Yes, I am happy to. So the Pebble Limited 
Partnership has proposed some mitigation actions at closure, 
which do lower some of the risks, such as returning the acid-
generating tailings and waste rock back to the open pit. But a 
lot of the other water quality issues that will persist for 
decades to centuries to potentially millennia have not been 
fully addressed.
    For instance, there will be a water treatment liability of 
probably 5,000 gallons per minute that will persist for 
centuries after mine closure coming from the pit high walls. 
There is a risk from the pit high walls failing, releasing 
billions of gallons of contaminated water after closure. 
Several of the relatively benign waste rock piles still produce 
water quality which is not suitable for release. All that water 
would need to be treated. And this could go on for decades and 
decades to centuries after the formal closure process.
    Ms. Mucarsel-Powell. Thank you, Mr. Borden.
    And I have heard from the minority Members on my left that 
we shouldn't be conducting this hearing. And I don't think 
there is anything more important than water. And it is our job 
to conduct this important oversight.
    Mr. McLerran, I am troubled also by the recent allegations 
of insider trading. You are a lawyer. You are a former EPA 
official. Can you help us understand what secrecy rules the EPA 
employees must abide when it comes to forthcoming EPA 
decisions?
    Mr. McLerran. So I can't speak to the current state of 
facts, but I can say that leaking decisions before decisions 
are made and then having someone capitalize on those could very 
well be an insider trading problem with----
    Ms. Mucarsel-Powell. Yeah. Thank you. And just because we 
are short of time. I just don't understand why there is any 
other explanation as to why there was such a significant 
increase in Northern Dynasty stock trades shortly before the 
EPA's decisions to lift the protections for the area.
    And for that, now I am going to----
    Mr. Collier. May I respond to that?
    Mr. Mucarsel-Powell. No. We are out of time. Thank you.
    Mr. Collier. So you make an allegation----
    Ms. Mucarsel-Powell. Mr. Westerman, I now recognize you for 
5 minutes.
    Mr. Westerman. Thank you, Madam Chair.
    And I would like to give Mr. Collier a moment to respond.
    Mr. Collier. Thank you.
    Northern Dynasty has denied unequivocally on the record, 
under oath, that we had any advance knowledge of that decision, 
zero. That complaint was filed by Earthjustice, which has a 
record of filing complaints that don't have adequate factual 
basis behind them. And, in fact, they filed one sometime ago 
against Northern Dynasty that the Securities and Exchange 
Commission didn't even find credible enough to investigate.
    There is no factual basis whatsoever for that claim, and it 
shouldn't be treated as though it is factual just because it is 
filed. That is not the way things work in this country. And so 
I want to adamantly state that we had no such advance knowledge 
at all of the decision, nor did we know what the decision was 
going to be.
    Thank you.
    Mr. Westerman. I would also like to make note that we have 
not said this is not an important issue. As a matter of fact, 
this is my third term in Congress, and this isn't the first 
hearing I have had on the Pebble Mine, not even the first 
hearing in--not just this committee, but the Natural Resources 
Committee. There has been hearing after hearing on the Pebble 
Mine. And we are actually now into the permitting process, 
using the guidelines that Congress has established, that the 
agencies are carrying out.
    Mr. Collier, have you been granted a permit?
    Mr. Collier. No, we haven't.
    Mr. Westerman. Have you been told you are going to get a 
permit?
    Mr. Collier. No, we haven't.
    Mr. Westerman. So we are letting the process play out. You 
may or may not get a permit when the process is complete?
    Mr. Collier. That is correct.
    Mr. Westerman. Can you talk more about the differences that 
are in the application you supplied versus what was reviewed in 
2014? I know you have talked about that some, but it is almost 
as if a case is being built that what was denied in 2014 is the 
exact project that is being proposed now.
    Mr. Collier. No. In fact, in the statement that was issued 
by EPA when it withdrew the proposed determination, one of the 
reasons that it said it was withdrawn is that the project that 
had been analyzed and the proposed determination based on, back 
in those early years, didn't bear any resemblance to the 
project that we took into permitting. And that, in fact, is 
true.
    There are a number of significant changes in that project. 
The first one, of course, is that it is smaller. The second is 
that we are out of one of the three creeks that are up in that 
area, which means we are out of one of the river watersheds. 
There are no waste rock piles as there were before.
    But perhaps the most interesting change deals with the 
tailings facility design, where we have gone to a unique design 
that is now capable of being done because of some technological 
development, where we are able to separate out the bulk 
tailings, which are about 90 percent of the tailings, from the 
potentially acid-generating tailings, which are about 10 
percent. And that means that we can store the bulk tailings 
without storing them with water on top. And what that means is 
that the facility is a much safer facility. It is a facility 
that is not capable of the kind of accident that occurred in 
Mt. Polley in British Columbia that caused a great deal of 
concern in the mining community.
    So we have been able to do some technological designs that 
have made this project substantially safer and a project that 
is dramatically different from the one that was analyzed by EPA 
earlier when the proposed determination was issued.
    Mr. Westerman. So, again, even with all those changes, with 
the redesign, the new submittal, you still don't know whether 
or not you will get a permit when the process is through?
    Mr. Collier. That is correct.
    Mr. Westerman. And, again, we could be working on a water 
bill today, we could be working on other issues that are 
important before Congress. This has been debated over and over. 
I want to reemphasize, it is in the permitting process that was 
established by NEPA. They are going through those processes, 
and there is no predetermined outcome. Yet we do know that WRDA 
expires next year, we do know that the surface transportation 
bill expires next year, yet we are spending our time debating 
something that is going through the proper channels.
    And I yield back.
    Mr. DeFazio [presiding]. I thank the gentleman.
    I would observe this committee has not held a focused 
hearing on the Pebble Mine project previously. We have Clean 
Water Act jurisdiction, we have Corps of Engineers 
jurisdiction, and personally, I have people who fish there.
    With that, I would go to Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman.
    I am so grateful that the committee is having this 
critically important hearing. And I want to follow up on a 
colloquy between Mr. Collier and my colleague Don Young from 
Alaska alluding to the fact that, notwithstanding all of this 
widespread opposition of the Pebble Mine, that if you get 
closer to the mine in the Lake Iliamna area, that there are 
people that actually support it.
    And so I want to ask my friends from Alaska on the right 
side of the panel here a pretty simple question. Is Lake 
Iliamna upstream of the mine or downstream?
    Ms. Hurley. Downstream.
    Mr. Huffman. I believe it is upstream, is my understanding, 
of the dam that would be proposed?
    Ms. Hurley. Oh, I am sorry. I misunderstood your question. 
Yes. My communities are downstream.
    Mr. Huffman. Yeah, you are downstream. I get that.
    Lake Iliamna, this area where we are led to believe there 
is a pocket of support for the project, is actually upstream.
    Mr. Collier. That is just not correct.
    Mr. Huffman. Not correct?
    Mr. Collier. Absolutely not correct. It is dramatically 
downstream.
    Mr. Huffman. All right. Well, I appreciate that, because 
from the map I have here, it was not clear to me.
    It is downstream of the dam?
    Mr. Collier. Absolutely downstream.
    Mr. Huffman. OK. Well, thanks. That answered a question 
that I had for--just based on the map.
    I also have questions based on a conversation involving the 
bond. And Mr. Collier has led us to believe that all of the 
concerns about permanent water treatment at a dam that would 
hold in perpetuity, an earthen dam in a seismically active area 
that would hold in perpetuity, that all that can be addressed 
by a bond.
    And, Mr. Borden, I want to just invite you to speak a 
little more to that issue, because it seems to me that that is 
asking us to put a lot of trust in this bonding instrument.
    Mr. Borden. I need to be careful how I respond to this. I 
haven't given this a lot of thought. But it is very difficult 
to bond for perpetual water treatment using the existing 
mechanisms that we have in place now generally around the 
world.
    You know, these things persist--there are mines in Spain 
that the Romans mined that are still producing acid rock 
drainage. So these problems can persist into the post-
historical period, if you will, and that is a challenging thing 
to bond for.
    Mr. Huffman. And there would actually need to be active 
measures to treat this water. It is not like the system would 
operate itself in perpetuity, correct?
    Mr. Borden. It would eventually burn itself out as the 
sulfide minerals, the reactive minerals in the ore body that 
are left in the pit high walls and in the mined rock----
    Mr. Huffman. What about this huge earthen dam itself? 
Because, you know, I am from California. We know a little 
something about dams and even highly engineered ones that are 
very carefully maintained. Like my colleague, Mr. Garamendi 
from Oroville, could probably share with us the fact that there 
is no such thing as a permanent dam. You can't just leave a dam 
there in perpetuity without at some point experiencing failure.
    Am I missing something about this concept of a permanent 
dam that would perpetuate itself forever?
    Mr. Borden. So the dam has been built with additional--is 
proposed for construction with additional safeguards. That 
doesn't mean it won't require long-term, perhaps in perpetuity, 
care and maintenance for erosion control, all of the other 
issues that could compromise the integrity of the dam in the 
long term.
    Mr. Collier. Congressman, this dam doesn't hold any water. 
You know that, right? This is a dam that holds sand.
    Mr. Huffman. Well, we also heard about how much water is in 
the area. So, Mr. Borden, let me----
    Mr. Collier. It is a dam that is built so that the water 
drains through the dam. It doesn't hold water. I just want to 
make sure you are focused on the right----
    Mr. Huffman. Well, I am questioning Mr. Borden right now, 
because he has got years of experience and has actually said--
--
    Mr. Collier. Yeah, but he is wrong on this point.
    Mr. Huffman [continuing]. Has said that the high amount of 
water in this area is one of his primary concerns. So why don't 
you elaborate on that, sir.
    Mr. Borden. Sure. So even with the proposed cover design, 
water will infiltrate into the underlying tailings. And I would 
expect the majority or--a significant minority of the tailings 
will remain saturated in perpetuity after closure because of 
the extremely wet climate.
    Yes, it is better than having a lake on top of a dam, but a 
lot of the tailings will still be prone to liquefaction and 
slurring and things of that sort.
    Mr. Huffman. All right. And you mentioned that the 
environmental review that has been done to date is deficient. 
Is this one of the areas in which you see deficiencies, the 
failure to adequately consider the possibility of failures and 
leakage and problems relating to that structure?
    Mr. Borden. Yes. We are almost out of time. But the largest 
failure scenario looked at for that structure only released 
.004 percent of the tailings due to a pipeline break, 100 times 
smaller than 3 of the large tailings dam failures that have 
occurred in Canada and Brazil over the last 5 years.
    Mr. Huffman. Thank you, sir. I yield back.
    [Mr. DeFazio and Mr. Westerman talk briefly off record.]
    Mr. Westerman. Thank you, Mr. Chairman.
    Ms. Costa, in 2010, in a letter to the U.S. Securities and 
Exchange Commission, Tiffany & Co. stated that the company 
believes that it would be impracticable and extremely costly to 
attempt to trace the chain of custody to determine the mine or 
location of origin of the gold it uses in the manufacture and 
sale of its products.
    The lack of any identifying characteristics means that the 
company and any other purchaser of refined gold bullion cannot 
identify where the gold originated. As a result, the company 
does not believe that it or any jeweler, whether or not it 
manufactures its products, can certify where the gold used in 
its products is originated.
    And, Mr. Chairman, with that, I would like to submit that 
for the record, a letter from Tiffany & Co. without objection.
    Mr. DeFazio. We will accept it for the record, but I am 
going to be giving Tiffany an opportunity to respond.
    [The information follows:]

                                 <F-dash>
    Letter of September 29, 2010, from Patrick Dorsey, Senior Vice 
President, Secretary and General Counsel, Tiffany & Co., Submitted for 
                   the Record by Hon. Bruce Westerman
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Mr. Westerman. So, Ms. Costa, my question is: Since 2010, 
have you come up with technology or a method to determine chain 
of custody on the gold that you use; and can you certify that 
all gold that you use comes from sustainable mining?
    Ms. Costa. So, we have been quite transparent in terms of 
our sustainability reporting and our supply chain for many 
years now on our website. I can't speak to that particular 
document off the top of my head; but we do source the precious 
metals that we use in our manufacturing processes from the 
U.S., from Bingham Canyon Mine, for example, in Utah. The gold 
comes from there.
    Mr. Westerman. So you have made some kind of change since 
2010 where you can do that?
    Ms. Costa. I am not clear exactly what that was in 
reference to, like, what the broader context was.
    Mr. Westerman. It was a letter that Tiffany & Co. sent to 
the U.S. Securities and Exchange Commission in 2010.
    Ms. Costa. Yes, probably regarding conflict minerals in the 
DRC specifically, I am guessing; but we do have traceability of 
our gold and precious metals that we secure from the U.S.
    Mr. Westerman. Do most jewelers have that capability now?
    Ms. Costa. No, they do not.
    Mr. Westerman. What makes gold traceable?
    Ms. Costa. I mean, for us, it is because we have a 
vertically integrated supply chain. So we manufacture as well. 
So we are purchasing gold, for example, from the Bingham Canyon 
Mine. There is a smelter on site, and we manufacture.
    Mr. Westerman. Do you use any recycled gold?
    Ms. Costa. We do use recycled gold as well.
    Mr. Westerman. How do you know that came from sustainable 
practices?
    Ms. Costa. Well, I think it hinges on your definition, and 
recycled gold is not needing to mine gold from scratch from new 
mines, and the mine that we do source from has been in 
existence for quite some time now.
    Mr. Westerman. Do you know if it went through permitting?
    Ms. Costa. It is the Bingham Canyon Mine. So--in Utah, so--
--
    Mr. Westerman. So the process worked for that mine?
    Ms. Costa. I am not familiar with what the process was at 
the time when it--when that mine was permitted because it was 
so long ago but it is in existence. It was permitted.
    Mr. Westerman. OK. I yield back.
    Mr. DeFazio. Oh, Mr. Lowenthal is next. He is recognized.
    Mr. Lowenthal. Thank you, Mr. Chair.
    Mr. McLerran, I am going to follow up about that--the 
questions about the draft EIS, and I apologize if some of them 
have been asked before. I am just trying to dig a little deeper 
about some of the terminology.
    And so, my first question is: In the September 2019 
presentation to investors, the Pebble project stated that the 
draft EIS and the public comment, and I quote now, ``show no 
substantive data gaps,'' no substantive data gaps. However, EPA 
comments on the draft EIS identify the need for further 
analysis of groundwater impacts, water quality impacts, wetland 
impacts, fishery impacts, and air quality impacts.
    So, my question to you is: Are these substantive data gaps?
    Mr. McLerran. So I have reviewed the EPA comments on the 
draft EIS, and there are clear indications that there are 
substantive gaps in the data and in the analysis, and part of 
that is based on the fact that much of what is presented in the 
mining plants are just conceptual level, and not designed at a 
level that allows the appropriate level of analysis.
    Mr. Lowenthal. So following up, that same presentation that 
was made to investors declares that the process that they went 
through, that it went through, identified no significant 
impacts that can't be mitigated. But the mine's compensatory 
mitigation plan does not identify any proposed mitigation 
projects, and I believe your testimony indicated that 
compensatory mitigation would not be effective in this 
watershed.
    The first question is: Are these significant impacts?
    Mr. McLerran. Yes, I believe they are. You know, when we 
did the watershed assessment, we spoke to some of the best 
fishery scientists in the world, the folks who had been working 
in the Bristol Bay watershed for over 30 years; and the 
conclusions that were made out of the watershed assessment were 
that compensatory mitigation would not be effective in a 
pristine watershed. Compensatory mitigation is typically used 
in the context of a disturbed watershed where we are trying to 
restore habitat or restore salmon runs. Here you have a wild 
fishery that is in a pristine area that has been undisturbed 
and, again, our scientists felt that compensatory mitigation 
just was not an appropriate concept here and wouldn't work in 
this context.
    Mr. Lowenthal. I appreciate that, and I just want to be 
clear. So compensatory mitigation would not be effective.
    Mr. McLerran. That was certainly our conclusion in the 
watershed assessment.
    Mr. Lowenthal. Thank you.
    And I yield back.
    Mr. DeFazio. I thank the gentleman.
    Mr. Westerman. Just a quick question. Yield some time to 
Mr. Collier to talk about mitigation features that are planned 
for the Pebble project.
    Mr. Collier. There are substantial compensatory mitigation 
options that are identified in the draft environmental impact 
statement, and there will be a compensatory mitigation plan 
that will be required to be implemented as part of the 
permitting process as we go forward. We have identified a 
number of particular options, all kinds of issues that can be 
addressed in the area. One of them deals with culvert 
replacement; another deals with wastewater treatment facilities 
in a number of the villages. There are ways to do mitigation 
that will compensate in terms of clean water in the region.
    Alaska has a particularly interesting challenge with 
respect to compensatory mitigation and it is one that the 
agencies, both EPA and the Corps of Engineers, struggle with on 
a regular basis and recently entered into a memorandum of 
understanding so that they could identify those projects. But 
the statute requires compensatory mitigation. There is 
compensatory mitigation discussed at length in chapter 5 of the 
DEIS, and there will be a required compensatory mitigation plan 
that will be part of the permit when the permit is issued.
    Mr. Westerman. So, in 2015, former Secretary of Defense 
William Cohen undertook an independent examination of EPA's 
2014 proposed preemptive veto, and in his report, he 
highlighted that the watershed assessment was based on, quote, 
``hypothetical assumptions that may or may not accurately or 
fairly represent an actual project'' and ``raise serious 
concerns as to whether EPA orchestrated the process to reach a 
predetermined outcome.''
    As I mentioned earlier, this isn't the first hearing on the 
Pebble Mine in Congress. I believe I sat on at least one under 
the Science, Space, and Technology Committee, at least one, 
maybe more, under the Natural Resources Committee. You know, I 
remember one of the characters in the story was a guy that, 
when we tried to question him, he was off somewhere on his 
yacht; and it was very hard for us to reach this former EPA 
employee.
    Can you talk more about the controversy surrounding several 
of the former EPA staffers who managed that process?
    Mr. Collier. Yes, and just a bit about the Cohen report. 
When I saw what had happened, I was involved in helping to run 
a Federal agency. I worked with Mr. Garamendi at the Department 
of the Interior. And I was personally shocked is at the level 
of conflict of interest that had occurred with respect to the 
involvement of environmental NGOs in the drafting of this 
document, in the outline of this document, and the review of 
drafts of this document, and so forth. And I couldn't get any 
attention from folks at EPA about these concerns. So I needed 
some kind of independent credibility behind them and looked 
around in the town of Washington. This is a town that is short 
on people with high reputations for credibility.
    But I found former Secretary Bill Cohen, who had been a 
Republican, both Congressman and Senator from Maine, and then 
served in the Clinton administration as Secretary of Defense.
    When I sat down with Secretary Cohen to ask him to take on 
this project, he said to me right off the bat, he said, Tom, 
you don't want me to do this. And I asked him why I wouldn't 
want him to do it. And he said, because I value my reputation 
for independence and credibility, and if I take a deep dive 
into this and look at it, I am going to call it as I see it, 
and I might just say that what EPA has done is correct and 
right. And if I do, that is the end of Pebble Mine.
    And I said, well, you know, that is what I am after, 
Senator. I am after somebody that has that kind of reputation.
    And so, he took the project on, and you read his 
conclusions when he looked at it. And he looked at it 
thoroughly. He wrote a 300-page report. He looked at thousands 
of documents, interviewed 60-some-odd witnesses, and came up 
with that particular conclusion. And I think he captured it 
well.
    The examples, one of the things that I was interested in 
that Mr. McLerran talked about, was that the reason he took 
this on and took it so personally is that a petition had been 
filed from a number of the Tribes in the region; but the 
documents show, and the deposition testimony show, that what 
actually happened is that Phil North, an EPA employee, was the 
one that decided that he wanted to start this process, and he 
helped draft that petition.
    Mr. DeFazio. I would note that we are wasting a lot of time 
on a document that has been withdrawn by the Trump 
administration. It is sort of like Trump obsessing over Clinton 
and Obama and whatever. So I hope we don't waste much more time 
on that. It has been withdrawn.
    We have the current statements from EPA and Department of 
the Interior, saying that basically, there is not sufficient 
evidence in the DEIS to substantiate moving forward, and it 
should be substantially revised.
    With that, I recognize Mr. Rouda.
    Mr. Rouda. Thank you, Mr. Chairman.
    And thank you, panel, for joining us today.
    Mr. Collier, I want to talk a little bit about the process 
on how we got here today. The EPA and the Army Corps of 
Engineers have made decisions with regard to the proposed 
mining project that EPA scientists have flagged issues with the 
work done by the Army Corps of Engineers in their draft 
environmental impact statement. Yet, despite these concerns, 
the EPA political leadership decided to allow your project to 
proceed through the permitting process. Additionally, the Army 
Corps of Engineers decided to release a draft scoping report, a 
completely unprecedented move that is not a part of the 
standard NEPA permitting process, just 42 days into the 90-day 
scoping period for your project.
    This draft report was released publicly just days after 
your project lost its fourth major institutional investor, and 
saw a rapid drop in your stock price. This atypical release 
gave your project a sense of momentum at a critical juncture, 
and this committee has a very little sense about how that 
decision to release that report came about. The Government has 
refused to disclose its communications, and we want 
transparency as to how that happened.
    Mr. Collier, will you commit to producing all written 
communications between your companies or their representatives, 
and the EPA and the Army Corps of Engineers from the last 2\1/
2\ years?
    Mr. Collier. I need to consult with my lawyers, but it 
sounds to me as though that is a reasonable request and we 
would consider it.
    Mr. Rouda. The committee would like to understand exactly 
what transpired. So thank you for your commitment to provide 
that documentation.
    Mr. Collier. My commitment was to consider it, and I will 
certainly do so.
    Mr. Rouda. If it is not protected work legal product, is 
there any reason you can imagine why you wouldn't produce it?
    Mr. Collier. I have got to talk to my lawyers to find out, 
sir.
    Mr. Rouda. On May 1 of 2017, you met with then-EPA 
Administrator Scott Pruitt. At 10:36 a.m. That same day, after 
your meeting, he sent an email to EPA staff, directing them to 
withdraw the agency's proposal to protect Bristol Bay using 
section 404(c) of the Clean Water Act.
    Previously, the EPA had put forth language protecting the 
bay that said a mine, quote, ``would result in complete loss of 
fish habitat due to elimination, dewatering, and fragmentation 
of streams, wetlands, and other aquatic resources . . . All of 
these losses would be irreversible,'' unquote.
    The EPA arrived at this language after more than 3 years of 
scientific study of the issue.
    Mr. Collier, what was discussed in that May 1, 2017, 
meeting with Scott Pruitt that would make him, in a matter of 
minutes, cast aside lengthy scientific study that had been 
subject to over 1 million comments and allow this to proceed 
forward?
    Mr. Collier. He didn't do that.
    Mr. Rouda. He didn't do that?
    Mr. Collier. You have got your facts wrong. He didn't--that 
is not what he did.
    Mr. Rouda. You are denying that he took----
    Mr. Collier. Absolutely.
    Mr. Rouda [continuing]. An email out to the EPA, moving 
this forward?
    Mr. Collier. Absolutely. He did not withdraw the proposed 
determination. It wasn't withdrawn until July of this year.
    Mr. Rouda. Did Administrator Pruitt then, in that conver--
why don't you tell us what took place in that conversation?
    Mr.  Collier. Sure. I had been in negotiations, Pebble had 
been in negotiation with the Obama administration for months to 
settle pending litigation. And, in fact, we had reached a 
settlement with the Obama administration. The Justice 
Department had signed off. I was told that EPA had signed off 
on that settlement, and that all we all had to do was sign the 
documents.
    I signed. I understood that the Justice Department signed. 
And it got over to Gina McCarthy's desk; and for some reason, 
she reneged on what I understood had been an agreement that the 
settlement would, in fact, occur.
    Mr. Rouda. Well, let me ask you this: In that meeting, you 
are saying that the email to move the procedure forward didn't 
happen until July instead of immediately after? Did he 
greenlight your project in that meeting?
    Mr. Collier. I am saying that the withdrawal of the 
proposed determination didn't happen until July of this year.
    Mr. Rouda. Did he greenlight the project in that meeting?
    Mr. Collier. He didn't greenlight the project at all.
    Mr. Rouda. He gave you no indication of moving forward. He 
gave no positive feedback. So you would be willing to provide 
any information, any memorandum that you have----
    Mr. Collier. You just got your facts wrong. Talk to your 
staff. You are wrong on this. That is not what he did.
    Mr. Rouda. And are you happy to produce any memorandum and 
internal documents that you have that document that meeting?
    Mr.  Collier. Again, I will talk to my lawyers about what I 
will produce for you; but you have got your facts wrong on what 
Mr. Pruitt did after----
    Mr. Rouda. Well, tell me is this quote correct that: ``I 
believe that a lot of these environmental organizations choose 
issues in Alaska, they make them cause celebre so they can 
raise money around them, and they choose Alaska primarily 
because they don't have to suffer the backlash from the 
economic impact of the project being killed because no one 
gives a rat's ass what happens in Alaska,'' unquote.
    That is attributable to you.
    Mr. Collier. That is my quote.
    Mr. Rouda. Thank you.
    I yield back.
    Mr. DeFazio. I would recognize that the question was 
whether Pruitt sent an email, directing staff to withdraw 
after, immediately after he met with you; and I believe the 
answer to that is yes. He did send an email. It is true. It 
wasn't withdrawn until later because he got so much blowback, 
but is it true----
    Mr. Collier. He didn't discuss----
    Mr. DeFazio [continuing]. That he sent an email, directing 
staff to withdraw after you met with him? Is that correct?
    Mr. Collier. That is not my understanding of what happened, 
Congressman.
    Mr. DeFazio. Well, I think your facts are incorrect.
    Mr. Collier. Thank you.
    Mr. DeFazio. Mr. Westerman, do you want to yield more time 
to the CEO of the assetless company?
    Mr. Westerman. I would like to yield a little time to Mr. 
Collier, if he would like to make a rebuttal.
    Mr. Collier. What Mr. Pruitt and I discussed was a 
settlement, a pending litigation, and it was a settlement that 
originally had been reached with the Obama administration. 
People settle cases for all different kinds of reasons. I 
believed at the time that the reason the Obama administration 
was willing to enter into this settlement is because they 
thought they were going to lose the litigation that we brought, 
which claimed that EPA had not followed statutory law in terms 
of process to make decisions like this.
    And so, we litigated that point, and we reached a 
settlement agreement. That settlement at the last minute was 
reneged upon after we had been told it had been agreed to. So 
that settlement was dormant until the new administration came 
in, and then we began the settlement negotiations again and we 
agreed to a settlement that was fairly similar to the one we 
would have agreed to under the Obama administration.
    And that was a settlement that was then before EPA for its 
approval. I met with Mr. Pruitt to discuss with him whether it 
was appropriate to agree to that settlement, again, a 
settlement that had been agreed to by the Obama administration; 
and Mr. Pruitt agreed to it.
    He wasn't reversing anybody's science. He was settling a 
case because EPA failed to follow appropriate process, and that 
is the reason that we were having that discussion.
    Mr. Westerman. I have no more questions, Mr. Chairman.
    But I would like to say that, you know, the facts are that 
there is a process that is underway, a process that has been 
established by Congress. This is in the State of Alaska, a long 
ways away from the State of Arkansas where I live, but Alaska 
is a beautiful place, and we certainly want to keep it a 
beautiful place.
    I know that the world depends more and more on critical 
elements, elements that are needed to make electronics, 
elements that are needed to make renewable energy components, a 
vast amount of those elements that we are relying on places 
like China to supply right now, in disproportionate amounts we 
are relying on China to supply.
    So that is why we created processes, so that we can have a 
fair process to go through to determine whether we want to 
extract these resources from our country and from our States; 
and the facts are the process is taking place. There has been a 
draft EIS, there are comments. There are a lot of hurdles that 
still have to be overcome by Mr. Collier's company.
    At the end of the day, EPA still has veto authority under 
404(c). So I guess it never hurts to debate things in Congress, 
but why do we set up these processes and entrust the 
administration and the agencies to carry out the processes if 
we are going to--I guess, you know, Congress could pass a law 
to say you can't do this Pebble Mine development. But are we 
going to do that with every project that comes along?
    It just seems to me like we are undermining the very 
stringent processes that we have put in place to deal with 
issues like this when, quite frankly, we have other big issues 
that we need to be dealing with.
    And I will yield back.
    Mr. DeFazio. I thank the gentleman.
    I will yield myself such time as I may consume.
    I will observe next week we will do the first 
reauthorization of a Clean Water SRF since 1987. At this point, 
your side has not agreed. I met with the ranking member last 
night. They wanted a much lower number, pathetically low, but 
then they also wanted some things that would impact the 
environment, and we have drawn a line there.
    So, you know, we will see. I have asked the ranking member 
to consult with your side and see if that is where you are 
going to stick, and, if so, unfortunately, we will move ahead 
with that bill.
    We are also drafting a surface transportation bill. We will 
do a WRDA bill that was never scheduled to begin until next 
year. And we are very busy, and, of course, we have the MAX 
hearing coming up next week. So, we are paying attention to 
business.
    I just go back to all this discussion about a fair process, 
and this can't be restated too many times. EPA's 2019 Donald 
Trump EPA says the DEIS, quote, ``likely underestimates adverse 
impacts to groundwater and surface water flows, water quality, 
wetlands, fish resources, and air quality,'' end quote.
    And then it goes on to say--and this is footnoted--and 
including the ability of the proposed water treatment plan to 
annually meet water treatment goals and water quality standards 
in perpetuity.
    That is a long time, perpetuity, although I guess we heard 
from Mr. Borden it might only be a few centuries before this 
stuff becomes less active.
    And then they go on to say, the DEIS does not evaluate the 
consequences of a potential tailings dam failure, which, of 
course, depends upon the size of the mining operations, and 
recommends that a breach or failure scenario should be 
developed, footnote.
    And then we have the cites here. Now that is Donald Trump's 
EPA; and we are saying this is a straight-up, good process. The 
Corps hasn't rushed this through, the Corps that is going to 
hold a press availability afterwards to try and pump the stock 
back up, which probably fell during this hearing. You know, 
that is just extraordinary to me, and we are going to be--I 
think the Corps may be answering some very stern questions 
regarding, this and disclosing documents regarding how they got 
to produce such a defective document.
    In addition, the U.S. Department of the Interior, under 
Donald Trump, submitted comments suggesting the DEIS, as 
prepared, does not follow NEPA requirements and conventions for 
data inclusion or analysis for an activity of this scope and 
scale. They recommend the Corps prepare a revised or 
supplemental DEIS for public review.
    And we are talking about a straight-up process here, and 
they are rushing this through with the minimal comment period. 
Seriously? We are saying this is normal? I guess this may be 
normal in this administration, but it is not the way the 
process is supposed to work and that is why we are here today.
    Now, Mr. Borden, you made a statement that Mr. Collier 
contradicted, that it is virtually unprecedented--I think one 
of your figures of 99 percent, one was 90--talking about both 
the water treatment and dams of this size and the containment. 
And he said, no, no, there are lots of examples around the 
world.
    And, Mr. Borden, I will give you another chance to back 
down on that; and then we are going to ask Mr. Collier to list 
them.
    Mr. Borden. So I do want to clarify it is unprecedented for 
flows of this volume to be linked with a water treatment plant 
of this complexity, which is what I had said earlier; but I 
just want to restate that.
    Mr. DeFazio. OK.
    Mr. Borden. The tailings dam height is certainly, almost 
certainly, in the upper 99th percent of those that have been 
built across the world throughout the history of mining in the 
world.
    Mr. DeFazio. OK. OK. Now, Mr. Collier, regarding the water 
treatment, what he just stated.
    Mr. Collier. He is just wrong.
    Mr. DeFazio. OK. He is wrong. OK. Tell me about your 
engineering background?
    Mr. Collier. I don't have any, but I have got a bunch of 
them that work for me and I rely on them.
    Mr. DeFazio. They are all paid by the assetless corporation 
that you are representing before us today.
    Tell me this, Mr. Collier. Why did Rio Tinto, First Quantum 
Minerals, Anglo American, and Mitsubishi, all withdraw their 
support? And, further, why has Northern Dynasty not taken an 
equity stake and exposed themselves to potential liability with 
your project? Instead you have a shell corporation with no 
assets.
    Mr. Collier. Well, two questions. As to the first, I know 
most about the Anglo situation. That was the partner that was 
with us the longest, and Anglo publicly stated and assured us 
personally that the reason they withdrew was because of their 
own financial situation at the time and that it had nothing to 
do with the Pebble project and I think they would have, in 
fact, liked to stay in the project.
    Mr. DeFazio. Mitsubishi, First Quantum, Rio Tinto. Mr. 
Borden worked for them for 23 years. I think Rio Tinto has a 
hell of a lot of assets out there.
    Mr. Collier. I believe that is the reason why they all 
withdrew.
    Mr. DeFazio. Really? Rio Tinto felt that this project was 
just--that they are in such financial difficulty now that they 
couldn't participate.
    Mr. Collier. No, I think they withdrew because of reasons 
that deal with their internal management decisions as to where 
they wanted to concentrate their resources. At that time, Rio 
Tinto was beginning to concentrate more in iron ore and less in 
what we were.
    Mr. DeFazio. OK. First Quantum.
    Mr. Collier. First Quantum, because I think they were 
focusing instead on their project in Panama.
    Mr. DeFazio. Mitsubishi?
    Mr. Collier. That is way before my time, and I don't know 
why that happened.
    Mr. DeFazio. OK. So, you have Northern Dynasty, who, again, 
has no equity stake in Pebble?
    Mr. Collier. Yes, it does, by the way. I don't understand--
--
    Mr. DeFazio. They are not part of the shell corporation. 
They have----
    Mr. Collier. What shell corporation are you referring to?
    Mr. DeFazio. Pebble.
    Mr. Collier. Pebble is a partnership, and the sole partner 
in the partnership is Northern Dynasty. There is no shell 
corporation.
    Mr. DeFazio. So it had--so they are linked and they would 
have potential liability.
    Mr. Collier. Absolutely.
    Mr. DeFazio. OK. That is good to know, because then we have 
some assets in the future.
    And then I would like to go back to Ms. Costa, because I 
quickly read the documents submitted. It was 2010, and there 
was huge controversy about blood diamonds and blood gold, and 
it does--there is--it seems like that is what it is referring 
to.
    But essentially, you--Tiffany has made a judgment that this 
would--is not a desirable or sustainable project, and would 
cause irrevocable environmental harm.
    Ms. Costa. Correct. And I think, simply put, the precedent 
that Pebble Mine would set by bringing materials that are mined 
from that site into the broader market is bad for consumer-
facing companies because it erodes, to me, it would erode the 
public's confidence in environmental and social practices and 
mining companies.
    Mr. DeFazio. OK. All right.
    Any of the other--we have heard a lot from Mr. Collier, 
thanks to us yielding all this time. The Republicans have 
yielded it all to him. Would anybody else on the panel like to 
summarize?
    Yes, Ms. Hurley.
    Ms. Hurley. I would just like to thank you for the 
opportunity. I would like to clarify. I think there was a 
fundamental misunderstanding from the beginning that the Pebble 
Limited Partnership has total support around Lake Iliamna, and 
that simply is not true. To correct the record, you know, there 
was a misleading statement made that United Tribes of Bristol 
Bay doesn't represent people around the lake, and that is not 
true; Nondalton, one of the closest communities to the mine, 
and Pedro Bay. Those misleading comments really capture the 
company's dismissive attitude of our people's concerns.
    And I would also like to correct the record that the 
Bristol Bay Native Corporation, one of the major landholders in 
the region, and the Pedro Bay Corporation are very much opposed 
to this project and have not granted access to the company for 
their project.
    Lastly, I will just say that I am so thankful to be here 
today. There is no guarantee that there is no risk, you cannot 
change the location and type of this mine. And I am just so 
thankful that we are being heard because the Corps is not 
listening. They have proved they are not going to listen, and 
we really need Congress to intervene and help the people of 
Bristol Bay. So, thank you very much for having us here.
    Mr. DeFazio. OK. Mr. McLerran.
    Mr. McLerran. So I just want to refute a couple of things 
that Mr. Collier said. One is that the only independent review 
of the EPA's actions in preparing the watershed assessment was 
completed by the Office of the Inspector General. The Office of 
the Inspector General concluded that there was no 
predetermination, and that we followed all of the statutory 
procedures and did the science in the right way.
    And because I was the decisionmaker, I want to state 
unequivocally that I had not predecided this issue until all 
the evidence was in. We did the scientific assessments so we 
would learn more about the watershed, learn more about whether 
the petition should be responded to in the way we did, and it 
was not until the weeks after the watershed assessment was 
completed that we made those decisions. And there were two 
different Administrators at EPA that were involved in the 
discussions around that. At the very end it was Gina McCarthy.
    So I can state unequivocally this was not predetermined in 
any way.
    Mr. DeFazio. OK. Thank you for clarifying that.
    I believe Mr. Huffman has one last question for the second 
round.
    Mr. Huffman. I did. Thank you, Mr. Chair.
    We have had a great conversation about the impacts of the 
proposed Pebble Mine, and I have learned a lot from this 
conversation. So thank you, including the significant impacts 
of even the downsized project that Mr. Collier describes.
    But it strikes me that we also ought to have a conversation 
about the fact that this wouldn't be the end of the mining 
impacts in this area.
    And I want to ask you, Ms. Hurley. I would assume, given 
how wild this area is, that the lack of infrastructure is one 
reason why we don't have a whole bunch of huge mines in the 
Bristol Bay watershed. And I look at the project description 
here for this project and it includes massive changes to the 
landscape, a new port, transportation corridor, natural gas 
pipeline, permanent massive changes to the landscape.
    And I am wondering, what does that mean? Even if we can 
maybe mitigate the impacts of this one mine project, does this 
open the door to other permanent and far-reaching changes to 
the Bristol Bay watershed that we ought to think about before 
we start down that road?
    Ms. Hurley. Most definitely.
    You know, I think anyone who is paying attention and knows 
about Bristol Bay issues knows that this would just be the 
beginning, that this would transform what is now salmon country 
for the entire planet into a toxic mining district.
    When the watershed assessment was released, it mentioned 17 
other active mining claims in the area. Today, that number has 
grown to over 25, I believe, the number is. So when we are 
looking at this, we are looking at this for generations, 
because this is where we come from, this is our home. This has 
the power to completely transform this place, and not in a way 
that anybody wants.
    Mr. Huffman. All right. I will ask Mr. Borden to follow up 
on that. As an expert in the mining industry, would the 
presence of all of this expansive infrastructure change the way 
mining companies look at the Bristol Bay watershed? What are 
the implications?
    Mr. Borden. Yes. I would have to say, once the 
infrastructure is in place, the transport infrastructure--
powerplant, ports--that is upfront capital that would not 
theoretically be needed to develop other mines in the area.
    Mr. Huffman. All right. Thank you, Mr. Chairman.
    I yield back.
    Mr. DeFazio. I thank the gentleman for that.
    And at this point, I am going to ask unanimous consent that 
the record of today's hearing remain open until such time as 
our witnesses have provided answers to any questions that may 
be submitted to them in writing and there was some discussion 
of that earlier, and unanimous consent that the record remain 
open for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in today's 
hearing.
    Without objection, so ordered.
    Again, I would like to thank our witnesses today and I 
would add, you know, you can tune in to the promotional, which 
is totally inappropriate, by the Corps of Engineers which will 
be playing soon after this hearing and I will be discussing 
that with the Secretary and with the Corps itself. I find it 
very inappropriate.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:32 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


 ``EPA's Bristol Bay Watershed Assessment: Obtainable Records Show EPA 
 Followed Required Procedures Without Bias or Predetermination, but a 
Possible Misuse of Position Noted,'' EPA Report No. 16-P-0082, January 
      13, 2016, Submitted for the Record by Hon. Peter A. DeFazio
    [The report is retained in committee files and is available online 
at: https://www.epa.gov/sites/production/files/2016-01/documents/
20160113-16-p-0082.pdf.]

                                 <F-dash>
 ``Report of an Independent Review of the United States Environmental 
   Protection Agency's Actions in Connection With Its Evaluation of 
    Potential Mining in Alaska's Bristol Bay Watershed,'' Executive 
Summary, The Cohen Group and DLA Piper LLP, October 6, 2015, Submitted 
                 for the Record by Hon. Bruce Westerman
Secretary William S. Cohen
The Cohen Group
DLA Piper LLP (US)

October 6, 2015
Executive Summary
    In fall 2014, I was approached by the Pebble Partnership (``Pebble 
Partnership'' or the ``Partnership'') to review the actions of the 
United States Environmental Protection Agency (``EPA'') in connection 
with its evaluation of potential mining in southwest Alaska's Bristol 
Bay watershed. The Partnership holds mineral claims to lands owned by 
the State of Alaska in the headwaters of the Nushagak and Kvichak 
Rivers of the Bristol Bay watershed (the ``Pebble Deposit Area'').\1\ 
This area contains one of the largest known undeveloped deposits of 
copper in the world, and the Pebble Partnership has been exploring the 
development of a mine there for more than a decade.\2\ The area is also 
home to one of the most prolific salmon runs in the world.\3\ The 
commercial salmon industry dominates the private sector economy of the 
Bristol Bay region, and Alaska Natives who reside there have maintained 
a salmon-centered culture and subsistence-based lifestyle for thousands 
of years.\4\ In July 2014, EPA proposed substantial limits on 
development in the Pebble Deposit Area.\5\
---------------------------------------------------------------------------
    \1\ See Background Facts at Sections II.D.1 and II.D.3.
    \2\ See id. at Sections II.A and II.D.3.
    \3\ See id. at Section II.A.
    \4\ See id. at Section II.C.
    \5\ See id. at Section IX.
---------------------------------------------------------------------------
    The Pebble Partnership has expressed the concern that EPA's 
decision-making process and proposed limits were unfair and wanted an 
objective party to examine those concerns. The Partnership asked me to 
review EPA's actions through the lens of how Cabinet-level agencies 
make decisions on important public policy questions, given my 
experience in the Legislative and Executive branches of government. I 
agreed to undertake a review of EPA's actions, assisted by my staff at 
The Cohen Group and the law firm DLA Piper LLP. I advised the 
Partnership that I would not review whether a mine should be built; 
such a determination would require engineering and scientific expertise 
beyond my capabilities. Nor would I comment on the legality of EPA's 
actions; that is a question for the courts. But I did feel qualified to 
review the process by which EPA assessed, and proposed restrictions to 
reduce, the environmental risks associated with potential mining in the 
Bristol Bay watershed.\6\
---------------------------------------------------------------------------
    \6\ See Independence and Methodology.
---------------------------------------------------------------------------
    I undertook the review on conditions of complete independence. I 
would follow the facts wherever they might lead, and any conclusions 
would be mine alone. The Pebble Partnership would have no rights to 
edit or censor my views. The Partnership agreed to this and to 
compensate my firm and DLA Piper according to commercially standard 
terms. No portion of our compensation was contingent upon the result of 
the review or the content of the report.\7\
---------------------------------------------------------------------------
    \7\ See id.
---------------------------------------------------------------------------
    To produce the most thorough and balanced review, we interviewed 
more than 60 people, including three former EPA administrators. The 
people interviewed represented all points of view on EPA's actions. 
(EPA declined my request to make current personnel available for 
interviews.) We reviewed thousands of documents from EPA, other federal 
agencies, the State of Alaska, Congressional committees, the Pebble 
Partnership, and other sources. My team also visited the Pebble Deposit 
Area to observe the Bristol Bay watershed.\8\
---------------------------------------------------------------------------
    \8\ See id.
---------------------------------------------------------------------------
    The decision about whether mining should occur in this area, as 
well as the process of making such a decision, has been highly 
controversial and has generated intense passions on all sides. The 
controversy has prompted an Inspector General's investigation, 
Congressional hearings, and litigation.\9\
---------------------------------------------------------------------------
    \9\ See id.
---------------------------------------------------------------------------
A. Background Facts
    The question of the appropriate process to make a determination to 
permit, limit, or ban development is at the heart of this review. EPA 
elected to proceed under Section 404(c) of the Clean Water Act to limit 
development within the Pebble Deposit Area.\10\ EPA undertook its 
Section 404(c) action before the Partnership filed a permit 
application, but after EPA had conducted an assessment of the potential 
effects of mining in the region, principally on fish.\11\ The State of 
Alaska and the Pebble Partnership have argued that EPA should have used 
the process that is customarily employed when assessing the effects of 
potential development; that is, the permit application process.\12\
---------------------------------------------------------------------------
    \10\ See Background Facts at Sections IV.A, IV.C, IV.E, and VIII.
    \11\ See id. at Sections II.D.3, VII, and IX.
    \12\ See id. at Sections IX.C-D.
---------------------------------------------------------------------------
    Congress passed the Clean Water Act in 1972 to ``restore and 
maintain the chemical, physical, and biological integrity of the 
Nation's waters.'' \13\ Under the Act, if a development would result in 
the discharge of dredged or fill materials in the nation's waters (as 
would be the case here), the developer must first receive a permit from 
the U.S. Army Corps of Engineers (the ``Corps'').\14\ The Corps 
evaluates a permit application (proposing a specific mine with specific 
control and mitigation measures) using guidelines it developed in 
conjunction with EPA and complies with the National Environmental 
Policy Act (``NEPA'') and regulations developed by the Council on 
Environmental Quality.\15\ NEPA mandates that the Corps coordinate with 
EPA and other interested agencies, prepare an environmental assessment, 
consider an array of public interest factors and the beneficial effects 
of the proposed project, assess mitigation plans, and evaluate 
alternatives.\16\ The Corps then either issues a permit and imposes 
conditions or denies the permit application.\17\ We refer to this as 
the ``Permit/NEPA Process.'' The Permit/NEPA Process has been widely 
endorsed by environmental groups, including the Natural Resources 
Defense Council.\18\
---------------------------------------------------------------------------
    \13\ Clean Water Act Sec.  101(a), 33 U.S.C.A. Sec.  1251(a) (West 
2015); see Background Facts at Section I.A.
    \14\ See Background Facts at Section I.B.
    \15\ See id.
    \16\ See id.
    \17\ See id.
    \18\ See id.
---------------------------------------------------------------------------
    Section 404(c) authorizes EPA to ``prohibit the specification 
(including the withdrawal of specification) of any defined area as a 
disposal site . . . whenever [the Administrator] determines . . . that 
the discharge of such materials into such area will have an 
unacceptable adverse effect'' on the environment.\19\ EPA may act under 
Section 404(c) whenever it has ``reason to believe'' based on available 
information that ``'an unacceptable adverse effect' could result from 
the specification or use for specification of a defined area for the 
disposal of dredged or fill material[.]''\20\ Regulations promulgated 
by EPA in 1979 allow it to initiate a process to deny or restrict the 
use of an area for the disposal of dredged or fill material before a 
project proponent has submitted a permit application.\21\
---------------------------------------------------------------------------
    \19\ 33 U.S.C.A.  1344(c); see Background Facts at Section I.C. 
The full text of Section 404(c) provides that:
      The Administrator is authorized to prohibit the specification 
(including the withdrawal of specification) of any defined area as a 
disposal site, and he is authorized to deny or restrict the use of any 
defined area for specification (including the withdrawal of 
specification) as a disposal site, whenever he determines, after notice 
and opportunity for public hearings, that the discharge of such 
materials into such area will have an unacceptable adverse effect on 
municipal water supplies, shellfish beds and fishery areas (including 
spawning and breeding areas), wildlife, or recreational areas. Before 
making such determination, the Administrator shall consult with the 
Secretary. The Administrator shall set forth in writing and make public 
his findings and his reasons for making any determination under this 
subsection.
    \20\ 40 C.F.R.  231.3(a) (2010); see Background Facts at Section 
I.C.
    \21\ See Background Facts at Section I.C.
---------------------------------------------------------------------------
    The decision regarding which process to use--the Permit/NEPA 
Process or the preemptive Section 404(c) process--has been a focal 
point of this controversy. Since passage of the Clean Water Act, EPA 
has exercised its authority under Section 404(c) thirteen times, in 
each case relying on a permit application that had already been 
filed.\22\ As an internal EPA document reveals, a truly preemptive 
Section 404(c) action had ``[n]ever been done before in the history of 
the [Clean Water Act].'' \23\
---------------------------------------------------------------------------
    \22\ See id. Technically, in one of these cases, there was no 
permit application, however EPA did rely on the permit application of 
two adjacent and separately-owned parcels to make the determination. 
EPA deemed the parcel to have the same characteristics as the other two 
properties and applied its Section 404(c) action to all three 
properties based on their coextensive characteristics. See Chronology 
of 404(c) Actions, EPA (Sept. 23, 2013), http://water.epa.gov/lawsregs/
guidance/wetlands/404c.cfm.
    \23\ EPA, DISCUSSION MATRIX (Sept. 8, 2010), at 1; see Background 
Facts at Section IV.E.
---------------------------------------------------------------------------
    Since the early 2000s, EPA has communicated with a variety of 
stakeholders who hold a wide range of views concerning mining in the 
Bristol Bay watershed and the potential development of a Pebble 
mine.\24\ Support for EPA's actions centers on concerns about the 
environmental impacts of mining and the perceived incompatibility of 
large-scale mining with the maintenance of a healthy ecosystem and 
salmon fishery and the preservation of the area residents' way of 
life.\25\ Opposition to EPA's actions is based largely on the potential 
economic benefits mining may yield for the region, basic ``due 
process'' and sovereignty considerations, and the Partnership's belief 
that mining can occur in the Pebble Deposit Area without harming the 
salmon fishery.\26\
---------------------------------------------------------------------------
    \24\ See Background Facts at Section III.C.
    \25\ See id. at Sections III.D, IV.B, VI.A.2, and VI.B.
    \26\ See id. at Sections III.E, IV.B, VI.A.2, VI.B, and IX.C-D.
---------------------------------------------------------------------------
    In May, 2010, six federally-recognized tribes from the Bristol Bay 
watershed asked EPA to invoke Section 404(c) to protect the region from 
metallic sulfide mining, including a potential Pebble mine.\27\ In the 
following months, others urged EPA to take action under Section 404(c), 
noting the cultural, ecological, and economic importance of the 
watershed and the magnitude of a potential Pebble mine.\28\ The State 
of Alaska, the Pebble Partnership, certain tribes, and other 
stakeholders opposed the request that EPA preemptively apply Section 
404(c), questioning the timing of and EPA's authority for such action 
and urging EPA to allow the Permit/NEPA Process to take place.\29\
---------------------------------------------------------------------------
    \27\ See id. at Section IV.B.
    \28\ See id.
    \29\ See id.
---------------------------------------------------------------------------
    On February 7, 2011, EPA announced its plan to conduct an 
assessment of the Bristol Bay watershed (the ``BBWA'') to determine the 
significance of its ecological resources and evaluate the potential 
effects of large-scale mining development.\30\ EPA invited various 
federal agencies to participate in the BBWA.\31\ The Corps declined to 
participate in order to maintain its independence in any subsequent 
Permit/NEPA Process.\32\ The State of Alaska participated in EPA's 
assessment while also registering its objection to the process.\33\ 
With EPA's assurance that it was not using the BBWA to make a decision 
under Section 404(c), the Pebble Partnership also participated in the 
assessment notwithstanding its objection to the study.\34\
---------------------------------------------------------------------------
    \30\ See Background Facts at Section V.B.
    \31\ See id. at Sections IV.D, IV.G, and V.B.
    \32\ See id. at Section V.B.
    \33\ See id.
    \34\ See id.
---------------------------------------------------------------------------
    To conduct the BBWA in the absence of any permit application, EPA 
made assumptions about potential mine operations in the Pebble Deposit 
Area and created hypothetical mine scenarios based largely on a 
preliminary economic analysis prepared for the Pebble Partnership.\35\ 
Over the course of three years, EPA prepared and issued two BBWA drafts 
for public comment and peer review.\36\ The considerable public 
participation in response to the BBWA drafts reflected a wide diversity 
of opinion as to the quality and comprehensiveness of the BBWA.\37\ 
Environmental non-governmental organizations, commercial fishermen, 
many Alaska Native tribes and tribal organizations, and some state 
legislators commended EPA on its effort and praised the scientific 
rigor of the BBWA drafts.\38\ The State of Alaska, the Pebble 
Partnership, and other Alaska Native tribes and interested parties 
identified technical and legal issues they believed undermined the 
validity of the BBWA, including reliance on hypothetical mine scenarios 
and failure to consider mitigation strategies to compensate for the 
loss of wetland habitat caused by mine development.\39\
---------------------------------------------------------------------------
    \35\ See id. at Section VII.A.
    \36\ See Background Facts at Sections VI-VII.
    \37\ See id. at Sections VI.A.2 and VI.B.
    \38\ See id.
    \39\ See id.
---------------------------------------------------------------------------
    Some peer reviewers raised concerns about the use of hypothetical 
mine scenarios in the BBWA--noting that this approach limited the 
utility of the study in such a way that the assessment might not 
``provide risk decision-makers with sufficient information upon which 
to make long-term project decisions''--and about the aforementioned 
failure to address mitigation.\40\ EPA defended its work, asserting 
that ``all mining plans are hypothetical'' and that analyzing efforts 
to mitigate adverse effects ``would be addressed through a regulatory 
process that is beyond the scope of this assessment.''\41\
---------------------------------------------------------------------------
    \40\ EPA, Response to Peer Review Comments on the May 2012 and 
April 2013 Drafts of an Assessment of Potential Mining Impacts on 
Salmon Ecosystems of Bristol Bay 65-66 (2014); see Background Facts at 
Section VI.A.3.
    \41\ EPA, Response to Peer Review Comments on the May 2012 and 
April 2013 Drafts of an Assessment of Potential Mining Impacts on 
Salmon Ecosystems of Bristol Bay 65-66, 114-115 (2014); see Background 
Facts at Section VI.A.3.
---------------------------------------------------------------------------
    EPA published the final BBWA on January 21, 2014.\42\ EPA stated 
that the BBWA was not designed to duplicate or replace the Permit/NEPA 
Process and acknowledged that certain analyses were not undertaken in 
the BBWA that would occur during the Permit/NEPA Process.\43\ Among the 
most significant gaps was that the BBWA employed hypothetical 
assumptions as to mine operation and mitigation rather than considering 
the techniques a developer would propose in an actual permit 
application.\44\ EPA nevertheless expressed confidence that its 
analyses were conservative and that compensatory mitigation techniques 
were unlikely to offset impacts of the nature described in the 
BBWA.\45\
---------------------------------------------------------------------------
    \42\ See Background Facts at Section VII.
    \43\ See id. at Section VII.A.
    \44\ See id.
    \45\ See id; see also id. at Section IX.
---------------------------------------------------------------------------
    Based on the BBWA, EPA issued its notice of intent to proceed under 
Section 404(c) on February 28, 2014.\46\ EPA gave the Corps, the State 
of Alaska, and the Pebble Partnership 60 days to submit information to 
demonstrate that no unacceptable adverse effects to aquatic resources 
would result from any associated mining discharges.\47\ The Corps 
declined to provide substantive comments on the ground that there was 
no pending permit application.\48\ The State of Alaska and the Pebble 
Partnership reiterated their respective positions that the Section 
404(c) action was premature and that the BBWA was flawed.\49\ Their 
response letters did not persuade EPA to change course, and EPA moved 
forward with its Section 404(c) action.\50\
---------------------------------------------------------------------------
    \46\ See id. at Section VIII.
    \47\ See Background Facts at Sections VIII, VIII.B-C.
    \48\ See id. at Section VIII.A.
    \49\ See id. at Sections VIII.B-C.
    \50\ See id. at Section VIII.D.
---------------------------------------------------------------------------
    On July 18, 2014, EPA Region 10 issued a Proposed Determination 
relating to development in the Pebble Deposit Area.\51\ EPA premised 
its regulatory action on a hypothetical scenario assessed in the 
BBWA.\52\ EPA proposed restrictions based on its conclusion that an 
``unacceptable adverse effect on fishery areas'' would result from 
development that would cause estimated losses of habitat greater than 
those associated with the hypothetical 0.25 billion-ton mine it 
evaluated in the BBWA.\53\ Since that time, litigation has ensued, and 
there is currently an injunction in place temporarily prohibiting EPA 
from further proceedings.\54\
---------------------------------------------------------------------------
    \51\ See id. at Section IX.
    \52\ See id.
    \53\ See Background Facts at Section IX.
    \54\ See id. at Section X.E.
---------------------------------------------------------------------------
B. Observations and Conclusion
    Over the course of this review, I have arrived at a number of 
observations, including:

    <bullet>  The issue of whether mining should occur in the Bristol 
Bay watershed is of the utmost importance to the State of Alaska's 
environment, economy, people, and fish and wildlife;
    <bullet>  To date, the Pebble Partnership has not submitted a 
permit application. Thus, EPA relied on hypothetical scenarios rather 
than the characteristics of a mine as it was actually planned to be 
built and maintained;
    <bullet>  EPA failed to address important considerations that would 
be included in the NEPA/Permit Process, including meaningful 
participation by other state and federal government agencies, 
mitigation and controls as proposed by the developer, and an array of 
public interest factors;
    <bullet>  The Permit/NEPA Process has been used for decades and has 
been widely endorsed by environmental groups;
    <bullet>  EPA relied upon the BBWA in its Proposed Determination 
but acknowledged that there were significant gaps in its assessment and 
that it was not designed to duplicate or replace the Permit/NEPA 
Process; and
    <bullet>  EPA's unprecedented, preemptive use of Section 404(c) 
inhibited the involvement of two key participants: the Corps and the 
State of Alaska.\55\
---------------------------------------------------------------------------
    \55\ See Conclusion and Observations.

    These observations have informed my conclusion that that EPA's 
application of Section 404(c) prior to the filing of a permit 
application was not fair to all stakeholders.\56\ I find that:
---------------------------------------------------------------------------
    \56\ See id.

        The fairest and most appropriate process to evaluate possible 
        development in the Pebble Deposit Area would use the 
        established regulatory Permit/NEPA Process to assess a mine 
        permit application, rather than using an assessment based upon 
        the hypothetical mining scenarios described in the BBWA as the 
        basis for imposing potentially prohibitive restrictions on 
        future mines.\57\
---------------------------------------------------------------------------
    \57\ See id.

The Permit/NEPA Process is more comprehensive than the preemptive 
Section 404(c) process employed here. EPA conceded in comments to peer 
reviewers that there were gaps in its assessment that would be 
addressed during a Permit/NEPA Process.\58\
---------------------------------------------------------------------------
    \58\ See id.
---------------------------------------------------------------------------
    While I recognize EPA's authority to initiate Section 404(c) 
actions, here EPA acknowledged it did so in an unprecedented manner. 
EPA's use of Section 404(c) before a permit filing compounded the 
shortcomings of the BBWA noted by several peer reviewers, the State of 
Alaska, and the Pebble Partnership: the use of hypothetical assumptions 
that may or may not accurately or fairly represent an actual project; 
and the failure to take into account mitigation and control techniques 
a developer might propose.\59\
---------------------------------------------------------------------------
    \59\ See id.
---------------------------------------------------------------------------
    An environmental impact assessment is bound to provide more 
accurate information if it assumes that the mine will be built in 
accordance with the developer's plans, rather than a hypothetical mine 
plan which even EPA acknowledges is likely to be different from a 
developer-submitted plan. This project is too important, for all 
stakeholders, to pilot a new, untested decision-making process. The 
fairest approach is to use the well-established Permit/NEPA Process, 
and I can find no valid reason why that process was not used.\60\
---------------------------------------------------------------------------
    \60\ See id.
---------------------------------------------------------------------------
    The statements and actions of EPA personnel observed during this 
review raise serious concerns as to whether EPA orchestrated the 
process to reach a predetermined outcome; had inappropriately close 
relationships with anti-mine advocates; and was candid about its 
decision-making process. I have not attempted to reach conclusions on 
these issues. First, any such findings would not affect my overarching 
conclusion about the process that should have been followed. Second, 
the record remains incomplete on these issues. EPA declined my requests 
to cooperate with this review, so I allow there may be benign 
explanations for these actions. There are also troubling gaps in the 
documents EPA has produced in response to Freedom of Information Act 
requests, including those said to be lost as a result of a computer 
crash and EPA personnel's use of personal email.\61\
---------------------------------------------------------------------------
    \61\ See Conclusion and Observations.
---------------------------------------------------------------------------
    I believe the information unearthed to date merits the development 
of a complete record by those who have the subpoena power necessary to 
look at these questions more closely. Government oversight by the 
proper authorities must play an active role in ensuring that agencies 
do not engage in preordained decision-making. Thus, I urge the EPA's 
Inspector General and Congress to continue to explore these questions 
which might further illuminate EPA's motives and better determine 
whether EPA has met its core obligations of government service and 
accountability.\62\
---------------------------------------------------------------------------
    \62\ See id.
---------------------------------------------------------------------------
    It is my hope that the policymakers involved in charting the course 
of the Bristol Bay watershed's future find this report helpful. I have 
tried to describe the history of EPA's actions accurately and 
objectively. As we look to the future, I urge policymakers to consider 
requiring the use of the Permit/NEPA Process. This process, which 
entails compliance with NEPA and other regulatory requirements, an 
environmental impact statement, and input from EPA, other relevant 
agencies, and the State of Alaska, will supply the gaps in information 
which the BBWA left outstanding. This decision is too important to be 
made with anything less than the best and most comprehensive 
information available.\63\
---------------------------------------------------------------------------
    \63\ See id.

                                 <F-dash>
 Supplemental Written Testimony Provided by Richard K. Borden, Owner, 
                   Midgard Environmental Services LLC
    I would like to thank Chairwoman Napolitano, Ranking Member 
Westerman, and Members of the Subcommittee for the opportunity to 
present this supplemental written testimony on the ``Pebble Mine 
Project: Process and Potential Impacts.'' This supplemental written 
testimony provides additional information and clarification on three 
issues which arose during the hearing on October 23, 2019: 1) concerns 
were raised by some Subcommittee Members as to why the Pebble Project 
Environmental Impact Statement (EIS) needs to be scrutinized now, when 
the process is still ongoing; 2) there was contradictory testimony on 
the relative height of the proposed Pebble bulk tailings dam compared 
to other tailings dams in the global inventory; and 3) there was 
contradictory testimony on the uniqueness of the design for the 
proposed Pebble water treatment plants.
                 Environmental Impact Statement Process
    The Pebble Project EIS schedule published on the Army Corps of 
Engineers website predicts the final EIS will be completed in early 
2020 and a record of decision will be issued by mid-2020. The schedule 
does not include any more opportunities for public review of the 
revised EIS before it is issued as final. This is a major concern 
because the Draft EIS contains so many strategic errors and omissions 
that I consider it fatally flawed; and a Final EIS could be issued 
without allowing public experts in geology, mining, environment, 
communities and fisheries to confirm that their concerns have been 
adequately and honestly addressed. If the fatal flaws in the Draft EIS 
are not fully addressed, this would almost certainly require, at a 
minimum, the completion of a Supplemental EIS, recirculated in draft 
for public comment. It is for this reason that I believe the Pebble EIS 
process does need to be scrutinized at the highest levels.
                      Relative Tailings Dam Height
    According to the Pebble Project Description written by the Pebble 
Partnership and incorporated into the Draft EIS as Appendix N, the main 
embankment of the bulk tailings dam will be up to 545 feet high. Based 
upon additional research completed after the hearing, the proposed 
Pebble tailings dam is almost certain to be higher than 99% of the 
tailings dams constructed to date across the world and may be higher 
than 99.9% of the existing dams. Six of the eight largest mining 
companies in the world by market capitalization have recently published 
tailings dam inventories in response to several large-scale and high-
profile tailings dam failures. In sum BHP Billiton, Rio Tinto, Vale, 
Glencore, Newmont and Anglo American manage over 650 tailings dams. 
Only two of these dams are over 545 feet high which means that the 
proposed Pebble dam would be higher than 99.7% of the tailings dams 
managed by the world's largest and most experienced mining companies. 
Furthermore, only 1% of the tailings dams managed by these six 
companies exceed 400 feet in height. No data could be found for the 
fifth and six largest mining companies in the world which are China 
Shenhua Energy and Norilsk Nickel of Russia.
    A commonly cited estimate is that there are more than 3500 tailings 
dams in the world. Many of these dams are associated with small 
historic mining operations and with small mining companies. It is 
almost certain that these dams are, on average, smaller than the very 
large, high-tonnage operations managed by the world's biggest modern 
mining companies.
                 Proposed Water Treatment Plant Design
    According to the Pebble Project Description written by the Pebble 
Partnership and incorporated into the Draft EIS as Appendix N, ``the 
annual average [water] surplus is estimated at approximately 29 cubic 
feet per second for the maximum mine site footprint''. This equates to 
an annual average of 13,000 gallons per minute that will need to be 
treated towards the end of the mine's life. The Draft EIS also predicts 
that water treatment requirements will rise to 22,000 gallons per 
minute in early closure. The proposed water treatment plant designs are 
extremely complex, still have significant uncertainties and are likely 
to have very high operating costs. According to Section 4-18 of the 
DEIS ``both facilities would employ treatment plant processes commonly 
used in mining and other industries around the world''. While this is 
certainly true of individual plant components, I am not aware of a 
treatment flowsheet with this many steps and of this complexity being 
applied to such high flows anywhere else in the world. In this respect 
it is unprecedented.
    The contaminated water flows predicted at Pebble are larger than 
about 95% of the 108 global mine water treatment plants detailed in the 
2013 report ``Review of Mine Drainage Treatment and Sludge Management 
Operations'' (Canadian Mine Environmental Neutral Drainage Report 
3.43.1). The most common treatment technology for high flow volumes 
used in the metals mining industry involves relatively simple lime and 
flocculant addition to raise the pH and remove dissolved metals. 
However, the treatment technologies incorporated into the two proposed 
Pebble plants are much more complex. They include initial metals 
precipitation with lime, sodium hydroxide and other reagents, secondary 
metals precipitation using sodium hydrogen sulfide and other reagents, 
clarification and ultrafiltration at both plants. The open pit 
treatment plant also includes reverse osmosis and a biological reactor 
for selenium removal. The main water treatment plant also includes 
nanofiltration, followed by gypsum precipitation via lime addition, 
clarification, reverse osmosis and evaporation (EIS Chapter 2 and 
Appendix K, 4.13).

                                 <F-dash>
Chart and Email Provided by Alannah Hurley, Executive Director, United 
                         Tribes of Bristol Bay
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 <F-dash>
  Screen captures, ``CNN Exclusive: Complaint Seeks Investigation of 
Alleged Insider Trading That May Have Come From a Trump Administration 
    Leak,'' Provided by Brian Kraft, Owner, Alaska Sportsman's Lodge
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                 <F-dash>
Companies Opposed to Proposed Pebble Mine, Submitted for the Record by 
                         Hon. Peter A. DeFazio
    Nearly 200 leading companies in the fly fishing and outdoor 
gear industry groups have voiced opposition to the proposed 
Pebble Mine.

                     Guides, Outfitters and Lodges:
 
 
 
                     AK Adventures   Alagnak Lodge    Alaska Alpine
                                      Alaska           Adventures
            Alaska Bear Adventures   Alaska's         Alaska Fly Fishers
                                      Fishing
                                      Unlimited
                                      Lodge
         Alaska Rainbow Adventures   Alaska           Alaska Trophy
                                      Sportsman's      Adventures
                                      Lodge*
      Alaska Trophy Fishing Safari   Bear Trail       Beluga Air
                                      Lodge
     Beyond Boundaries Expeditions   Blue Fly Bed &   Blue Mountain
                                      Breakfast        Lodge
                                      Guide Service
            Bristol Bay Adventures   Copper River     Crystal Creek
                                      Lodge            Lodge*
                  Deneki Outdoors*   Enchanted Lake   Epic Angling and
                                      Lodge            Adventure
                      Fishing Bear   Fish and Float   Frigate Adventure
                                      Alaska           Travel
             Frontier River Guides   Grizzly Skins    Iguigig Lodge
                                      of Alaska
                    Iliamna River LodKatmai Service   Katmai Wilderness
                                      Providers        Lodge
                        No See Um LodSweetwater       Tikchik Narrows*
                                      Travel Company
                     Togiak River LodRainbow River    Royal Coachman
                                      Lodge
      Western Alaska Sport Fishing   Wild on the Fly
 


                          Brands and Retailers:
 
 
 
                              Abel   Abu Garcia       AirFlo Fly Fishing
                                                       Tackle
            All Star Graphite Rods   Albright         Berkeley
                            Beulah   Berkley          Boss Tin
                   Brunton Outdoor   Castaway Rods    Chota Outdoor Gear
           Clackacraft Drift Boats   Clear Creek      Cliff Outdoors
                                      Fishing Gear
                         Cloudveil   Cortland         Costa del Mar
Diamondback Fly Rods and Fly Reels   Dragon Tackle    Dr Slick Company
                  ECHO Fly Fishing   Elkhorn Fly rod  Exefficio
                                      and Reel
                        Fetha Styx   Filson           Fly Water Travel
                                                       LLC
                  Frontiers Travel   Fenwick          Fishpond
                  Galvan Fly Reels   Gamakatsu        Gamma
                               G. LooGreys            Guideline
                             Hardy   Hatch Outdoors   Hendrix Outdoors
                         HMH Vices   International    Islander
                                      Sportsman's      Sportfishing
                                      Exposition
            Jim Teeny Incorporated   Johnson Fishing  Kaenon Polarized
                                  LL Lamiglas         Lateral Line
                                  LooLoop Tackle      Marryat
                          Mitchell   Montana Fly      Mustad
                                      Company
                    Nautilus Reels   Norstream        Orvis
             Outcast Sporting Gear   OPM Fishing      Optic Nerve
                                      Tackle
                         Patagonia   PENN             Pflueger
        Pro Troll Fishing Products   Pure Fishing     Rec Components
                         Redington   Renzetti         Rep Your Water
                  Rising Fish Nets   Rio Products     RL Winston Rod
                                                       Company
                    RO Drift Boats   Ross Reels       Sage
          Salmon Trout Steelheader   Scierra Fly      Scott Fly Rods
                                      Fishing
                             Simms   Shakespeare      Shallow Water
                                      Fishing and      Fishing Expo
                                      Supplies
                      Smith Optics   Snowbee USA      Spiderwire
                     St Croix Rods   Stream Works     Stren
                            Targus   Temple Fork      Tibor Reels
                                      Outfitters
                                      Flyrods
                      The Fly Shop   The Fly Fishing  Thomas and Thomas
                                      Show
                           Turrall   Ugly Stik        Van Staal
                          Vosseler   Wapsi            Waterworks Lamson
                    William Joseph   Wind River Fly   Woolrich
                                      Fitter
  Yellow Dog Flyfishing Adventures
 


                                  Media
 
 
 
                       Amato Books   Fish and Fly     Fly Fish America
              Fly Fishing Magazine   Fly Fusion       Grays Sporting
                                      Magazine         Journal
                  Hendrix Outdoors   Match the Hatch  Ribolowacki
                                                       Magazine
                         The Drake   This is Fly
 

    Over 100 jewelers, representing more than $6 billion in 
annual sales, have pledged support for protecting Bristol Bay 
from the proposed Pebble Mine.

                                Jewelers
 
 
 
                      Beaverbrooks   Ben Bridge       Birks and Mayors
                                      Jewelers
                    Boucheron (UK)   Commemorative    Fortunoff
                                      Brands Inc.
                  Fraser Hart (UK)   Goldsmiths       Hacker Jewelers
                 Helzberg Diamonds   Herff-Jones      Ingle & Rhode (UK)
                                  LebMappin and Webb  Tiffany and Co.
                       Zales Corp.
 


                                 <F-dash>
      Timeline of Pebble Mine Process, Submitted for the Record by
                         Hon. Peter A. DeFazio

----------------------------------------------------------------------------------------------------------------
        Year                                                    Label
----------------------------------------------------------------------------------------------------------------
         2019                                         EPA announces final repeal of Proposed Determination
         2019           EPA directs Region 10 Administrator to resume withdrawal of Proposed Determination
         2019                                      President Trump meets with Alaska Governor Dunleavy \1\
         2019                                                                                            PLP proposes project amendments \2\
         2018                                 EPA suspends proposal to withdraw its Proposed Determination
         2017                                                                                            PLP submits new and revised permit application
         2017                                       EPA proposes withdrawal of 2014 Proposed Determination
         2017                                                                EPA settles litigation with PLP, promising withdrawal of Proposed Determination
         2017                                    EPA Administrator Pruitt meets with Tom Collier, CEO of PLP \3\
         2016                                                         IG Clears EPA of bias or wrong-doing
         2014                                Federal judge signs a preliminary injunction halting EPA work
         2014        EPA Releases Proposed Determination, with recommendations to limit the scope of a mining
                                                                                                   project
         2014                                                                                            PLP calls on EPA to halt 404(c) process, files suit
         2014                                                EPA Announces intent to pursue 404(c) process
         2014        Final Bristol Bay Watershed Assessment is released, finding inevitable negative effects
         2014                                              Rio Tinto Group divests its 19.8% ownership \4\
         2013                                                  Anglo American divests its 50% interest \5\
         2012                EPA Releases two draft watershed assessments for public input and peer review
         2011                                               Mitsubishi Corp. divests its 9.1% interest \6\
         2011                                                                      EPA study period begins
         2011                                                                 Formal plan filed by Pebble Limited Partnership (PLP) \7\
         2010                            Zale Corp. joins boycott of precious metals mined from Pebble \8\
         2008                      Tiffany and Co., Ben Bridge Jewelers, Helzberg Diamonds, Fortunoff and Leber
                                                            boycott of any metals mined at Pebble \9\ \10\
----------------------------------------------------------------------------------------------------------------
 Most events: https://pebblewatch.com/epa-in-bristol-bay-timeline/, otherwise noted below.
1 https://www.cnn.com/2019/08/09/us/epa-alaska-pebble-mine-salmon-invs/index.html
2 https://pebbleprojecteis.com/files/083461a0-998f-4686-8f6a-38546b64c632
3 https://www.cnn.com/2017/09/22/politics/pebble-epa-bristol-bay-invs/index.html
4 https://www.adn.com/economy/article/latest-blow-pebble-prospect-mining-giant-rio-tinto-pulling-out/2014/04/07/
5 https://web.archive.org/web/20140821042341/http://www.northerndynastyminerals.com/ndm/
  NewsReleases.asp?ReportID=615657
6 https://www.sec.gov/Archives/edgar/data/877197/000095014211000433/eh11000089_sc13ga4-ndml.htm
7 https://www.sec.gov/Archives/edgar/data/1164771/000106299311000722/exhibit99-1.htm
8 https://www.fieldandstream.com/blogs/fishing/2010/04/major-us-jewelry-maker-boycott-alaska-pebble-mine-gold/
9 https://www.alaskajournal.com/community/2008-02-17/major-retail-jewelers-take-stance-against-pebble-mine
10 https://earthworks.org/media-releases/jewelry_retailers_opposition_to_pebble_mine_gains_momentum/


                                Appendix

                              ----------                              


  Question from Hon. Don Young to Alannah Hurley, Executive Director, 
                      United Tribes of Bristol Bay

    Question 1. What rivers are your members fishing that are directly 
tied to Lake Iliamna?
    Answer. UTBB represents 15 tribes in Bristol Bay that make up over 
80% of the total population of the region. The Pebble project is in an 
area that has the capacity to impact both major river systems in 
Bristol Bay. Please see maps and further explanation below.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


    The mine site is in the area of the Koktuli river that flows into 
the Mulchatna River, which then flows into the Nushagak River that 
connects the area to all of Western Bristol Bay. Additionally, the mine 
site area is connected to the Upper and Lower Talarik Creeks that flow 
into Lake Iliamna, which empties into the Kvichak River, that connects 
to the area of all of Eastern Bristol Bay and the Alaska Peninsula. 
Every one of United Tribes of Bristol Bay communities are connected to 
the waterbodies that will be impacted by the Pebble Mine.
    Please don't hesitate to reach out with any further questions and 
we look forward to working with the Committee to ensure decisions 
regarding Bristol Bay by the U.S. government are based on a robust 
scientific process that respects and incorporates the traditional 
ecological knowledge of Bristol Bay's tribes.

          Question from Hon. Don Young to Brian Kraft, Owner,
                        Alaska Sportsman's Lodge

    Question 1. How many of your direct hire employees are members from 
the communities surrounding Lake Iliamna?
    Answer. Three.
    
    
                                [all]

                                    
</pre></body></html>
